APPENDIX

1a

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
CELGENE CORPORATION,
Appellant
v.
LAURA A. PETER, DEPUTY UNDER
SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DEPUTY
DIRECTOR OF THE UNITED STATES PATENT
AND TRADEMARK OFFICE,
Intervenor
2018-1167, 2018-1168, 2018-1169
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2015-01096, IPR2015-01102, IPR2015-01103.
----------------------------CELGENE CORPORATION,
Appellant
v.
LAURA A. PETER, DEPUTY UNDER
SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND
DEPUTY DIRECTOR OF THE UNITED
STATES PATENT AND TRADEMARK OFFICE,
Intervenor

2a
2018-1171
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2015-01092.
Decided: July 30, 2019
GREGORY A. CASTANIAS, Jones Day, Washington,
DC, argued for appellant. Also represented by JIHONG
LOU, JENNIFER LORAINE SWIZE; GASPER LAROSA, New
York, NY; ANTHONY INSOGNA, San Diego, CA; FRANK
CHARLES CALVOSA, F. DOMINIC CERRITO, ANDREW
CHALSON, Quinn Emanuel Urquhart & Sullivan, LLP,
New York, NY.
AMY J. NELSON, Office of the Solicitor, United States
Patent and Trademark Office, Alexandria, VA, argued
for intervenor. Also represented by MEREDITH HOPE
SCHOENFELD, THOMAS W. KRAUSE. Also argued by
KATHERINE TWOMEY ALLEN, Appellate Staff, Civil
Division, United States Department of Justice,
Washington, DC. Also represented by MARK R.
FREEMAN, SCOTT R. MCINTOSH, JOSEPH H. HUNT.
Before PROST, Chief Judge, BRYSON and REYNA,
Circuit Judges.
PROST, Chief Judge.
The Coalition for Affordable Drugs VI LLC
(“CFAD”) filed a petition for inter partes review (“IPR”)
challenging the validity of all of the claims of U.S.
Patent No. 6,045,501 (“the ’501 patent”) and three
petitions for IPR challenging the validity of all of the
claims of U.S. Patent No. 6,315,720 (“the ’720 patent”).

3a
The Patent Trial and Appeal Board (“Board”)
determined that all of the claims of the ’501 patent and
claims 1–9 and 11–32 of the ’720 patent were obvious.
Celgene Corporation (“Celgene”) appeals the Board’s
decisions.
For the reasons explained below, we affirm the
Board’s decisions finding the appealed claims obvious.
We also hold that the retroactive application of IPR
proceedings to pre-AIA patents is not an
unconstitutional taking under the Fifth Amendment.
I
A
A teratogen is an agent known to disturb the
development of an embryo or fetus. Teratogenic drugs
can cause birth defects or other abnormalities
following fetal exposure during pregnancy. One
example of a teratogenic drug is thalidomide.
Thalidomide, first synthesized in 1957, was originally
marketed for use as a sedative in many countries, not
including the United States. See ’501 patent col. 1 ll.
19–22. Following reports of serious birth defects,
thalidomide was withdrawn from all markets by 1962.
Id. at col. 1 ll. 22–24. Despite these teratogenic
effects, thalidomide has proven to be effective in
treating other conditions. See id. at col. 1 ll. 24–35.
The ’501 patent and the ’720 patent are generally
directed to methods for safely distributing teratogenic
or other potentially hazardous drugs while avoiding
exposure to a fetus to avoid adverse side effects of the
drug.
B
In order to obtain FDA approval to sell and
distribute thalidomide, Celgene developed a system to

4a
safely distribute thalidomide to patients, which it
called the System for Thalidomide Education and
Prescription Safety (“Original S.T.E.P.S.”). Appeal
No. 18-1171, Appellant’s Br. 8–9.
According to
Celgene, the ’501 patent is directed to its Original
S.T.E.P.S. program. See id. at 10.
Celgene’s ’501 patent relates to “methods for
delivering a drug to a patient while preventing the
exposure of a foetus or other contraindicated
individual to the drug.” ’501 patent at Abstract.
Claim 1 is representative and states:
1. A method for delivering a teratogenic drug to
patients in need of the drug while avoiding the
delivery of said drug to a foetus comprising:
a. registering in a computer readable storage
medium prescribers who are qualified to
prescribe said drug;
b. registering in said medium pharmacies to
fill prescriptions for said drug;
c. registering said patients in said medium,
including information concerning the ability of
female patients to become pregnant and the
ability of male patients to impregnate females;
d. retrieving from said medium information
identifying a subpopulation of said female
patients who are capable of becoming pregnant
and male patients who are capable of
impregnating females;
e. providing to the subpopulation, counseling
information concerning the risks attendant to
fetal exposure to said drug;

5a
f. determining whether patients comprising
said subpopulation are pregnant; and
g. in response to a determination of nonpregnancy for said patients, authorizing said
registered pharmacies to fill prescriptions from
said registered prescribers for said nonpregnant registered patients.
Id. at claim 1. Claim 2 recites “[t]he method of claim 1
wherein said drug is thalidomide.” The remaining
claims depend from claim 1 and are not limited to
thalidomide.
CFAD filed a petition for IPR challenging all ten
claims of the ’501 patent. The Board instituted review
of claims 1–10 on a single ground—obviousness based
on Powell,1 Mitchell,2 and Dishman.3 Coalition for
Affordable Drugs VI LLC v. Celgene Corp.,
No. IPR2015-01092, Paper 20 (P.T.A.B. Oct. 27, 2015).
In its final written decision, the Board held that
CFAD had shown by a preponderance of the evidence
that claims 1–10 of the ’501 patent are unpatentable
as obvious over the combination of Powell, Mitchell,
and Dishman. Coalition for Affordable Drugs VI LLC
1

R.J. Powell & J.M.M. Gardner-Medwin, Guideline for the
Clinical Use and Dispensing of Thalidomide, 70 Postgrad Med. J.
901–904 (1994) (Appeal No. 18-1171, J.A. 324–25).
2

Allen A. Mitchell et al., A Pregnancy-Prevention Program
in Women of Childbearing Age Receiving Isotretinoin, 333:2 New
Eng. J. Med. 101–06 (July 13, 1995) (Appeal No. 18-1171, J.A.
328–33).
3

Benjamin R. Dishman et al., Pharmacists’ Role in
Clozapine Therapy at a Veterans Affairs Medical Center, 51 Am.
J. Hosp. Pharm. 899–901 (Apr. 1, 1994) (Appeal No. 18-1171, J.A.
334–36).

6a
v. Celgene Corp., No. IPR2015-01092, Paper 73, at 33
(P.T.A.B. Oct. 26, 2016) (“’501 Final Written
Decision”). The Board denied Celgene’s request for
rehearing.
C
In the interim, Celgene “overhaul[ed]” its Original
S.T.E.P.S. program to create what it called an
“Enhanced S.T.E.P.S.” program. Appeal No. 18-1167,
Appellant’s Br. 8–9. According to Celgene, the ’720
patent is directed to its Enhanced S.T.E.P.S. program.
See id. at 10.
Celgene’s ’720 patent relates to “[i]mproved
methods for delivering to a patient in need of the drug,
while avoiding the occurrence of an adverse side effect
known or suspected of being caused by the drug.” ’720
patent at Abstract. Claim 1, written in Jepson format,
states:
1. In a method for delivering a drug to a patient
in need of the drug, while avoiding the occurrence
of an adverse side effect known or suspected of
being caused by said drug, wherein said method
is of the type in which prescriptions for said drug
are filled only after a computer readable storage
medium has been consulted to assure that the
prescriber is registered in said medium and
qualified to prescribe said drug, that the
pharmacy is registered in said medium and
qualified to fill the prescription for said drug, and
the patient is registered in said medium and
approved to receive said drug, the improvement
comprising:

7a
a. defining a plurality of patient risk groups
based upon a predefined set of risk parameters
for said drug;
b. defining a set of information to be obtained
from said patient, which information is
probative of the risk that said adverse side
effect is likely to occur if said drug is taken by
said patient;
c. in response to said information set, assigning
said patient to at least one of said risk groups
and entering said risk group assignment in
said medium;
d. based upon said information and said risk
group assignment, determining whether the
risk that said adverse side effect is likely to
occur is acceptable; and
e. upon a determination that said risk is
acceptable, generating a prescription approval
code to be retrieved by said pharmacy before
said prescription is filled.
CFAD filed three petitions for IPR, each challenging
all 32 claims of the ’720 patent. The Board instituted
review of claims 1–32 in all three cases. In the first
IPR, the Board instituted review based on obviousness
over the Thalomid Package Insert,4 Cunningham,5
Zeldis,6 and other prior art. Coalition for Affordable
4

ThalomidTM (Thalidomide) Capsules Revised Package
Insert (July 15, 1998) (Appeal No. 18-1167, J.A. 411–32).
5

U.S. Patent No. 5,832,449 (Appeal No. 18-1167, J.A. 440–

62).
6

Jerome B. Zeldis et al., S.T.E.P.S.TM: A Comprehensive
Program for Controlling and Monitoring Access to Thalidomide,

8a
Drugs VI, LLC v. Celgene Corp., No. IPR2015-01096,
Paper 21 (P.T.A.B. Oct. 27, 2015). In the second IPR,
the Board instituted review based on obviousness over
Powell and Dishman, in view of Cunningham, and
further in view of Mann7 and other prior art. Coalition
for Affordable Drugs VI, LLC v. Celgene Corp.,
No. IPR2015-01102, Paper 21 (P.T.A.B. Oct. 27, 2015).
In the third IPR, the Board instituted review based on
obviousness over the same references as the second
IPR but using Mitchell instead of Powell as the base
reference. Coalition for Affordable Drugs VI, LLC v.
Celgene Corp., No. IPR2015-01103, Paper 22 (P.T.A.B.
Oct. 27, 2015).
In each of its final written decisions, the Board held
that CFAD had shown by a preponderance of the
evidence that claims 1–32 of the ’720 patent were
unpatentable as obvious over the instituted ground.
Coalition for Affordable Drugs VI, LLC v. Celgene
Corp., No. IPR2015-01096, Paper 73 (P.T.A.B. Oct. 26,
2016) (“-01096 Final Written Decision”); Coalition for
Affordable Drugs VI, LLC v. Celgene Corp.,
No. IPR2015-01102, Paper 75 (P.T.A.B. Oct. 26, 2016)
(“-01102 Final Written Decision”); Coalition for
Affordable Drugs VI, LLC v. Celgene Corp.,
No. IPR2015-01103, Paper 76 (P.T.A.B. Oct. 26, 2016)
(“-01103 Final Written Decision”). Following Celgene’s
request for rehearing, the Board modified its final
Clinical Therapeutics® 21:2, 319–30 (1999) (Appeal No. 18-1167,
J.A. 491–502).
7

Thaddeus Mann & Cecelia Lutwak-Mann, Passage of
Chemicals into Human and Animal Semen: Mechanisms and
Significance, 11:1 CRC Critical Reviews in Toxicology 1, 1–14
(1982) (Appeal No. 18-1167, J.A. 8237–52).

9a
written decisions to uphold the patentability of
claim 10 because CFAD failed to prove that claim
obvious by a preponderance of the evidence.
D
Celgene timely appealed all four IPRs.
We
consolidated the appeals from the three IPRs on
the ’720 patent (Appeal Nos. 18-1167, 18-1168,
18-1169) and designated the appeal from the IPR on
the ’501 patent (Appeal No. 18-1171) as a companion
case. CFAD did not participate in these appeals. The
Director of the United States Patent and Trademark
Office (“PTO”) intervened pursuant to 35 U.S.C. § 143.
We have jurisdiction over these appeals pursuant to
28 U.S.C. § 1295(a)(4)(A).
II
On appeal, Celgene argues that the Board erred in
finding all claims of the ’501 patent and claims 1–9
and 11–32 of the ’720 patent obvious. Celgene also
argues that the retroactive application of IPRs to
patents filed before September 16, 2012, when the
relevant provisions of the Leahy-Smith America
Invents Act went into effect (“pre-AIA patents”), is an
unconstitutional taking. We begin by addressing the
merits of these appeals. Then, because we affirm the
Board’s obviousness determinations, we turn to the
constitutional challenge.
A
1
Obviousness is
underlying factual
Berk-Tek LLC, 805
We review the

a question of law based on
determinations. Belden Inc. v.
F.3d 1064, 1073 (Fed. Cir. 2015).
Board’s ultimate obviousness

10a
determination de novo and underlying factual findings
for substantial evidence. Harmonic Inc. v. Avid Tech.,
Inc., 815 F.3d 1356, 1363 (Fed. Cir. 2016). Substantial
evidence is “more than a mere scintilla” and means
“‘such relevant evidence as a reasonable mind might
accept as adequate to support a conclusion.’” Biestek
v. Berryhill, 139 S. Ct. 1148, 1154 (2019) (quoting
Consol. Edison Co. v. NLRB, 305 U.S. 197, 229 (1938)).
We review the Board’s determination of the
broadest reasonable interpretation of the claim
language de novo. Straight Path IP Grp., Inc. v. Sipnet
EU S.R.O., 806 F.3d 1356, 1360 (Fed. Cir. 2015).8
2
We begin with the ’501 patent. Celgene seeks
reversal, or at least vacatur and remand, of the
Board’s determination that CFAD established by a
preponderance of the evidence that claims 1–10 would
have been obvious over the combination of Powell,
Mitchell, and Dishman. The Board relied on Powell’s
teachings of the clinical use and dispensing of
thalidomide;
Mitchell’s
description
of
a
pregnancy-prevention program for women users of
Accutane, another teratogenic drug; and Dishman’s
8

We note that the PTO has since changed the claim
construction standard used in IPR proceedings. See 37 C.F.R.
§ 42.100(b); Changes to the Claim Construction Standard for
Interpreting Claims in Trial Proceedings Before the Patent Trial
and Appeal Board, 83 Fed. Reg. 51,340 (Oct. 11, 2018) (to be
codified at 37 C.F.R. pt. 42). The new standard applies only to
petitions filed on or after November 13, 2018, and therefore does
not impact these cases. In these IPRs, the claims were to be
construed using the broadest reasonable interpretation in light of
the specification. Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct.
2131, 2146 (2016).

11a
disclosure of a registry for pharmacies, prescribers,
and users of clozapine, an anti-psychotic drug with
serious potential side effects. ’501 Final Written
Decision at 13. The Board determined that a person
of ordinary skill in the art would have been motivated
to combine Powell, Mitchell, and Dishman “to address
the problem of limiting thalidomide access to patients
likely to suffer serious adverse side effects, including
birth defects in a developing fetus.” Id. at 24.
On appeal, Celgene challenges three aspects of the
Board’s obviousness determination: (1) its finding
that the prior art satisfies the “computer readable
storage medium,” limitation, which rises and falls
with a claim construction argument; (2) its finding
that it would have been obvious to counsel male
patients about the risks of teratogenic drugs; and
(3) its findings on secondary considerations. We
address each in turn.
a
Before the Board, Celgene argued that the term
“computer readable storage medium” in claim 1
requires a centralized computer readable storage
medium, namely “a centralized database that includes
all registration information regarding the claimed
prescribers, pharmacies, and patients.” ’501 Final
Written Decision at 9–10. The Board considered
Celgene’s proffered construction and rejected its
argument that the computer readable storage medium
of claim 1 must be centralized. Id. at 10–11. First, the
Board noted that the term “centralized” does not
appear in claim 1. Id. at 10. In addition, the Board
found that the specification does not require that all
registration information be centralized in one

12a
database.
Id. (“‘The computer readable storage
medium in which the pharmacies are registered may
be the same as, or different from the computer
readable storage medium in which the prescribers are
registered.’” (quoting ’501 patent col. 4 ll. 54–57)).
Finally, the Board considered and rejected Celgene’s
prosecution history and extrinsic evidence arguments.
See id. at 10–11.
On appeal, Celgene again argues that the claims
require a centralized computer readable storage
medium. Appeal No. 18-1171, Appellant’s Br. 31–36.
According to Celgene, the claims’ use of the term “said
medium” referring back to “a computer readable
storage medium” indicates that it must be a single,
centralized computer readable storage medium. Id. at
32. But, as the PTO points out, the use of “a” or “an”
in an open-ended “comprising” claim connotes “one or
more.” Appeal No. 18-1171, Intervenor’s Br. 26–27;
Baldwin Graphic Sys., Inc. v. Siebert, Inc., 512 F.3d
1338, 1342 (Fed. Cir. 2008). And “[t]he subsequent use
of definite articles ‘the’ or ‘said’ in a claim to refer back
to the same claim term does not change the general
plural rule, but simply reinvokes that non-singular
meaning.” Baldwin, 512 F.3d at 1342. Exceptions to
the general rule that “a” or “an” means more than one
arise only when “the language of the claims
themselves, the specification, or the prosecution
history necessitate a departure from the rule.” See id.
at 1342–43.
Neither the claims themselves, the specification,
nor the prosecution history necessitate such a
departure. See ’501 Final Written Decision at 10–11.
The claims recite “a computer readable storage
medium” and do not specify that it is centralized. The

13a
specification does not require that the computer
readable storage medium be centralized. In fact, the
specification envisions that there may be multiple,
distinct computer readable storage media, i.e.,
separate media for prescribers, pharmacies, and
patients. See ’501 patent at col. 4 ll. 54–57, col. 10 ll.
13–17.
Further, we are not persuaded by Celgene’s
argument that the prosecution history disclaimed a
non-centralized computer readable storage medium.
See Appeal No. 18-1171, Appellant’s Br. 33–34. We
agree with the PTO that the better reading of the
prosecution history is that Celgene distinguished the
claimed invention from the prior art on the basis that
the invention uses a computer readable storage
medium while the prior art used the Internet. See
Appeal No. 18-1171, Intervenor’s Br. 31–33.
Finally, because the intrinsic evidence does not
require a centralized computer readable storage
medium, the Board was correct to not allow the
extrinsic evidence, including expert testimony, to
“trump the persuasive intrinsic evidence in this
case.” ’501 Final Written Decision at 10. Under the
broadest reasonable interpretation, the Board was
therefore correct in determining that claim 1 was not
limited to a centralized computer readable storage
medium.
Based on the Board’s finding that the computer
readable storage medium recited in claim 1 need not
be centralized, the Board found that Dishman’s
“computerized lockout system” satisfied the claim
limitation. Id. at 18–20. Celgene concedes that
Dishman teaches a decentralized storage medium and

14a
does not dispute that Dishman satisfies this limitation
under the Board’s construction.
See Appeal
No. 18-1171, Appellant’s Br. 37. Because Celgene’s
challenge relies entirely on its proposed claim
construction and we affirm the Board’s construction,
Celgene’s challenge must fail.9
For these reasons, Celgene’s arguments on the
“computer readable storage medium” limitation are
unpersuasive and are not grounds for reversal or
vacatur and remand.
b
Claim 1 of the ’501 patent requires providing “male
patients who are capable of impregnating females”
with “counseling information concerning the risks
attendant to fetal exposure to said drug.” Celgene
argues that counseling male patients about the risks
of fetal exposure to the drug upon or after fertilization
would not have been obvious. Appeal No. 18-1171,
Appellant’s Br. 25–31.
In finding this limitation obvious, the Board relied
on CFAD’s expert Dr. Jeffrey Fudin’s opinion that at
the time of the alleged invention, “the sperm of male
patients could be damaged by teratogenic drugs and
consequently result in birth defects, if the male was to
impregnate a female.” ’501 Final Written Decision at
15–16. For support, Dr. Fudin relied on the Mann
study, which showed that thalidomide had negative
effects on the sperm of male rabbits and the fetuses
9

Even under Celgene’s claim construction, the Board
determined that its ultimate determination on obviousness would
not change. ’501 Final Written Decision at 11, 20. Specifically,
the Board held, in the alternative, that using a centralized
database would have been obvious. See id. at 20.

15a
resulting from mating with female rabbits. See id. at
15–17.
The Board evaluated Dr. Fudin’s opinion and the
supporting Mann study and credited his testimony
that a person of ordinary skill in the art would have
“understood the necessity of counseling males, capable
of impregnating females, about the risks that attend
fetal exposure to a teratogenic drug.” Id. at 16–17.
The Board acknowledged that Powell stated that “[n]o
effects on male sperm are recognized,” but found that
statement alone insufficient to defeat Dr. Fudin’s
testimony that an ordinarily skilled artisan would
have recognized that sperm of male patients treated
with teratogenic drugs could lead to birth defects in
fetuses. Id. at 17.
On appeal, Celgene primarily disputes the Board’s
reading of Powell, specifically the statement that “[n]o
effects on male sperm are recognized.” See Appeal
No. 18-1171, Appellant’s Br. 26–29. The Board found
that, when read in context, this statement in Powell
refers to the contraceptive effects thalidomide has on
male sperm, not the teratogenic effects thalidomide
has on male sperm. See ’501 Final Written Decision at
17. Celgene argues that “[n]o reasonable fact finder
could possibly read” this sentence in Powell “as
referring to the contraceptive effects of thalidomide.”
Appeal No. 18-1171, Appellant’s Br. 27. But, the
Board’s decision on this limitation relied on
Dr. Fudin’s opinion, supported by Mann, as described
above.
Celgene’s main challenge to Dr. Fudin’s opinion and
his reliance on Mann was that the Mann study was
conducted on male rabbits rather than human men.

16a
Appeal No. 18-1171, Appellant’s Br. 30–31, Reply
Br. 7–8. The Board considered and rejected this
argument. See ’501 Final Written Decision at 17
(noting that Celgene previously admitted that studies
related to rabbit sperm were relevant to evaluating
the effects of thalidomide on human sperm).
Substantial evidence supports the Board’s ultimate
determination, based on Dr. Fudin’s opinion as
supported by Mann, that it would have been obvious
in light of the prior art to counsel male patients about
the risks of fetal exposure to the drug.
c
Finally,
Celgene
challenges
the
Board’s
determination that Celgene’s evidence of objective
indicia of non-obviousness was unpersuasive. The
Board considered and weighed Celgene’s evidence of
long-felt but unmet need, industry praise, and
unexpected results. Substantial evidence supports
the Board’s conclusions on each of these secondary
considerations and its conclusion that they do not
outweigh the showing of obviousness.
The Board found that Celgene failed to establish a
long-felt but unsolved need because it did not show
that the prior art methods of controlling the
distribution of hazardous drugs—including Mitchell
and Dishman—were insufficient to meet any need to
control distribution of thalidomide. ’501 Final Written
Decision at 28. The Board acknowledged Celgene’s
evidence of industry praise and gave it weight. See id.
The Board also considered Celgene’s evidence of
unexpected results but ultimately gave it “little
weight” because the Board was not persuaded that the
results obtained by combining the features of the prior

17a
art drug distribution programs to control distribution
of thalidomide would have been truly unexpected. See
id. at 28–29. The Board concluded that the evidence
of secondary considerations did not outweigh the
strong showing of obviousness. See id. at 29.
On appeal, Celgene challenges the Board’s findings
on unexpected results and long-felt need. Appeal
No. 18-1171, Appellant’s Br. 38–41, Reply Br. 16–23.
On unexpected results, Celgene faults the Board’s
decision to give its evidence “little weight” and argues
that it should have been given “significant, if not
dispositive weight.” Appeal No. 18-1171, Appellant’s
Br. 39–40. However, substantial evidence supports
the Board’s assessment and weighing of this evidence,
and we decline to reweigh the evidence on appeal. See
In re NTP, Inc., 654 F.3d 1279, 1292 (Fed. Cir. 2011)
(“This court does not reweigh evidence on appeal, but
rather determines whether substantial evidence
supports the Board’s fact findings.”); Regents of the
Univ. of Cal. v. Broad Inst., Inc., 903 F.3d 1286, 1294
(Fed. Cir. 2018) (“We do not reweigh the evidence. It
is not our role to ask whether substantial evidence
supports fact-findings not made by the Board, but
instead whether such evidence supports the findings
that were in fact made.”).
On long-felt need, Celgene identifies what it
contends is an “inconsisten[cy]” between the Board’s
determination in this IPR on the ’501 patent and the
IPRs on the ’720 patent. Appeal No. 18-1171, Reply
Br. 22–23. In this case, the Board found no long-felt
but unmet need for a better system to distribute
potentially hazardous drugs like thalidomide in part
because existing systems were available and
adequate. ’501 Final Written Decision at 28. As

18a
explained below, in the IPRs on the ’720 patent, the
Board found that there was a motivation to improve
existing distribution systems for potentially
hazardous drugs because of the severity of the possible
adverse effects.
See, e.g., -01096 Final Written
Decision at 22–23.
Contrary to Celgene’s assertion, this tension is not
irreconcilable. The fact that there is no long-felt,
unmet need does not necessarily mean that there is no
motivation to improve a system. See Spectrum
Pharm., Inc. v. Sandoz Inc., 802 F.3d 1326, 1336 (Fed.
Cir. 2015) (upholding district court’s finding that
“despite the motivation . . . there was not a long-felt
but unmet need”). In fact, Celgene stated that it was
“committed to making the S.T.E.P.S. program succeed
and will make any modifications to the program that
are necessary to ensure its effectiveness.” See Appeal
No. 18-1167, J.A. 501. Especially in this context
involving safety, we see no conflict between finding a
motivation to improve the safety of existing systems
even though the existing systems were mostly
successful. We conclude that substantial evidence
supports the Board’s assessment of Celgene’s evidence
of long-felt, unresolved need.
Finally, we see no error in the Board’s ultimate
determination of obviousness. Before concluding that
the claims would have been obvious, the Board
weighed the “strong showing of obviousness” against
the “appropriate weight” given to evidence of industry
praise and the “little weight” given to evidence of
unexpected results. ’501 Final Written Decision at 28–
29.

19a
We therefore affirm the Board’s holding that
claims 1–10 of the ’501 patent are unpatentable as
obvious over the asserted prior art.
3
Turning to the ’720 patent, Celgene seeks reversal,
or at least vacatur and remand, of the Board’s
determinations that CFAD established by a
preponderance of the evidence that claims 1–9 and 11–
32 would have been obvious over the prior art. The
Board’s analysis relevant to this appeal was nearly
identical across all three proceedings. See -01096
Final Written Decision at 15–26; -01102 Final Written
Decision at 16–27; -01103 Final Written Decision at
16–27; see also Appeal No. 18-1167, Appellant’s Br. 27,
Intervenor’s Br. 26.
On motivation, the Board determined that a person
of ordinary skill in the art would have been motivated
to improve the existing distribution methods of
potentially hazardous drugs because “where
significant safety risks exist with a drug, one would
continuously search for safer ways to control the
distribution of the drug.” -01096 Final Written
Decision at 22–23; -01102 Final Written Decision at
24–25; -01103 Final Written Decision at 24–25.
The Board construed the claim term “prescription
approval code” and adopted Celgene’s proposed
construction:
“[A] code representing that an
affirmative risk assessment has been made based
upon risk-group assignment and the information
collected from the patient, and that is generated only
upon a determination that the risk of a side effect
occurring is acceptable.”
-01096 Final Written

20a
Decision at 12–13; -01102 Final Written Decision at 13;
-01103 Final Written Decision at 13.
The Board then considered whether the prior art
taught the following disputed limitation: “upon a
determination that said risk is acceptable, generating
a prescription approval code to be retrieved by said
pharmacy before said prescription is filled.” The
Board determined that it would have been obvious to
a person of ordinary skill in the art because they would
have appreciated that Cunningham’s approval code,
used to track and manage trial pharmaceutical
products, could likewise be used by prescribers and
pharmacies to track and manage prescription
pharmaceutical products.
-01096 Final Written
Decision at 24; -01102 Final Written Decision at
26; -01103 Final Written Decision at 26. The Board
concluded that:
We further hold that the claimed improvement
recited in the challenged claims represents a
combination of known prior art elements
(identifying patient risk groups, collecting
patient information relating to the risk,
determining whether the risk is acceptable, and
controlling dispensation of the drug using both a
prescription and an approval code) for their
known purpose (control distribution of drug) to
achieve a predictable result (avoid giving
patients drugs that have an unacceptable risk of
side effects).
-01096 Final Written Decision at 24–25; -01102 Final
Written Decision at 26; -01103 Final Written Decision
at 26.

21a
On appeal, Celgene challenges two aspects of the
Board’s obviousness determination: (1) its finding
that there was a motivation to improve the existing
distribution methods of potentially hazardous drugs;
and (2) its finding that a person of skill in the art
would have been motivated to develop the claimed
invention. We address each below.
a
Celgene first argues that there was no motivation to
improve the existing method for avoiding birth defects
from exposure to thalidomide (the Original S.T.E.P.S.
program) because it was working so well that there
had been no reports of birth defects or even potential
fetal exposure to thalidomide using that system.
Appeal No. 18-1167, Appellant’s Br. 32–33, 35–37.
Celgene contends that because there were no problems
with the Original S.T.E.P.S. program, a person skilled
in the art would not have been motivated to improve
it. See id. Celgene essentially argues that there was
no motivation because, “[i]f it ain’t broke, don’t fix it.”
Id. at 33.
The Board considered and rejected this argument,
finding that there was a motivation because there are
serious concerns with distributing a drug, like
thalidomide, that is known to cause severe adverse
side effects. -01096 Final Written Decision at 22–
23; -01102 Final Written Decision at 24–25; -01103
Final Written Decision at 24–25 (“[W]here significant
safety risks exist with a drug, one would continuously
search for safer ways to control the distribution of the
drug. Put simply, where significant safety concerns
exist[], one of ordinary skill in the art would not wait

22a
until
an
accident
improvements.”).

occurred

to

seek

out

The Board’s motivation determination is supported
by substantial evidence. For example, in Zeldis,
Celgene professed its commitment to making
improvements to the S.T.E.P.S. program. Appeal
No. 18-1167, J.A. 501 (“Celgene is committed to
making the S.T.E.P.S. program succeed and will make
any modifications to the program that are necessary to
ensure its effectiveness.”).
Finally, Celgene challenges the Board’s motivation
as too “generic.” Appeal No. 18-1167, Appellant’s
Br. 35–37. We disagree. The desire to decrease the
risks of administering a drug with adverse side effects,
like thalidomide, is a specific motivation to improve
the prior art. See, e.g., Tokai Corp. v. Easton Enters.,
Inc., 632 F.3d 1358, 1371–72 (Fed. Cir. 2011)
(upholding obviousness determination and motivation
finding based on the “need in the prior art for safer
utility lighters”); Hologic, Inc. v. Minerva Surgical,
Inc., 764 F. App’x 873, 880 (Fed. Cir. 2019) (“The lack
of any specific safety concerns does not preclude a
motivation to make a device safer.”). We disagree with
Celgene’s assertion that approving of this motivation
“leave[s] no room for patents on improvement.”
Appeal No. 18-1167, Appellant’s Br. 37. In a case like
this, where safety is a concern and where the potential
adverse side effects are so severe, the Board did not
err in finding that the desire to improve a system that
is working well qualifies as a valid motivation.
b
Celgene also argues that, even if there had been a
general motivation to improve the prior art systems,

23a
“substantial evidence does not show that there was
motivation to overhaul that program with the
particular, prospective, doctor-interfering system
claimed by the ’720 patent.” Appeal No. 18-1167,
Appellant’s Br. 38; see also id. at 38–43.
First, Celgene faults the Board for allegedly failing
to explain “how the prior art renders obvious the
claims’ required affirmative risk assessment.” Id. at
40. Contrary to Celgene’s assertions, the Board did
not “ignore” its affirmative risk assessment argument.
In fact, the Board incorporated the notion of
affirmative risk assessment into its claim construction
and considered it in its obviousness findings.
See -01096 Final Written Decision at 12–15; -01102
Final Written Decision at 13–16; -01103 Final Written
Decision at 13–16. The Board relied on each of the
primary references—Thalomid Package Insert,
Powell, and Mitchell—for the teaching of an
affirmative risk assessment. See -01096 Final Written
Decision at 17–18, 20 (Thalomid Package
Insert); -01102 Final Written Decision at 17–18, 21–22
(Powell); -01103 Final Written Decision at 17–18, 21–
22 (Mitchell). And the Board found that it would have
been obvious to modify the methods for limiting
distribution of drugs with adverse side effects to high
risk groups, disclosed in Thalomid Package Insert,
Powell, or Mitchell, to require issuance of an approval
code prior to dispensing the drug as disclosed in
Cunningham. See -01096 Final Written Decision at
23–25; -01102 Final Written Decision at 25–27; -01103
Final Written Decision at 25–27. Substantial evidence
supports those findings.
Next, Celgene faults the Board for not including the
word “prospective” in its final written decisions.

24a
Appeal No. 18-1167, Appellant’s Br. 40. But the term
“prospective” does not appear in claim 1 or in the
Board’s construction of “prescription approval code.”
Thus, it is neither erroneous nor particularly
surprising that it does not appear in the Board’s final
written decisions.
Finally, Celgene argues that none of the prior art
references disclose a system to “override” a doctor’s
prescription.
See, e.g., Appeal No. 18-1167,
Appellant’s Br. 40–42, Reply Br. 3–4, 6–7. However, a
physician “override” is not required by the language of
claim 1 or by the Board’s construction of “prescription
approval code.”
We therefore affirm the Board’s determination that
claims 1–9 and 11–32 of the ’720 patent are
unpatentable as obvious over the asserted prior art.
B
We now turn to the constitutional issue of whether
the retroactive application of IPRs to pre-AIA patents
is an unconstitutional taking.10
1
We must first decide whether to reach the
constitutional challenge even though Celgene did not
raise it before the Board and makes the argument for
the first time on appeal.
“It is well-established that a party generally may
not challenge an agency decision on a basis that was
not presented to the agency.” In re DBC, 545 F.3d
10

The parties’ arguments on the constitutional issue are
almost identical in the two appeals. Therefore, in this section, we
cite only to the briefs in Appeal No. 18-1167 unless otherwise
noted.

25a
1373, 1378 (Fed. Cir. 2008). But we have discretion to
reach issues raised for the first time on appeal, and in
DBC we recognized that there are exceptions that may
justify considering constitutional arguments not
raised below. Id. at 1379–80 (“Because we retain
discretion to reach issues raised for the first time on
appeal, we must consider whether this is one of those
exceptional cases that warrants consideration of the
[constitutional] issue despite its tardy presentation.”).
Departing from the general rule of waiver is
appropriate only in limited circumstances. See id. at
1380 (stating that addressing an issue not raised
below is “an exceptional measure” appropriate only in
“rare cases”); see also Golden Bridge Tech., Inc. v.
Nokia, Inc., 527 F.3d 1318, 1322–23 (Fed. Cir. 2008)
(stating that “deviat[ing] from this general rule of
waiver” and “hearing new arguments for the first time
on
appeal”
is
disfavored
“absent
limited
circumstances”). One such circumstance that can
justify departing from the general rule of waiver is an
intervening change in the law. See Golden Bridge, 527
F.3d at 1323. We also consider whether the “interest
of justice” guides us to consider the issue despite the
fact that it was not raised below. See id.
The PTO concedes that we have discretion to
deviate from our general rule of waiver and that doing
so here to resolve the constitutional issue presented
may be in the interest of justice. As the PTO
recognized, “[g]iven the growing number of
retroactivity challenges apparently prompted by the
reference to retroactivity in Oil States, however, this
Court may nevertheless conclude that the interests of
justice warrant addressing the retroactivity question
quickly to avert further uncertainty regarding the

26a
constitutionality of inter partes review.” Intervenor’s
Br. 37 (footnote omitted).
We have indeed seen a growing number of
retroactivity challenges following the Supreme Court’s
decision in Oil States, including several that are
currently pending before this court. The Supreme
Court left open this challenge with the following
passage near the end of its decision in Oil States:
Moreover, we address only the precise
constitutional challenges that Oil States raised
here.
Oil States does not challenge the
retroactive application of inter partes review,
even though that procedure was not in place
when its patent issued. Nor has Oil States raised
a due process challenge. Finally, our decision
should not be misconstrued as suggesting that
patents are not property for purposes of the Due
Process Clause or the Takings Clause.
Oil States Energy Servs., LLC v. Greene’s Energy Grp.,
LLC, 138 S. Ct. 1365, 1379 (2018). While Celgene’s
constitutional challenge does not rely on a change in
the law articulated in Oil States, it raises an issue not
directly resolved by Oil States. Oil States was decided
on April 24, 2018, well after the Board’s October 26,
2016 final written decisions in the IPRs involved in
this appeal, which at least partially explains why
Celgene did not raise the argument before the Board.
Even if Celgene had raised its constitutional
challenge before the Board, it is unclear how the Board
could have corrected the alleged constitutional defect
as it could have in DBC. See DBC, 545 F.3d at 1379
(“If DBC had timely raised this issue before the Board,
the Board could have evaluated and corrected the

27a
alleged constitutional infirmity by providing DBC
with a panel of administrative patent judges
appointed by the Secretary.”).11
Moreover, the constitutional challenge presented
here is purely a question of law, so addressing it would
not require us “to make factual findings” for the first
time on appeal. See Golden Bridge, 527 F.3d at 1323.
Finally, the briefing on the constitutional issue in
this case is sufficiently thorough for our review. See
Appellant’s Br. 44–52; Intervenor’s Br. 35–44; Reply
Br. 20–28. This case stands in sharp contrast with
Trading Technologies International, Inc. v. IBG LLC,
921 F.3d 1378, 1385 (Fed. Cir. 2019), where we
declined to consider a number of constitutional
challenges to IPRs included in “a total of four
sentences” in the appellant’s opening brief. Id. (“Such
a conclusory assertion with no analysis is insufficient
to preserve the issue for appeal.”). Here, a single
constitutional issue received thorough briefing from
the parties and was addressed extensively at oral
argument. See Oral Argument at 5:06–21:50, 50:22–
11

The Supreme Court has “stated that ‘adjudication of the
constitutionality of congressional enactments has generally been
thought beyond the jurisdiction of administrative agencies.’”
Elgin v. Dep’t of Treasury, 567 U.S. 1, 16 (2012) (quoting Thunder
Basin Coal Co. v. Reich, 510 U.S. 200, 215 (1994)). When asked
at oral argument if the Board had authority to adjudicate a
constitutional challenge to the AIA, the PTO responded that if
the Board determined that the retroactive application of IPRs to
pre-AIA patents was an unconstitutional taking, the Board could
exercise its discretion to decline to institute the IPR. See Oral
Argument at 36:52–37:57, Celgene Corp. v. Peter (No. 2018-1167),
http://www.cafc.uscourts.gov/oral-argument-recordings.
That
decision, however, would be unreviewable but for the possibility
of mandamus. See Cuozzo, 136 S. Ct. at 2142.

28a
52:56 (Celgene), 36:27–48:47 (Director), Celgene Corp.
v. Peter (No. 2018-1167), http://www.cafc.uscourts
.gov/oral-argument-recordings.12
We therefore conclude that this is one of those
exceptional circumstances in which our discretion is
appropriately exercised to hear Celgene’s constitutional
challenge even though it was not raised below.
2
We now turn to the merits of Celgene’s
constitutional challenge that the retroactive
application of IPRs to pre-AIA patents is an
unconstitutional taking.
The Takings Clause of the Fifth Amendment states
that private property shall not “be taken for public use,
without just compensation.” U.S. Const. amend. V.
The PTO does not dispute that a valid patent is private
property for the purposes of the Takings Clause. See
12

As to the suggestion that we wait until a case reaches us
where the retroactivity challenge was raised below and decided
by the Board, the first such case identified is Agarwal v. TopGolf
International, Inc., No. 18-2270. In TopGolf, the Board allowed
additional briefing on the constitutional issues left open by Oil
States. In a single sentence of analysis, the Board determined
that the retroactive application of IPRs was not unconstitutional,
reasoning that “the patent at issue here was subject to ex parte
reexamination, and, therefore, the United States Patent and
Trademark Office has always had the ability to look at the
patentability of an issued United States Patent.” TopGolf Int’l,
Inc. v. Amit Agarwal, No. IPR2017-00928, Paper 40, at 80
(P.T.A.B. June 13, 2018).
On appeal, Mr. Agarwal’s
constitutional challenge to the retroactive application of IPRs to
pre-AIA patents is one page of his opening brief. Brief for
Appellant at 69–70, Agarwal v. TopGolf Int’l, Inc. (No. 18-2270).
The reply brief is due on November 12, 2019, and the case will
likely not be argued for at least several months thereafter.

29a
Intervenor’s Br. 43 (“A patent holder has a property
interest in a valid patent . . . ”); Oral Argument at
41:06–41:22, Celgene Corp. v. Peter (No. 2018-1167),
http://www.cafc.uscourts.gov/oral-argument-recordin
gs. (“We don’t dispute that a valid patent is property
for purposes of the Takings Clause.”).
Celgene argues that the retroactive application of
IPRs to their pre-AIA patents without just
compensation is an unconstitutional taking under the
Fifth
Amendment.
Appellant’s
Br. 44–52.
Specifically, Celgene advances a regulatory takings
theory and argues that subjecting its pre-AIA patents
to IPR, a procedure that did not exist at the time its
patents issued, unfairly interferes with its reasonable
investment-backed
expectations
without
just
compensation. Id. at 44–45, 49–51.
The PTO responds on two fronts. First, the PTO
argues that when the Board finds claims unpatentable
in an IPR, it does not effectuate a taking under the
Fifth Amendment because the patent owner “never
had a valid property right because the patent was
erroneously issued in the first instance.” Intervenor’s
Br. 38; see also id. at 38–41. Second, the PTO argues
that Celgene’s takings claim fails “because patents
have been subject to reconsideration and cancellation
by the USPTO in administrative proceedings for
nearly four decades, and Celgene’s own patent[s were]
issued subject to this administrative revocation
authority.” Id. at 42; see also id. at 42–44. The PTO
does not expressly engage Celgene’s reasonable
investment-backed expectations argument. But the
PTO does respond that “the AIA did not alter patent
holders’ substantive rights.” See id. at 43. Rather, the
PTO maintains that the AIA “merely revised the

30a
procedures by which [the] USPTO conducts these
administrative proceedings” and that the procedural
differences do not effect a Fifth Amendment taking.
See id.
In determining whether the retroactive application
of IPRs to pre-AIA patents is an unconstitutional
taking, we consider the effect that doing so has on the
patent right granted by the PTO, and specifically
whether IPRs differ from the pre-AIA review
mechanisms significantly enough, substantively or
procedurally, to effectuate a taking. We conclude that
they do not. On this basis, we reject Celgene’s
challenge even apart from the rationales of our prior
decisions—which we also think control the outcome
here, but which Celgene asks us to reconsider—that
rejected constitutional challenges to retroactive
application of the pre-AIA ex parte reexamination
mechanism.13
13

In Patlex Corp. v. Mossinghoff, 758 F.2d 594 (Fed. Cir.
1985), we faced a challenge to the retroactive application of ex
parte reexaminations and held that it did not violate the due
process clause of the Fifth Amendment, the jury trial guarantee
of the Seventh Amendment, or Article III. Id. at 603, 605. Our
retroactivity analysis in Patlex relied in part on the “curative”
nature of reexaminations and that “[c]urative statutes have
received relatively favored treatment from the courts even when
applied retroactively.” Id. at 603.
We later considered a challenge to the retroactive application
of ex parte reexaminations based on the Takings Clause in Joy
Technologies, Inc. v. Manbeck, 959 F.2d 226 (Fed. Cir. 1992),
superseded by statute on other grounds. Applying our reasoning
in Patlex, we rejected the patent owner’s argument that ex parte
reexamination and subsequent cancellation of some claims of its
patent constituted a taking even though no PTO reexamination
mechanisms existed when its patent issued. See id. at 228–29.
The patent owners in Patlex and Joy Technologies had a

31a
The validity of patents has always been subject to
challenge in district court. And for the last forty years,
patents have also been subject to reconsideration and
possible cancellation by the PTO. As explained below,
IPRs do not differ significantly enough from
preexisting PTO mechanisms for reevaluating the
validity of issued patents to constitute a Fifth
Amendment taking.
By the time Celgene filed the application that
became the ’501 patent (1998) and the patent was
issued (2000), and by the time Celgene filed the
application that became the ’720 patent (2000) and the
patent was issued (2001), ex parte reexamination had
existed for roughly two decades.
Ex parte
reexamination, created by Congress in 1980 and still
available today, allows “[a]ny person at any time” to
“file a request for reexamination.” 35 U.S.C. § 302.
The PTO determines whether the request raises “a
substantial new question of patentability affecting any
claim of the patent.” Id. § 303(a). If it does, the
reexamination is “conducted according to the
procedures established for initial examination,” and
the patent owner has the opportunity to amend claims.
Id. § 305.
The reexamination results in the
confirmation of claims found to be patentable and the
cancellation of claims found to be unpatentable. Id.
§ 307(a).

stronger argument than Celgene does here because, before the
creation of ex parte reexaminations, there were no PTO
reexamination procedures. In contrast, pre-AIA patent owners,
including Celgene, have known for almost forty years that their
patents were issued subject to substantively similar forms of PTO
reexamination.

32a
Inter partes reexamination, created by Congress in
1999, was also available when Celgene filed the ’720
patent, although not when it filed the ’501 patent. A
third party could request inter partes reexamination,
and the standard to initiate the reexamination was
whether the request raised a “substantial new
question of patentability.” 35 U.S.C. §§ 311–12 (1999)
(amended). Inter partes reexamination “granted third
parties greater opportunities to participate in the
Patent Office’s reexamination proceedings,” and,
following amendments in 2002, also allowed third
parties to participate in any appeal of the PTO’s final
reexamination decision. See Cuozzo Speed Techs.,
LLC v. Lee, 136 S. Ct. 2131, 2137 (2016).
Celgene’s pre-AIA patents were therefore granted
subject to existing judicial and administrative avenues
for reconsidering their validity. Not only were they
subject to challenge in district court, “[f]or several
decades, the Patent Office has also possessed the
authority to reexamine—and perhaps cancel—a
patent claim that it had previously allowed.” Id.
IPRs are the most recent legislative modification to
the PTO’s longstanding reconsideration procedures.14
In 2011, as part of the AIA, Congress created IPRs,
which replaced inter partes reexamination. Leahy–
Smith America Invents Act, Pub. L. No. 112-29, § 6,
125 Stat. 284, 299–313 (2011) (codified as amended at
35 U.S.C. §§ 311–19 (2012)). IPRs allow a third party
to request that the PTO “reexamine the claims in an
already-issued patent and to cancel any claim that the
14

Celgene’s suggestion that PTO reconsideration “is a
creation of the 2011 AIA legislation” or only available “[s]ince the
AIA” is incorrect. See Appellant’s Br. 46.

33a
agency finds to be unpatentable in light of [the] prior
art” specified in 35 U.S.C. § 311(b). Cuozzo, 136 S. Ct.
at 2136.
In this case it suffices for us to decide that IPRs do
not differ sufficiently from the PTO reconsideration
avenues available when the patents here were issued
to constitute a Fifth Amendment taking. Celgene
identifies a number of differences between
reexaminations and IPRs, including that IPRs are
adjudicative and have discovery, briefing, and an oral
hearing, Appellant’s Br. 47, but as explained below,
these differences are not sufficiently substantive or
significant to constitute a taking.
Unsurprisingly, Celgene does not grapple with the
far more significant similarities between IPRs and
their reexamination predecessors. In IPRs, patents
are reviewed on the same substantive grounds—
anticipation and obviousness, based on the same
categories of prior art—as ex parte and inter partes
reexaminations.15 IPRs and reexaminations use the
same preponderance of the evidence standard of proof.
See 35 U.S.C. § 316(e) (“In an inter partes review
instituted under this chapter, the petitioner shall have
the burden of proving a proposition of unpatentability
by a preponderance of the evidence.”); In re Baxter
Int’l, Inc., 678 F.3d 1357, 1364 (Fed. Cir. 2012) (“In
PTO reexaminations ‘the standard of proof [is] a
preponderance of the evidence.’” (quoting In re
Swanson, 540 F.3d 1368, 1377 (Fed. Cir. 2008)). And
15

It is undisputed that the Board’s grounds for determining
unpatentability were available under the reexamination
procedures in place at the time the ’501 patent and ’720 patent
issued in 2000 and 2001, respectively.

34a
the same broadest reasonable interpretation standard
for claim construction used in reexaminations also
applied in these IPRs.16 See In re CSB-Sys. Int’l, Inc.,
832 F.3d 1335, 1340 (Fed. Cir. 2016) (“During
reexamination proceedings of unexpired patents,
however, the Board uses the ‘broadest reasonable
interpretation consistent with the specification’
standard, or BRI.” (quoting In re NTP, Inc., 654 F.3d
1268, 1274 (Fed. Cir. 2011)).
IPRs and reexaminations are also similar in that
the Director has discretion to initiate the proceeding.
In ex parte reexamination, the Director determines
“whether a substantial new question of patentability
affecting any claim of the patent concerned is raised
by the request.” 35 U.S.C. § 303(a). In IPRs, the
Director has discretion to institute IPR if there is “a
reasonable likelihood that the petitioner would prevail
with respect to at least 1 of the claims challenged in
the petition.” Id. § 314(a). In both proceedings, the
Director’s discretionary determination is final and
non-appealable. See id. §§ 303(c), 314(d).
Notably, IPRs serve essentially the same purpose as
their reexamination predecessors. As the Supreme
Court has said:
The [IPR] proceeding involves what used to be
called a reexamination (and, as noted above, a
cousin of inter partes review, ex parte
reexamination, 35 U.S.C. § 302 et seq., still bears
that name).
The name and accompanying
16

As noted above, the PTO has since changed the claim
construction standard used in IPR proceedings to align with the
standard used in district court proceedings, a change that is
favorable to the patent owner. See supra note 8.

35a
procedures suggest that the proceeding offers a
second look at an earlier administrative grant of
a patent. Although Congress changed the name
from “reexamination” to “review,” nothing
convinces us that, in doing so, Congress wanted
to change its basic purposes, namely, to
reexamine an earlier agency decision.
Cuozzo, 136 S. Ct. at 2144; see also Oil States, 138 S.
Ct. at 1374 (“Inter partes review is ‘a second look at an
earlier administrative grant of a patent.’” (quoting
Cuozzo, 136 S. Ct. at 2144)).17
Moreover, the Supreme Court has described district
court challenges, ex parte reexaminations, and IPRs as
different forms of the same thing—reexamination. See
Return Mail, Inc. v. United States Postal Serv., 139 S.
Ct. 1853, 1860 (2019) (“In sum, in the post-AIA world,
a patent can be reexamined either in federal court
during a defense to an infringement action, in an ex
parte reexamination by the Patent Office, or in the
suite of three post-issuance review proceedings before
the Patent Trial and Appeal Board.”). All three serve
the purpose of correcting prior agency error of issuing
patents that should not have issued in the first place:
Sometimes, though, bad patents slip through.
Maybe the invention wasn’t novel, or maybe it
was obvious all along, and the patent owner
17 The legislative history of the AIA confirms that one of the
objectives of IPRs was to “revisit and revise” issued patents. See
Cuozzo, 136 S. Ct. at 2140. In this way, IPRs serve the broader
goal of improving patent quality. See H.R. Rep. No. 112-98, pt. 1,
at 48 (2011), as reprinted in 2011 U.S.C.C.A.N. 67, 78 (explaining
objective to “improve patent quality and restore confidence in the
presumption of validity that comes with issued patents”).

36a
shouldn’t enjoy the special privileges it has
received. To remedy these sorts of problems,
Congress has long permitted parties to challenge
the validity of patent claims in federal court.
More recently, Congress has supplemented
litigation with various administrative remedies.
SAS Inst., Inc. v. Iancu, 138 S. Ct. 1348, 1353 (2018)
(citation omitted); see also Microsoft Corp. v. i4i Ltd.
P’ship, 564 U.S. 91, 96 (2011) (describing district court
challenges as an “attempt to prove that the patent
never should have issued in the first place”); Fresenius
USA, Inc. v. Baxter Int’l, Inc., 721 F.3d 1330, 1338
(Fed. Cir. 2013) (stating that “ex parte reexamination
is a curative proceeding meant to correct or eliminate
erroneously granted patents”).
There are undoubtedly differences between IPRs
and their predecessors. This is not surprising given
that Congress passed the AIA with post grant review
procedures that were intentionally more robust and
would provide a “more efficient system for challenging
patents that should not have issued.” See H.R. Rep.
No. 112-98, pt. 1, at 39–40 (2011), as reprinted in 2011
U.S.C.C.A.N. 67, 69.18 Celgene is correct that IPRs are
“adjudicatory in nature.” Return Mail, 139 S. Ct. at
1860. Among the “adjudicatory characteristics” of
IPRs Celgene notes are discovery, briefing, and an oral
18

Implementing IPRs to create a more robust and efficient
system for challenging the validity of patents is not unlike the
PTO or Congress making the system more robust by, for example,
increasing the budget for or number of examiners in the
reexamination unit. While those changes might result in
significantly more requests for reexamination and more claims
being canceled, we doubt that anyone would argue that they
effectuate a taking.

37a
hearing. See Appellant’s Br. 47. But these procedural
differences come with the longstanding recognition
that “‘[n]o one has a vested right in any given mode of
procedure.’” Denver & Rio Grande W. R.R. Co. v. Bhd.
of R.R. Trainmen, 387 U.S. 556, 563 (1967) (quoting
Ex parte Collett, 337 U.S. 55, 71 (1949)). These
differences do not disrupt the expectation that patent
owners have had for nearly four decades—that patents
are open to PTO reconsideration and possible
cancelation if it is determined, on the grounds
specified in § 311(b), that the patents should not have
issued in the first place.
Celgene also argues that statistics show that IPRs
have caused a permanent reduction in the value of
patents granted before the AIA. See Appellants’
Br. 48–49 (citing statistics); Reply Br. 26–27 (citing
statistics and arguing that they show that “patents
subjected to inter partes review have been clobbered in
ways previously unimaginable”).19 But Celgene has
made no showing—nor could it—that claims canceled
in IPRs, including its own claims, would have fared
any better in the preexisting reexamination
procedures.
Recognizing that its patents were also always open
to challenge in district court, Celgene attempts to
distinguish IPRs from district court proceedings by
arguing that while IPRs resemble district court
19

Celgene notes that almost as many IPRs were filed and
instituted in the first four years after they were created as were
filed in the twelve years inter partes reexamination were
available. Appellant’s Br. 48. This statistic, which merely
compares the frequency that these procedures are utilized but
does not compare ultimate outcomes, does not sway our analysis.

38a
proceedings in some respects,20 IPRs lack the “same
process or rights as civil litigation.” See Appellants’
Br. 47–48; Reply Br. 26–27. But the differences that
Celgene identifies between district court proceedings
and IPRs only serve to demonstrate that IPRs are
similar to reexaminations. For example, IPRs use a
preponderance of the evidence burden of proof rather
than the district court’s clear and convincing evidence
burden of proof. And IPRs, at the time of these
proceedings,
used
the
broadest
reasonable
interpretation for claim construction rather than the
narrower standard from Phillips v. AWH Corp., 415
F.3d 1303, 1313 (Fed. Cir. 2005) (en banc) used in
district court. While these IPR standards differ from
those used in district court, they were previously used
in ex parte and inter partes reexamination procedures,
as explained above. Celgene also notes that the
presumption of validity that applies in district court
proceedings, overcome only by clear and convincing
evidence, does not apply in IPRs. Reply Br. 26–27.
However, the presumption of validity also did not
apply in the preexisting reexamination proceedings.
See In re Etter, 756 F.2d 852, 855–56 (Fed. Cir. 1985).
Moreover, we long ago explained that “[w]e do not
consider the section 282 presumption [of validity] . . .

20

That IPRs resemble district court litigation in some ways is
in line with one of the objectives of the AIA, which was to provide
an alternative to district court litigation. See H.R. Rep.
No. 112-98, pt. 1, at 48 (describing IPR as a “quick and cost
effective alternativ[e] to litigation”); S. Rep. No. 110-259, at 20
(2008) (describing IPR as “a quick, inexpensive, and reliable
alternative to district court litigation”). The fact that IPRs may
have shifted some validity challenges from the district court to
the PTO does not effectuate a taking.

39a
to be a property right subject to the protection of the
Constitution.” Patlex Corp. v. Mossinghoff, 758 F.2d
594, 605 (Fed. Cir. 1985), reh’g granted on other
grounds, 771 F.2d 480 (Fed. Cir. 1985). In any event,
because Celgene’s patents were granted subject to
similar reexamination standards, as discussed above,
the differences between IPRs and district court
proceedings that Celgene identifies do not create a
constitutional issue.
In light of the foregoing, we hold that the retroactive
application of IPR proceedings to pre-AIA patents is
not an unconstitutional taking under the Fifth
Amendment. Patent owners have always had the
expectation that the validity of patents could be
challenged in district court. For forty years, patent
owners have also had the expectation that the PTO
could reconsider the validity of issued patents on
particular grounds, applying a preponderance of the
evidence standard.
Although differences exist
between IPRs and their reexamination predecessors,
those differences do not outweigh the similarities of
purpose and substance and, at least for that reason, do
not effectuate a taking of Celgene’s patents.
III
We have considered Celgene’s remaining arguments
and find them unpersuasive. We affirm the Board’s
determination that all of the claims of the ’501 patent
and claims 1–9 and 11–32 of the ’720 patent are
invalid as obvious.
AFFIRMED

40a

APPENDIX B

Trials@uspto.gov
571.272.7822

Paper 73
Entered: October 26, 2016

UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
COALITION FOR AFFORDABLE DRUGS VI LLC,
Petitioner,
v.
CELGENE CORPORATION,
Patent Owner.
Case IPR2015-01092
Patent 6,045,501
Before MICHAEL P. TIERNEY, GRACE KARAFFA
OBERMANN, and TINA E. HULSE, Administrative
Patent Judges.
OBERMANN, Administrative Patent Judge.
FINAL WRITTEN DECISION
Inter Partes Review
35 U.S.C § 318(a) and 37 C.F.R. § 42.73

41a
I. INTRODUCTION
This is a Final Written Decision in an inter partes
review of claims 1–10 (“the challenged claims”) of U.S.
Patent No. 6,045,501 (Ex. 1001, “the ’501 patent”). We
have jurisdiction under 35 U.S.C. § 6. We find that
Petitioner shows by a preponderance of the evidence
that claims 1–10 are unpatentable under 35 U.S.C.
§ 103. We deny the parties’ Motions to Exclude
Evidence. Papers 57, 58. In addition, we deny
Petitioner’s Motion to Submit Supplemental
Information. Paper 36. We grant Patent Owner’s
combined Motion to Seal and Motion for Entry of
Protective Order. Paper 39. We grant Petitioner’s
Motion to Seal. Paper 50.
A. Procedural History
The Petition for inter partes review was filed
pursuant to 35 U.S.C. § 311. Paper 1 (“Pet.”). Patent
Owner filed a Preliminary Response. Paper 10
(“Prelim. Resp.”). We instituted trial on the single
ground whether claims 1–10 are unpatentable under
35 U.S.C. § 103(a) as obvious over Powell,1 Mitchell,2
and Dishman.3 Paper 20 (“Dec.”).
1

Guideline for the clinical use and dispensing of
thalidomide, R.J. Powell and J.M.M Gardner-Medwin,
Postgrad Med. J. (1994) 79, 901–904 (Ex. 1005,
“Powell”).
2

A Pregnancy-Prevention Program in Women of
Childbearing Age Receiving Isotretinoin, Allen A.
Mitchell et al., New Eng. J. Med. (Jul. 13, 1995) 333:2,
101–06 (Ex. 1006, “Mitchell”).
3

Pharmacists’ role in clozapine therapy at a
Veterans Affairs medical center, Benjamin R. Dishman

42a
Patent Owner filed a Response (Paper 40, “Resp.”)
and Petitioner filed a Reply (Paper 49, “Reply”).
Patent Owner filed a Sur-Reply and Petitioner filed a
Response to the Sur-Reply pursuant to authorization
provided by the Board during an interlocutory
teleconference held June 13, 2016. Paper 59 (order
authorizing Sur-Reply, limited to two defined issues,
and an Opposition thereto); Paper 60 (“Sur-Reply”);
Paper 66 (response to the Sur-Reply). A final oral
hearing was held July 21, 2016. The record includes a
transcript of the final oral hearing. Paper 72.
B. Related Proceedings
Petitioner identifies six district court actions
relating to the ’501 patent: Celgene Corp. v. Lannett
Holdings, Inc., DNJ-2:15-cv-00697 (filed Jan. 30,
2015); Celgene Corp. v. Natco Pharma Ltd., DNJ-2:10cv-05197 (filed Oct. 8, 2010); Celgene Corp. v. Barr
Laboratories, Inc., DNJ-2:08-cv-03357 (filed July 3,
2008); Celgene Corp. v. Barr Laboratories, Inc., DNJ2:07-cv-05485 (filed Nov. 14, 2007); Celgene Corp. v.
Barr Laboratories, Inc., DNJ-2:07-cv-04050 (filed Aug.
23, 2007); Celgene Corp. v. Barr Laboratories, Inc.,
DNJ-2:07-cv-00286 (filed Jan. 18, 2007). Pet. 2–3.
C.

The ’501 Patent (Ex. 1001)

The ’501 patent relates to a method of delivering a
teratogenic drug to a patient while preventing delivery
to a fetus. Ex. 1001, Abstract. The patent discusses
the history of thalidomide, a drug first synthesized in
1957 and marketed in many countries as a sedative.
Id. at 1:19–22. Thalidomide was withdrawn from all
et al., Am. J. Hosp. Pharm. (Apr. 1, 1994) 51, 899–901
(Ex. 1007, “Dishman”).

43a
markets by 1962 after reports of serious birth defects.
Id. at 1:22–24.
Investigators
thereafter
discovered
that
thalidomide might be effective in treating cancer,
AIDS-related ulcers, macular degeneration, and other
serious conditions. Id. at 1:29–36. For example,
Patent Owner received approval to market
thalidomide for treating a type of leprosy. Id. at 1:24–
29; 36–39. According to the specification of the ’501
patent, however, given the severe teratogenic risks
associated with thalidomide, at the time of the
invention, there was a need for a method to prevent
administration of the drug to fetuses and persons for
whom the drug was contraindicated. Id. at 1:41–46.
The ’501 patent describes an existing pregnancyprevention program developed for women prescribed
Accutane (isotretinoin), a known teratogenic drug
effective for treating severe forms of acne. Id. at 1:48–
60. According to the ’501 patent, enrollment in the
Accutane program was voluntary, therefore,
“improved methods” were needed to provide a
distribution system “more representative of all users
of a particular drug, such as thalidomide.” Id. at 1:60–
67. The ’501 patent also discloses a need for a program
“to educate men and women about the risk of
teratogenic drugs, such as thalidomide.” Id. at 2:1–5.
The specification describes registering patients,
prescribers, and pharmacies in a computer readable
storage medium; retrieving from the medium
information identifying a subpopulation of women
capable of becoming pregnant, as well as males
capable of impregnating females; providing counseling
information about the risks of a teratogenic drug to the

44a
subpopulation; determining whether patients in the
subpopulation are pregnant; and, in response to a
determination
of
non-pregnancy,
authorizing
registered pharmacies to fill prescriptions from
registered prescribers for non-pregnant registered
patients. Id. at 2:16–37.
D.

Illustrative Claim

Claim 1, the only independent claim, is illustrative
and is reproduced below:
1. A method for delivering a teratogenic drug
to patients in need of the drug while avoiding the
delivery of said drug to a foetus comprising:
a. registering in a computer readable storage
medium prescribers who are qualified to
prescribe said drug;
b. registering in said medium pharmacies to
fill prescriptions for said drug;
c. registering said patients in said medium,
including information concerning the
ability of female patients to become
pregnant and the ability of male patients to
impregnate females;
d. retrieving from said medium information
identifying a subpopulation of said female
patients who are capable of becoming
pregnant and male patients who are
capable of impregnating females;
e. providing to the subpopulation, counseling
information concerning the risks attendant
to fetal exposure to said drug;
f. determining whether patients comprising
said subpopulation are pregnant; and

45a
g. in response to a determination of nonpregnancy for said patients, authorizing
said registered pharmacies to fill
prescriptions
from
said
registered
prescribers
for
said
non-pregnant
registered patients.
II. DISCUSSION
Petitioner alleges that claims 1–10 are
unpatentable as obvious over the combined disclosures
of Powell, Mitchell, and Dishman.4 In support of that
challenge, Petitioner relies on the Declaration of
Jeffrey Fudin, Pharm.D. (Ex. 1002).5 Patent Owner
responds that the claims are not proven invalid,
relying on the Declarations of Dr. Lourdes Frau (Ex.
2059), Dr. Joseph DiPiro (Ex. 2060), and Mr. John
We hold that Petitioner
Freeman (Ex. 2068).6
4

Citations are to original page numbers, not those
added by Petitioner.
5

Dr. Fudin is a registered pharmacist, holding a
B.S. in Pharmacy and a Pharm.D. Ex. 1002 ¶¶ 6, 9.
Petitioner shows sufficiently that Dr. Fudin has
practiced as a Clinical Pharmacy Specialist for more
than 20 years, and is the Director of a Pain and
Palliative Care Pharmacy Residency. Id. at ¶ 4. We
determine that Dr. Fudin is qualified to opine on the
views of a person of ordinary skill in art at the time of
the invention.
6

Patent Owner offers Dr. Frau’s opinions to
respond to Petitioner’s obviousness challenge “through
the eyes of” an ordinary artisan as defined by Patent
Owner. Patent Owner also advances the testimony of
Dr. DiPiro, who “offers no opinion on the appropriate

46a
demonstrates by a preponderance of the evidence that
the subject matter of claims 1–10 would have been
obvious over the combined disclosures of Powell,
Mitchell, and Dishman.
A.

Principles of Law

Petitioner
bears
the
burden
of
proving
unpatentability of the challenged claims, and that
burden never shifts to Patent Owner. Dynamic
Drinkware, LLC v. Nat’l Graphics, Inc., 800 F.3d 1375,
1378 (Fed. Cir. 2015). To prevail, Petitioner must
establish facts supporting its challenge by a
preponderance of the evidence. 35 U.S.C. § 316(e); 37
C.F.R. § 42.1(d).
A patent claim is unpatentable under 35 U.S.C.
§ 103(a) if the differences between the subject matter
sought to be patented and the prior art are such that
the subject matter as a whole would have been obvious
to a person of ordinary skill in the art at the time the
invention was made. KSR Int’l Co. v. Teleflex Inc., 550
U.S. 398, 406 (2007). Obviousness is resolved based
on underlying factual determinations, including: (1)
the scope and content of the prior art; (2) any
differences between the claimed subject matter and
the prior art; (3) the level of skill in the art; and (4)
objective evidence of nonobviousness, i.e., secondary

level of ordinary skill in the art, but responds directly
to Dr. Fudin’s opinions through the eyes of” the
ordinary artisan as defined by Petitioner. Resp. 16
n.4. Mr. Freeman provides testimony in support of
Patent Owner’s contentions regarding secondary
considerations of nonobviousness. Id. at 59–60.

47a
considerations. See Graham v. John Deere Co., 383
U.S. 1, 17–18 (1966).
B. Level of Ordinary Skill in the Art
Petitioner argues that “[t]he level of ordinary skill
in the art is apparent from the cited art.” Pet. 20.
Petitioner also directs us to witness testimony that an
ordinary artisan “would typically have either a Pharm.
D. or a BS in pharmacy with approximately 5–10 years
of related experience and a license to practice as a
registered pharmacist in any one or more the United
States.” Id. (citing Ex. 1002 ¶ 15). Patent Owner
counters that Petitioner challenge is “fatally flawed”
for having failed to define correctly the person of
ordinary skill in the art. Id. at 13, 15. On that point,
Patent Owner argues that an ordinary artisan “would
have had at least a bachelor’s degree and at least 2
years of experience in risk management relating to
pharmaceutical drug products, or a B.S. or M.S. in
pharmaceutical drug product risk management or a
related field.” Id. at 16 (citing Ex. 2059 ¶ 60).
We are not persuaded that accepting Patent
Owner’s view of the qualifications of an ordinary
artisan, over the somewhat different qualifications
proposed by Petitioner, would materially alter the
obviousness inquiry. The prior art references asserted
in the Petition are representative of the level of
ordinary skill in the art. See Okajima v. Bourdeau,
261 F.3d 1350, 1355 (Fed. Cir. 2001) (absence of
specific findings on “level of skill in the art does not
give rise to reversible error ‘where the prior art itself
reflects an appropriate level and a need for testimony
is not shown’” (quoting Litton Indus. Prods., Inc. v.

48a
Solid State Sys. Corp., 755 F.2d 158, 163 (Fed. Cir.
1985))).
To the extent that a more specific definition of the
ordinary artisan is required, we hold that the
definition encompasses pharmacists and other
persons having experience restricting the distribution
of teratogenic drugs. Specifically, we find that the
prior art references, like the ’501 patent specification,
focus on controlling the distribution of a drug. See,
e.g., Ex. 1001, 1:13–16 (describing “the distribution to
patients of drugs, particularly teratogenic drugs, in
ways wherein such distribution can be carefully
monitored and controlled”); Ex. 1005, 901 (Powell,
disclosing guidelines for restricting the distribution of
thalidomide); Ex. 1006, 101 (Mitchell, describing a
method for restricting the distribution of the
teratogenic drug Accutane); Ex. 1007, 899 (Dishman,
describing a national registry for restricting
distribution of the psychoactive drug Clozaril).
Consistent with the prior art, Dr. Fudin testifies
that the types of problems encountered by a person of
ordinary skill in the art included creating a restricted
drug distribution program to prevent adverse side
effects, such as teratogenic risks. Ex. 1002 ¶¶ 33–55.
The prior art demonstrates that a person of ordinary
skill in the art would have experience in controlling
the distribution of a drug. We credit Dr. Fudin’s
testimony that a person of ordinary skill in the art
would encompass a pharmacist. Ex. 1002 ¶ 15. We
also credit Dr. Frau’s testimony that an ordinary
artisan would not be limited to pharmacists but also
would encompass persons having at least two years of
experience in risk management relating to
pharmaceutical products, as pharmacists are not the

49a
only persons having restricted drug distribution
experience and knowledge. Ex. 2059 ¶ 60.
Accordingly, we find that a person of ordinary skill
in the art would include pharmacists and persons
having at least two years of experience in risk
management relating to pharmaceutical products as
pharmacists. Additionally, we determine that, even if
we were to adopt verbatim Dr. Frau’s definition of
ordinary skill in the art, Patent Owner has failed to
present sufficient and credible evidence to persuade us
that Patent Owner’s defined person of ordinary skill in
the art would be led to a different outcome regarding
the obviousness of the challenged claims. Specifically,
Dr. DiPiro, testifying for Patent Owner, acknowledged
that many types of pharmacists use risk management
techniques in their practice on a day-to-day basis. Ex.
1066, 95:17–96:1. Dr. DiPiro’s testimony is consistent
with an article he wrote where he stated that
pharmacists could be assured of an important role in
health care as long as they are focused on needs and
problems, such as medication errors and preventable
adverse drug effects. Ex. 1065, 2. Accordingly, we
determine that Petitioner appropriately has conducted
its obviousness analysis from the perspective of a
person of ordinary skill in the art.
C. Claim Construction
In an inter partes review, claim terms in an
unexpired patent are assigned their broadest
reasonable interpretation in light of the specification
of the patent in which they appear. 37 C.F.R.
§ 42.100(b). Claim terms generally are given their
ordinary and customary meaning as understood by
one of ordinary skill in the art in the context of the

50a
entire disclosure. In re Translogic Tech., Inc., 504 F.3d
1249, 1257 (Fed. Cir. 2007). If an inventor acts as his
or her own lexicographer, the definition must be set
forth with reasonable clarity, deliberateness, and
precision. Renishaw PLC v. Marposs Societa’ per
Azioni, 158 F.3d 1243, 1249 (Fed. Cir. 1998).
No claim term requires express construction for the
purposes of this Decision. See Wellman, Inc. v.
Eastman Chem. Co., 642 F.3d 1355, 1361 (Fed. Cir.
2011) (“[C]laim terms need only be construed ‘to the
extent necessary to resolve the controversy.’“ (quoting
Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d
795, 803 (Fed. Cir. 1999))). One issue of claim
construction, however, requires some discussion.
Patent Owner argues that the term “computer
readable storage medium” in claim 1 should be read to
require a “centralized” computer readable storage
medium—namely “a centralized database that
includes all registration information regarding the
claimed prescribers, pharmacies, and patients.” Resp.
22, 35. We are not persuaded that the wording of the
claim, or the disclosure of the ’501 patent specification,
supports Patent Owner’s view.
The word “centralized” does not appear anywhere in
claim 1. And Patent Owner’s position—that the
storage medium of claim 1 must be “centralized” to
include,
in
one
database,
all
registration
information—is not supported by the disclosure of the
’501 patent specification:
In accordance with the methods described
herein, pharmacies which may fill prescriptions for
the particular drug being prescribed including, for
example, teratogenic drugs, are also preferably

51a
registered in a computer readable storage medium.
The computer readable storage medium in which the
pharmacies are registered may be the same as, or
different from the computer readable storage
medium in which the prescribers are registered.
Ex. 1001, 4:50–57 (emphasis added); see id. at 10:12–
16 (“registration into one or more computer readable
storage media of the prescriber, pharmacy and
patient . . . provide[s] a means to monitor and
authorize distribution of” teratogenic drugs).
Patent Owner further argues that the inventors of
the ’501 patent disavowed the full scope of claim 1
during patent prosecution.
Resp. 22–23.
That
argument is unpersuasive because the prosecution
history upon which Patent Owner relies supports the
specification disclosure that claim 1 is directed to a
method for centralizing access to information, and
does not suggest that the information must be located
in one single structure, a database, that contains all of
the information. See Ex. 1004, 78 (prosecution history,
distinguishing computer readable storage medium
from internet communication); Reply 9 (explaining
why prosecution history does not rise to the level of
disclaimer of claim scope) (citing Ex. 1003, 1).
Patent Owner also directs us to extrinsic evidence,
including Dr. Fudin’s deposition testimony, which
does not trump the persuasive intrinsic evidence in
this case. See Resp. 23 and n.5 (arguing that Dr. Fudin
agreed that the challenged claims require a
centralized storage medium).
In any event, as
explained below, even if we were to apply Patent
Owner’s proposed construction of the term “computer

52a
readable storage medium,” our ultimate conclusion on
the question of obviousness would not change.
D. Patent Owner’s Sur-Reply
During an interlocutory teleconference held June
13, 2016, we authorized Patent Owner to file a SurReply limited to two discrete issues. Paper 59 (order
relating conduct of proceeding). Patent Owner styles
its Sur-Reply as a Motion to Strike and asserts that
the Board authorized a Motion to Strike during the
teleconference. Sur-Reply 1. On the contrary, we
authorized a Sur-Reply limited to addressing: 1)
alleged “new” issues raised in Petitioner’s Reply; and
2) antedating the references cited in Petitioner’s
Reply. Order, 3. In this Decision, we consider the SurReply only to the extent that it complies with our
Order. Id.
We authorized the Sur-Reply specifically to afford
Patent Owner an opportunity to address antedating
evidence that it claimed to have had in its possession
at the time of the teleconference, yet Patent Owner
fails to present any antedating evidence in the SurReply. Sur-Reply 3, 9–10. Accordingly, we hold that
Patent Owner has waived its opportunity to address
any antedating evidence.
Further, Patent Owner in the Sur-Reply does not
persuade us that the two prior art references sought to
be antedated and excluded (identified by the parties as
Marwick (Ex. 2063) and Vanchieri (Ex. 2064) (id. at 9;
Reply 1)) represent “new” evidence raised improperly
in Petitioner’s Reply. Patent Owner itself introduced
those references into the record by citing them in the
Response, and Patent Owner’s own experts cited them
in support of propositions related to the state of the

53a
prior art. Resp. 58; Ex. 2059 ¶¶ 26, 45, 101; Ex. 2060
¶¶ 99, 103, 104. On this record, we find unpersuasive
Patent Owner’s suggestion that those references do
not qualify as prior art. Sur-Reply 3, 9–10.
We also find unpersuasive Patent Owner’s
suggestion that it has been prejudiced by Petitioner’s
discussion of those references in the Reply. Sur-Reply
3–6. Petitioner’s discussion of those background
references in the Reply does not unfairly prejudice
Patent Owner, where Patent Owner itself introduced
them into the record in the context of describing the
state of the prior art. Resp. 58; Ex. 2059 ¶¶ 26, 45,
101; Ex. 2060 ¶¶ 99, 103, 104. A third reference
(identified as Zeldis (Ex. 1068) (Sur-Reply 2)) was
fairly raised in the Reply to counter arguments and
evidence asserted in the Response addressing whether
an ordinary artisan would have formed a reasonable
expectation of success in combining the disclosures of
the applied prior art, namely, Powell, Mitchell, and
Dishman. Resp. 53–54; Reply 10–11.
E. Analysis of the Ground of Unpatentability
The single ground of unpatentability at issue in this
case is whether the subject matter of claims 1–10 of
the ’501 patent would have been obvious to a person of
ordinary skill in the art at the time of the invention
over the combined disclosures of Powell, Mitchell, and
Dishman. We first analyze the prior art against claim
1, the only independent claim, and then address
dependent claims 2–10. Before reaching our ultimate
conclusion on the question whether the subject matter
of any challenged claim would have been obviousness
at the time of the invention, we take account of

54a
available
objective
evidence
considerations of nonobviousness.

of

secondary

1. Analysis of Claim 1 over
Powell, Mitchell, and Dishman
We first address whether the combined disclosures
of the asserted prior art discloses or suggests the
invention of claim 1 of the ’501 patent. We determine
that the following facts are supported by a
preponderance of the evidence.
Powell provides guidance regarding “the clinical use
and dispensing” of thalidomide. Pet. 21 (quoting Ex.
1005, 901). Mitchell relates to an existing pregnancyprevention program for women users of Accutane, a
Vitamin A analogue of isotretinoin and a known
teratogenic drug.
Pet. 15; Ex. 1006, 101–102.
Dishman describes a registry for pharmacies,
prescribers, and users of Clorazil, a potent antipsychotic drug with potential for serious side effects.
Pet. 27–28 (quoting Ex. 1007, 899). A person of
ordinary skill in the art would have understood how to
implement Powell’s teachings “in clinical and
pharmacy settings” in view “of the Accutane
Pregnancy Prevention Program described in Mitchell
and the Clozaril controlled distribution model outlined
in Dishman.” Id. at 21 (quoting Ex. 1002 ¶ 88).
a. Women as a Subpopulation for
Controlled Access to Thalidomide
Powell discloses that “women of childbearing
potential” should not be treated with thalidomide if
they “wish to become pregnant,” “have not practiced a
reliable form of contraception for 1 year,” “are
unwilling to take reliable contraceptive precautions,”
or “are considered not capable of complying with the

55a
requirements for reliable contraception.” Id. at 22
(quoting Ex. 1005, 901). Similarly, Mitchell discloses
a program of preventative measures, such as
pregnancy-risk warnings on packaging, targeted
“specifically at women.” Id. (quoting Ex. 1006, 101).
Mitchell targets “women of childbearing age (12 to 59
years of age)” for the pregnancy-prevention program.
Id. (quoting Ex. 1006, 102).
The combined disclosures of Powell and Mitchell
would have suggested to a person of ordinary skill in
the art at the time of the invention the step of
identifying “a subpopulation” of female patients who
are capable of becoming pregnant, from among a
larger group of patients in need of a teratogenic drug.
Ex. 1001, claim 1 (step (d)). Both Powell and Mitchell
are focused on restricting access of a teratogenic drug
to minimize birth defects. Ex. 1002 ¶ 95. Both
references address that common problem in the same
way—by controlling the distribution of the drug to a
subpopulation of patients (pregnant women) likely to
realize the potential harm caused by the drug. A
person of ordinary skill in the art would have been led
to apply known methods for controlling the
distribution of drugs that pose the risk of serious side
effects—including the known method disclosed in
Dishman for controlling distribution of Clorazil, a
drug known to present a potential for serious side
effects—to further implement a computerized registry
for avoiding birth defects from other teratogenic
drugs, including the thalidomide disclosed in Powell.
Ex. 1002 ¶ 115.

56a
b. Counseling as a Feature for
Controlling the Risk of Side Effects
Powell discloses a method of providing “counseling
information concerning the risks attendant to fetal
exposure to” a teratogenic drug. Ex. 1001, claim 1
(step (e)).
Powell states that a prescriber of
thalidomide “must inform the patient of any
contraindications,
warnings,
and
precautions
associated with the use of the drug.” Pet. 23–24
(quoting Ex. 1005, 902). Figure 1 of Powell is a sample
Patient Information Sheet that reveals potential
“[d]amage to babies,” and informs that thalidomide is
“toxic to the developing baby, especially in the early
months of pregnancy.” Id. at 24 (quoting Ex. 1005,
Fig. 1) (emphasis omitted). Powell discusses securing
patient agreements to use contraception for 3 months
after discontinuing use of thalidomide. Id. (citing Ex.
1005, 901–902).
Under Mitchell’s program, “physicians were given
instructions ‘to warn patients of risks’ involved in
treatment
with
the
teratogenic
drug
and
‘communication between physicians and patients
regarding the drug’s teratogenic risk and the need to
prevent pregnancy’ was encouraged.”
Id. at 24
(quoting Ex. 1006, 101, 105). Both Mitchell and Powell
suggest the use of pregnancy testing prior to starting
drug therapy. Id. at 25 (citing Ex. 1005, 901; Ex. 1006,
101). Accordingly, we find that an ordinary artisan
would have been led to use pregnancy testing to
determine whether patients in the subpopulation “are
pregnant.” Ex. 1001, claim 1 (step (f)).
Like Powell, Mitchell suggests that female patients,
who are capable of becoming pregnant, should be

57a
isolated for counseling. Pet. 22 (quoting Ex. 1002
¶ 94). Mitchell describes the use of contraceptive
information, a consent form, and warnings about risks
of becoming pregnant while taking isotretinoin. Id. at
24–25 (quoting Ex. 1006, 101).
c. Men as a Targeted
Subpopulation for Receiving Counseling
A question arises whether the combined teachings
of Powell and Mitchell would have suggested including
males, capable of impregnating females, within the
subpopulation isolated to receive counseling. Compare
Pet. 23, with Resp. 44–46. Petitioner alleges that a
person of ordinary skill in the art would have
understood that “a subgroup of male patients capable
of impregnating females” would be among the patients
targeted for counseling, because such men “could be
affected by the teratogenic nature of the drug,” and
“the purpose of the programs of Powell and Mitchell is
to minimize birth defects.” Pet. 23 (quoting Ex. 1002
¶¶ 95, 97).
Petitioner advances credible and
persuasive evidence—the opinion of Dr. Fudin, as
supported by Mann7—showing that, at the time of the
invention, an ordinary artisan would have recognized
“that the sperm of male patients could be damaged by
teratogenic drugs and consequently result in birth
defects, if the male was to impregnate a female.” Id.
(quoting Ex. 1002 ¶ 96 (citing Ex. 1018, 7–8)).

7

Passage of Chemicals into Human and Animal
Semen: Mechanisms and Significance, Thaddeus
Mann and Cecelia Lutwak-Mann, CRC Critical
Reviews in Toxicology (1982) 11:1, 1–14 (Ex. 1018,
“Mann”).

58a
As an initial matter, we determine that Petitioner
complies with our rules, and precedent of our
reviewing court, by presenting Mann as objective
support for Dr. Fudin’s opinion testimony. See 37
C.F.R. § 42.65(a) (opinion testimony that does not
disclose underlying facts “is entitled to little or no
weight”); Ashland Oil, Inc. v. Delta Resins &
Refractories, Inc., 776 F.2d 281, 294 (Fed. Cir. 1985)
(lack of objective support for expert opinion “may
render the testimony of little probative value in a
validity determination”). We have considered, but find
unpersuasive, Patent Owner’s counterview that the
Board should disregard Mann because, according to
Patent Owner, the reference is directed “to
teratologists or reproductive toxicologists, not
pharmacists or [ ] those focusing on risk management.”
Resp. 44. Patent Owner’s position on that point is not
persuasive in view of Patent Owner’s own prior
reliance on information supplied by teratologists in
connection with the controlled distribution of
thalidomide. Reply 16–17 (citing Ex. 2094, 7, 130,
137). Taking account of the full record developed
during trial, we credit Dr. Fudin’s testimony that a
person of ordinary skill in the art would have
recognized the desirability of identifying a
subpopulation of male patients in view of Mann. Ex.
1002 ¶¶ 95–98.
We are persuaded that Mann reveals the state of the
art at the time of the invention, and supports Dr.
Fudin’s testimony that an ordinary artisan would
have understood the necessity of counseling males,
capable of impregnating females, about the risks that
attend fetal exposure to a teratogenic drug. Pet. 23
(quoting Ex. 1002 ¶¶ 95–98 (citing Ex. 1018, 7–8)

59a
(Mann, suggesting that thalidomide was known to
become “strongly adsorbed by spermatozoa” and
adversely affect the pregnancy in female rabbits
mated to males that were administered thalidomide
prior to conception)). We have considered, but are not
persuaded by, Patent Owner’s counterview that one
would not have considered Mann’s discussion of rabbit
sperm to apply to human sperm. Resp. 44–45. As
Petitioner points out, Patent Owner previously
admitted that studies relating to rabbit sperm were
relevant to evaluating the effects of thalidomide on
human sperm. Reply 17 (citing Ex. 2064, 951). Dr.
Fudin’s opinion—that it would have been “apparent
that the sperm of male patients could be damaged by
teratogenic drugs and consequently result in birth
defects, if the male was to impregnate a female”—is
supported by objective factual evidence, namely,
Mann. Pet. 23 (quoting Ex. 1002 ¶ 96) (citing Ex.
1018, 7–8)).
We recognize that Powell’s Patient Information
Sheet, under a heading relating to “side effects,”
contains this statement: “No effects on male sperm
are recognized.” Ex. 1005, 903; Resp. 45. That
isolated statement in Powell, standing alone, does not
defeat the sufficiency of Petitioner’s evidence that one
of ordinary skill in the art would have recognized that
the sperm of male patients, treated with teratogenic
drugs, could result in birth defects. Pet. 23 (quoting
Ex. 1002 ¶ 96) (citing Mann (Ex. 1018, 7–8)).
Significantly, the statement in Powell is preceded by a
discussion of the necessity of using “adequate
contraception throughout the duration of thalidomide
therapy.” Ex. 1005, 903. When read in the context of
the surrounding disclosure, Powell suggests that no

60a
contraceptive “effects on male sperm are recognized”
as a side effect of thalidomide therapy. Id.
On this record, Petitioner shows sufficiently that a
person of ordinary skill in the art would have
recognized the desirability of identifying a
subpopulation of male patients having “the ability . . .
to impregnate females” and, further, the utility of
providing that group with “counseling information
concerning the risks attendant to fetal exposure to” a
teratogenic drug, as specified in claim 1. Ex. 1001,
claim 1 (steps (c) and (e)).
d. Registry as a Known Solution for
Controlling Distribution of a Drug
We next turn to the question whether the applied
art would have suggested the steps of registering
prescribers, pharmacies, and patients in a computer
readable storage medium as specified in claim 1. Ex.
1001, claim 1 (steps (a)–(c)). The overarching purpose
of Powell and Mitchell is to prevent birth defects by
limiting prescriptions for teratogenic drugs to only
non-pregnant women. See, e.g., Ex. 1005, 901 (Powell,
explaining “[p]regnancy should be excluded before
instituting therapy with thalidomide”); see also Ex.
1006, 101 (Mitchell, disclosing “an aggressive program
designed to reduce the risk of pregnancy among
women taking” Accutane).
Petitioner shows
sufficiently that Dishman would have led an ordinary
artisan to advance that purpose through an obvious
modification; that is, by storing patient, prescriber,
and pharmacy records in a computer readable storage
medium. See Pet. 37–39, 41 (claim chart, steps (a)–(c),
(g)).

61a
Dishman describes a nationwide registry for
patients requiring clozapine, a potent anti-psychotic
drug with potential for serious side effects. Pet. 27
(quoting Ex. 1002 ¶¶ 116–117). Although Dishman
does not expressly relate to side effects that include
birth defects, Petitioner shows sufficiently that “a
person of ordinary skill in the art would have been
motivated to look to the system disclosed in Dishman
to further implement a computerized registry for
avoiding birth defects from a teratogenic drug.” Pet.
26–27 (citing Ex. 1002 ¶ 115). We find that one of
ordinary skill in the art would have turned to Dishman
as a source of “ways to restrict access to drugs that
could be potentially hazardous.” Id. at 27 (quoting Ex.
1002 ¶¶ 116–117).
Dishman explains that “all prescribers and
patients” of clozapine must “be registered with” the
national registry, “which requires weekly monitoring
of each patient’s white blood cell (WBC) count” and
also “limits medication dispensing to a one-week
supply.” Ex. 1007, 899. The national registry,
moreover, is used to store a “pharmacist’s verification”
relating to the weekly WBC monitoring requirement.
Pet. 28 (quoting Ex. 1007, 899); see Ex. 1002 ¶ 122 (Dr.
Fudin, testifying that Dishman discloses a need for
cooperation
between
patients,
physicians,
laboratories, and pharmacies).
In that context,
Dishman refers to “a computerized clozapine
prescription lockout system.” Ex. 1007, 900; see Ex.
1002 ¶ 123 (Dr. Fudin, explaining “that each hospital
[must] have a computerized clozapine prescription
lockout system” that “ties the hospital’s laboratory
databases to the outpatient pharmacy dispensing
software”).

62a
The combined disclosures of Powell, Mitchell, and
Dishman would have prompted an ordinary artisan to
implement a pregnancy-prevention program for
thalidomide patients that makes mandatory the use of
a registry for patients, prescribers, and pharmacies;
that limitation is suggested by Dishman’s disclosure of
registering a pharmacist’s verification before any
patient is authorized to receive a drug. Pet. 21–22
(citing Ex. 1002 ¶ 89).
Patent Owner counters that Dishman does not
disclose a registry for pharmacies, asserting that
“[t]he pharmacist’s verification” in Dishman means
that a pharmacist is “obtaining information from, not
providing information to” a registry. Resp. 39 n.8, 40
(emphasis omitted). That view runs counter to the
disclosure of Dishman. Dishman suggests a registry
of pharmacies because it refers to the use of the
registry to store a pharmacist’s verification. Ex. 1007,
899. We agree with Petitioner that it defies logic that
a pharmacy would be given access to verify
information in the registry without being registered
itself, because Dishman requires dispensing the
restricted drug on a weekly basis, and it would have
been impossible to verify that requirement if
pharmacists entered no records in the registry. Ex.
1007, 899–900; Reply 18 (citing Ex. 1001 ¶ 121).
Dishman discloses registering physician, patient,
and pharmacy information in a computer readable
storage medium. For reasons discussed in the claim
construction analysis above, we are not persuaded
that the claim term “computer readable storage
medium” requires a “centralized database” of any sort.
Resp. 35. Dishman expressly discloses the use of a
“computer readable storage medium” in its description

63a
of a “computerized lockout system.” Ex. 1007, 900. At
the time of the invention, it was well known that
prescription records could be and were kept in
computerized systems. Pet. 12 (citing Ex. 1012, 175,
Fig. 12.1; Ex. 1002 ¶ 48). Pharmacists had been using
such systems to track patient data as far back as 1975.
Id. (citing Ex. 1012, Ch. 12; Ex. 1002 ¶ 48). Petitioner
comes forward with credible and persuasive evidence,
which is not refuted effectively on this record, that it
was well known in the art to isolate groups of patients,
including contraindicated individuals, based on
computerized sorting of computerized records. Id. at
12–13 (citing Ex. 1002 ¶¶ 53–54).
In the alternative, even if Dishman discloses
registering patient, prescriber, and pharmacist
information in different computers (as expressly
disclosed in the ’501 patent as a suitable means for
carrying out the method of the invention (Ex. 1001,
4:50–57; 10:12–16)), providing that information in a
centralized database would have been a predictable
variation that provides no patentable distinction over
the combined disclosures of the applied prior art
references. A person of ordinary skill is also a person
of ordinary creativity, not an automaton. KSR, 550
U.S. at 421.
e. Retrieving Information from a
Registry to Control Distribution of a Drug
We are persuaded that Dishman would have led a
person of ordinary skill in the art, seeking to improve
the methods of Powell and Mitchell, to maintain the
mandatory registry of records in a computer readable
storage medium for “ease in sharing and storing.” Pet.
26 (quoting Ex. 1002 ¶ 114). The only practical reason

64a
for storing information in a computer readable
medium is to permit later retrieval of that
information.
We are directed to no persuasive
evidence disputing that fact.
Resp. 26, 34, 36
(discussion of the “retrieval” step of claim 1); see KSR
Int’l, 550 U.S. at 421 (a person of ordinary skill in the
art possesses ordinary creativity and is not an
automaton). Furthermore, Dishman’s disclosure of
registering a pharmacist’s verification, before any
patient is authorized to receive a drug, implies a
retrieval of such information. Pet. 21–22 (citing Ex.
1002 ¶ 89). On this record, the applied prior art
suggests a method of registering prescriber,
pharmacy, and patient information in “a computer
readable storage medium,” and retrieving information
necessary to ensure that prescriptions for a
teratogenic drug are authorized for only non-pregnant
patients. Ex. 1001, claim 1 (steps (a)–(d)).
Patent Owner’s arguments narrowly focus on the
express teachings of individual prior art references, to
the exclusion of a balanced approach that considers
what the combined disclosures of the prior art fairly
would have suggested to a person of ordinary skill in
the art. We discuss that aspect of the dispute in
greater depth in the next section.
f. Further Observations on the Parties’
Dispute Surrounding Reasons to Combine
The nub of the dispute in this case is whether a
person of ordinary skill in the art would have been led
to combine features of known methods for controlling
potentially hazardous drugs—such as Mitchell’s
method for controlling distribution of Accutane and
Dishman’s method for controlling distribution of

65a
Clozaril—and apply those features to controlling the
distribution of another potentially hazardous drug
(thalidomide, which Powell discusses as requiring
controlled distribution). Patent Owner’s contention
that a person of ordinary skill in the art would not
have recognized or applied the teachings of Mitchell or
Dishman to the problem identified in Powell lacks
merit. Resp. 49–53. On that point, Patent Owner
itself identifies in the Response an article, which
explains that Patent Owner’s “plan [for thalidomide]
is built on experience with restrictions on such other
drugs with severe side effects as Accutane . . . and
Clorazil.” Ex. 2063, 1136; see Resp. 6 (quoting Ex.
2063, 1135).
Furthermore, both of Patent Owner’s witnesses
acknowledged the relevance of the programs disclosed
in Mitchell and Dishman to the problem at hand,
namely, controlling distribution of thalidomide.
Specifically, Dr. DiPiro testified that, “in some of the
literature where isotretinoin [Accutane] and clozapine
[Clorazil] systems were discussed,” even researchers
employed by Patent Owner recognized “that the
results from these systems could guide an individual
in either direction, as a way to do it or as a way not to
do it. So in that sense they are relevant.” Ex. 1066,
326:23–327:5. Dr. Frau similarly acknowledged that
the clozapine program was a restricted distribution
program (Ex. 1067, 112:7–15; 113:3–8) and, thus,
addressed the very same problem that would have
been focused upon by a person of ordinary skill in the
art. We find unpersuasive Patent Owner’s assertions
that a person of ordinary skill in the art would not
have been led to consider the combined disclosures of
Mitchell, Dishman and Powell—all of which pertain to

66a
controlling the distribution of a drug to a
subpopulation of patients likely to suffer serious side
effects. Resp. 31–32, 38–41 (arguing that various
features of known methods for controlling distribution
of Accutane and Clozaril, as disclosed or suggested by
the combined prior art, would not have been applied to
controlling distribution of thalidomide in the manner
claimed).
Patent Owner, in essence, argues that an ordinary
artisan would understand each applied reference only
for its express teachings and would not have applied
those teachings beyond the specific uses disclosed in
the particular prior art reference. However, “the
analysis need not seek out precise teachings directed
to the specific subject matter of the challenged claim,
for a court can take account of the inferences and
creative steps that a person of ordinary skill in the art
would employ.” KSR, 550 U.S. at 418. In that regard,
we are persuaded that the invention of claim 1
represents the “predictable use of prior art elements
according to their established functions.” KSR Int’l,
550 U.S. at 417. Claim 1 is directed to a combination
of known steps (registering patients, prescribers, and
pharmacies in a computer readable storage medium;
identifying and counseling a subpopulation of patients
whose access to a teratogenic drug should be
restricted; and authorizing drug therapy only for nonpregnant patients) to accomplish a known purpose
(prescribing drug only to non-pregnant patients) and
achieve a predictable result (preventing fetal exposure
to the drug). Pet. 36–41 (claim chart).
We agree with Petitioner that Patent Owner
approaches this dispute as if the ground set for trial
was based on anticipation. Reply 14 (pointing out that

67a
Patent Owner’s Response “reads as if [the ground set
for trial] was based on an anticipation”). For example,
Patent Owner focuses on specific features not present
in one applied reference, without meeting head on the
question whether all the features would have been
suggested by the combined disclosures of the prior art.
See Resp. 25–29, 31–32, 36–37 (attacking disclosures
of each applied reference in isolation). Patent Owner’s
attack on the individual disclosures of Powell,
Mitchell, and Dishman is ineffective to counter
Petitioner’s evidence that the subject matter of claim
1 would have been obvious over the combined
disclosures of those prior art references. We find that
a person of ordinary skill in the art would have been
led to combine, in the manner claimed, the disclosures
of Powell, Mitchell, and Dishman to address the
problem of limiting thalidomide access to patients
likely to suffer serious adverse side effects, including
birth defects in a developing fetus.
g. Reasonable Expectation of Success
The prior art methods were successful; even the
inventors of the ’501 patent touted their success in an
article entitled S.T.E.P.S.™ A Comprehensive
Program for Controlling and Monitoring Access to
Thalidomide, by inventors Bruce Williams and Mark
El Sayed (along with other Celgene authors). Ex.
1068. Patent Owner’s arguments in this proceeding
are inconsistent with prior assertions that the
programs for controlling distribution of Accutane and
Clorazil were “successful” and “provided guides” for
the controlling and monitoring access to thalidomide.
Id. at 329. Indeed, the inventors explained that their
method was “based partly on 2 existing models—the
safety programs developed for isotretinoin and

68a
clozapine.” Id. at 320; see id. at 323 (describing
programs for controlling distribution of Accutane and
Clorazil as “successful” and explaining that elements
of both programs were incorporated into the inventors’
method for controlling distribution of thalidomide).
When it benefitted Patent Owner’s interests before the
FDA, moreover, Patent Owner freely admitted that its
“plan [for thalidomide] is built on experience with
restrictions on such other drugs with severe adverse
effects as Accutane . . . and Clorazil.” Ex. 2063, 1136.
Patent Owner’s arguments in this proceeding also
are contrary to disclosures of the applied prior art
references. For example, Mitchell explicitly points out
that the methods of control discussed in connection
with Accutane could be used for controlling the
distribution of thalidomide. Ex. 1006, 105. Based on
the evidence of record, we find unpersuasive Patent
Owner’s arguments that an ordinary artisan would
not have formed a reasonable expectation of success in
applying the prior art programs for controlling the
distribution of hazardous drugs to the problem of
controlling the distribution of thalidomide. Resp. 53–
54.
2. Analysis of Claims 2–10
over Powell, Mitchell, and Dishman
We next turn to Petitioner’s contention that the
subject matter of claims 2–10, which depend from
claim 1, would have been obvious over the combined
disclosures of Powell, Mitchell, and Dishman. The
following facts are supported by a preponderance of
the evidence.
The dependent claims require thalidomide as the
teratogenic drug (claim 2); registering information

69a
about male patients in the subpopulation (claim 3);
determining non-pregnancy by pregnancy testing
(claim 4); recording in the computer readable storage
medium information about prescription issuance and
fulfillment (claim 5); authorizing prescription refills
only in response to information contained on the
computer readable storage medium (claim 6); that
prescriptions are filled for no more than about 28 days
(claim 7); that prescriptions are filled together with
distribution of literature warning of the effects of the
drug on fetuses (claim 8); providing patients with
contraception counseling (claim 9); and providing
patients capable of becoming pregnant a contraceptive
device or formulation (claim 10).
Petitioner’s arguments and evidence, including the
detailed claim charts, establish adequately that the
subject matter of the dependent claims would have
been obvious over the combined teachings of Powell,
Mitchell, and Dishman.
Pet. 30–36 (textual
arguments, including citations to Dr. Fudin’s
testimony); 42–45 (claim charts). Patent Owner
makes no additional arguments with respect to claims
3, 4, 7, 8, or 9. Resp. 46–49.8 Patent Owner’s sole
argument with respect to claims 3, 4, and 7–9 is that
Petitioner fails to show unpatentability as to claim 1,
from which those claims depend. Resp. 46. That
8

Patent Owner states that Petitioner fails to prove
that claim 7 is unpatentable “for the following
additional reasons” (Resp. 46) but then declines to
address claim 7 in the analysis. Id. at 46–49. We view
Patent Owner to have waived, therefore, arguments
pertaining to claim 7 that we rejected as unpersuasive
in our Decision to Institute. Dec. 15.

70a
argument is unpersuasive, for reasons stated above in
our analysis of claim 1.
Patent Owner raises additional arguments and
evidence relating to claims 2, 5, 6, and 10. None is
persuasive. For example, as to claim 2, which requires
thalidomide as the teratogenic drug, Patent Owner
argues that Powell’s focus on the use of thalidomide by
hospital doctors on a “named patient” basis somehow
makes unobvious the application of prior art methods
for controlling the distribution of hazardous drugs to
the problem of controlling the distribution of
thalidomide. Resp. 47–48. On that point, we agree
with Petitioner that nothing in Powell suggests “that
its methods could not be used on a larger scale.” Reply
19. Patent Owner, moreover, ignores that Mitchell
explicitly points out that the methods of control
discussed in connection with Accutane could be used
for controlling the distribution of thalidomide. Ex.
1006, 105 (noting that “[t]halidomide appears to be an
effective treatment for various medical conditions”
and that “experience gained with [Accutane] can serve
as a basis for considering how [thalidomide] should be
used and monitored, with a view to ensuring that
pregnancies and malformations are reduced to an
absolute minimum”).
Patent Owner’s “additional arguments” as to claims
5 and 6 add nothing beyond the arguments made in
connection with claim 1 regarding the construction of
the claim term “computer readable storage medium.”
Resp. 48. Patent Owner’s contentions in that regard
are unpersuasive for the reasons discussed above in
connection with claim 1.

71a
As for claim 10, Patent Owner argues that the step
of “providing a contraceptive device or formulation”
would not have been obvious because “counseling”
about contraception is not the same as “providing”
contraception. Resp. 49. On that point, we credit Dr.
Fudin’s testimony that it would have been obvious
from the prior art to “provide contraception,” where,
for example, Mitchell discloses providing patients with
“the necessary forms for a contraception referral
program,” and an ordinary artisan would understand
from this disclosure that the consulting physician
would, after ensuring it is medically appropriate,
provide contraception. Ex. 1002 ¶¶ 168–169.
3. Secondary Considerations
Before reaching an ultimate conclusion on the
question whether the subject matter of claims 1–10 of
the ’501 patent would have been obvious over the
applied prior art, we take account of objective evidence
of secondary considerations of nonobviousness. See
Graham, 383 U.S. at 17–18. We are mindful that
“evidence rising out of the so-called ‘secondary
considerations’ must always when presented be
considered en route to a determination of
obviousness.” Stratoflex v. Aeroquip Corp., 713 F.2d
1530, 1538 (Fed. Cir. 1983). The totality of the
evidence submitted may show that the challenged
claims would not have been obvious to one of ordinary
skill in the art. In re Piasecki, 745 F.2d 1468, 1471–72
(Fed. Cir. 1984). Secondary considerations may
include, for example, long-felt but unsolved need,
industry praise, and unexpected results. Graham, 383
U.S. at 17; Transocean Offshore Deepwater Drilling,
Inc. v. Maersk Drilling USA, Inc., 699 F.3d 1340, 1349,
1355 (Fed. Cir. 2012).
Patent Owner advances

72a
objective evidence related to each of those secondary
considerations, which we weigh en route to ruling on
Petitioner’s obviousness challenge. Resp. 54–60.
We consider but find unpersuasive Patent Owner’s
evidence that the claimed invention satisfied a longfelt but unsolved need for a method of controlling the
distribution of thalidomide. On that point, no showing
is made that other methods of controlling the
distribution of hazardous drugs, which were readily
available in the prior art and included the methods
disclosed in Mitchell and Dishman, were insufficient
to meet any demonstrated need for a controlled
distribution system for thalidomide. Patent Owner
directs us to studies showing a need for thalidomide,
based on findings that thalidomide is useful for
various ailments, but does not show persuasively that
there existed a long-felt or unmet need for an effective
method of distributing a potentially hazardous drug.
Resp. 55–57; Reply 21–22.
Patent Owner also directs us to evidence that the
claimed method of distributing thalidomide generated
some praise within the industry.
Resp. 57.
Specifically, the National Organization for Rare
Disorders praised Patent Owner’s “extraordinary
courage” in moving ahead toward regulatory approval
of thalidomide and for incorporating “numerous
safeguards for pregnancy prevention” in connection
with its distribution. Resp. 57 (quoting Ex. 2020, 1–
2). That evidence is not without some merit, and we
give it appropriate weight in reaching our ultimate
conclusion on obviousness.
Patent Owner’s evidence of unexpected results is
less clear. Patent Owner contends that its claimed

73a
method “has been 100% successful in preventing birth
defects of the type associated with thalidomide.” Resp.
58 (citing Ex. 2059 ¶ 143, Ex. 2060 ¶ 100). Petitioner
responds with evidence that the method “was not 100
percent successful in achieving” the goal stated in
claim 1—namely, preventing fetal exposure—and
directs us to evidence of “four confirmed fetal
exposures.” Reply 24 (emphasis omitted) (quoting Ex.
1064, 5). Claim 1 makes plain that preventing fetal
exposure is the goal. Ex. 1001, claim 1. Given that
Patent Owner’s evidence is predicated on an
unsupported assertion that the method of the
invention “has been 100% successful,” Patent Owner
fails to make out a persuasive showing of unexpected
results. In that regard, we are not persuaded that
combining the features of the prior art drug
distribution programs (according to their known
functions) to control distribution of thalidomide in the
manner claimed would have produced a result that
would have been truly unexpected to a person of
ordinary skill in the art. We, therefore, afford Patent
Owner’s evidence of unexpected results little weight in
the ultimate obviousness determination.
When Patent Owner’s evidence of secondary
considerations is given the appropriate weight to
which it is entitled, that evidence is insufficient to
overcome the strong showing of obviousness made out
by Petitioner on the evidence of the combined
disclosures of the prior art. See Sud-Chemie, Inc. v.
Multisorb Techs., Inc., 554 F.3d 1001, 1009 (Fed. Cir.
2009) (“[E]vidence of unexpected results and other
secondary considerations will not necessarily
overcome a strong prima facie showing of
obviousness.”). Accordingly, we hold that Petitioner

74a
shows by a preponderance of the evidence that the
subject matter of claims 1–10 of the ’501 patent would
have been obvious to a person of ordinary skill in the
art at the time of the invention.
III. MOTIONS TO EXCLUDE EVIDENCE
Both Patent Owner and Petitioner filed a Motion to
Exclude Evidence. Papers 57, 58. We address each
motion in turn.
A. Patent Owner’s Motion to Exclude Evidence
Patent Owner moves to exclude to two prior art
references (Vanchieri (Ex. 2064) and Marwick (Ex.
2063)), addressed above in our discussion of the SurReply. Paper 57, 1–3. Patent Owner further moves to
exclude Exhibit 2094, which is a document related to
an FDA meeting. Id. at 3.
As an initial matter, we observe that Patent Owner
itself introduced into the record each of the exhibits
sought to be excluded and, further, Patent Owner
itself relies upon each in this proceeding. Resp. 5–6;
Ex. 2059 ¶¶ 20, 84; Ex. 2060 ¶ 32 (examples of Patent
Owner’s own reliance on Exhibit 2064); see Resp. 6, 9;
Ex. 2059 ¶¶ 19, 84; Ex. 2060 ¶¶ 32–34 (examples of
Patent Owner’s reliance on Exhibit 2064); see also
Resp. 5; Ex. 2059 ¶¶ 18, 86; Ex. 2060 ¶ 31 (examples
of Patent Owners reliance on Exhibit 2094). Under
the circumstances, we agree with Petitioner that
Patent Owner’s request to exclude Exhibits 2063,
2064, and 2094 as hearsay, only for Petitioner’s
purposes, is an “unusual request.” Paper 63, 1.
In any event, Patent Owner argues that Exhibits
2063, 2064, and 2094 reflect out-of-court statements
offered to prove the truth of a matter asserted and, on
that basis, should be excluded as hearsay. Id. at 1–3.

75a
In actuality, Patent Owner’s objections go to the
credibility of the statements and not to the
admissibility of the exhibits themselves. A prior art
document “is offered simply as evidence of what it
described, not for proving the truth of the matters
addressed in the document.” See, e.g., Joy Techs., Inc.
v. Manbeck, 751 F. Supp. 225, 233 n.2 (D.D.C. 1990),
judgment aff’d, 959 F.2d 226 (Fed. Cir. 1992); Fed. R.
Evid. 801(c) 1997 Adv. Comm. Note (“If the
significance of an offered statement lies solely in the
fact that it was made, no issue is raised as to the truth
of anything asserted, and the statement is not
hearsay.”). We deny Patent Owner’s request to
exclude Exhibits 2063, 2064, and 2094 as hearsay
under Federal Rule of Evidence 801(c).
Patent Owner further alleges that Petitioner relies
upon irrelevant evidence and, on that basis, seeks to
exclude that evidence. Paper 57, 3–9. Petitioner
disagrees and contends that Patent Owner’s relevance
objections go to the weight given to the evidence.
Paper 63, 11–14. We agree with Petitioner. It is the
Board’s discretion to assign the appropriate weight to
be accorded the evidence and we hold that, in this
instance, it is not necessary to resort to a formal
exclusion of the identified evidence in assessing the
sufficiency of the evidence.
In addition, Patent Owner contends that Petitioner
mischaracterized certain portions of Dr. Frau’s
testimony. Paper 57, 10–14. Patent Owner states that
the testimony should be excluded unless the Board
considers it in the context of surrounding testimony or
relevant redirect testimony. Id. at 11. To the extent
the Board relies upon the testimony, we review it in
that context.

76a
Additionally, Patent Owner seeks to exclude a
statement in Petitioner’s Reply that is alleged to
mischaracterize a fact asserted in the Freeman
Declaration advanced by Patent Owner. Id. at 15.
Here again, we agree with Petitioner that Patent
Owner’s objection goes to the weight of the evidence,
not its admissibility. Paper 63, 14–15.
Patent Owner’s Motion to Exclude Evidence is
denied for the reasons stated above. Patent Owner is
reminded that a motion to exclude is limited to
explaining why the evidence is not admissible. A
motion to exclude is not the place to challenge the
sufficiency of the evidence to prove a particular fact.
B. Petitioner’s Motion to Exclude Evidence
Petitioner also filed a Motion to Exclude Evidence.
Paper 58. Specifically, Petitioner seeks exclusion of
certain testimony of Dr. Fudin elicited during cross
examination on the basis of relevance. Id. at 1.
Petitioner also seeks to exclude Patent Owner’s
arguments regarding the cited testimony. Id. at 3.
Petitioner’s Motion to Exclude Evidence is denied as
moot because, even taking the evidence into
consideration, we hold that Petitioner has established
by a preponderance of the evidence that claims 1–10 of
the ’501 patent are unpatentable as obvious.
IV. PETITIONER’S MOTION TO SUBMIT
SUPPLEMENT INFORMATION
Petitioner moves to submit supplemental
information to confirm the public accessibility of two
documents, described as “NIH” (Ex. 1008) and “CDC
minutes” (Ex. 1015), Paper 36, 1–3. Patent Owner
opposes. Paper 41. Because the information sought to
be submitted is unnecessary to this Decision, we deny

77a
as moot Petitioner’s Motion to Submit Supplemental
Information.
V. MOTIONS TO SEAL AND FOR
ENTRY OF PROTECTIVE ORDER
In a combined Motion to Seal and Motion for Entry
of Protective Order, Patent Owner requests that the
Board seal Exhibit 2107 in its entirety, along with
unredacted versions of the Frau Declaration (Ex.
2059), the DiPiro Declaration (Ex. 2060), and the
Freeman Declaration (Ex. 2068), which discuss
Exhibit 2107. Paper 39, 1. According to Patent
Owner, the documents sought to be sealed disclose
Patent Owner’s “business confidential information
and trade secrets,” relating to an agreement between
Patent Owner and a non-party. Id. Patent Owner
states that Exhibit 2107 “has not been previously
disclosed to the public and [ ] remains confidential.”
Id. Patent Owner requests entry of the Board’s
Default Protective Order to govern the disclosure of
confidential information in this proceeding.
Id.
Petitioner filed no opposition.
Petitioner filed a Motion to Seal unredacted
versions of Exhibits 1066 and 1067 (deposition
transcripts). Paper 50, 1. Petitioner states that those
documents discuss Patent Owner’s confidential
business information. Id. at 2. Patent Owner filed no
opposition.
We conclude that the documents sought to be sealed
reflect confidential business information and,
accordingly, grant both motions. The confidential
content of documents placed under seal in this
proceeding has not been identified in this Decision.
We are persuaded that good cause exists to maintain

78a
those documents under seal. The terms of the Board’s
Default Protective Order shall govern any disclosure
of those documents.
The record will be maintained undisturbed pending
the outcome of any appeal taken from this decision. At
the conclusion of any appeal, or if no appeal is taken,
the documents may be made public. See Trial Practice
Guide, 77 Fed. Reg. 48,756, 48,761 (Aug. 14, 2012).
Further, either party may file a motion to expunge the
sealed documents from the record pursuant to 37
C.F.R. § 42.56. Any such motion will be decided after
the conclusion of any appeal or the expiration of the
time period for appealing.
IV. CONCLUSION
Taking account of the arguments and evidence
presented during trial, including the objective
evidence of secondary considerations, we determine
that Petitioner establishes by a preponderance of the
evidence that claims 1–10 of the ’501 patent are
unpatentable under 35 U.S.C. § 103(a) over the
combined disclosures of Powell, Mitchell, and
Dishman.
Patent Owner’s Motion to Exclude Evidence is
denied. Petitioner’s Motion to Exclude Evidence is
denied. Petitioner’s Motion to Submit Supplemental
Information is denied. Patent Owner’s combined
Motion to Seal and Motion for Entry of Protective
Order is granted. Petitioner’s Motion to Seal is
granted.

79a
V. ORDER
It is
ORDERED that claims 1–10 of the ’501 patent are
unpatentable;
FURTHER ORDERED that Patent Owner’s Motion
to Exclude Evidence (Paper 57) is denied;
FURTHER ORDERED that Petitioner’s Motion to
Exclude Evidence (Paper 58) is denied;
FURTHER ORDERED that Petitioner’s Motion to
Submit Supplemental Information (Paper 36) is
denied;
FURTHER ORDERED that Patent Owner’s
combined Motion to Seal and Motion for Entry of
Protective Order (Paper 39) is granted;
FURTHER ORDERED that Petitioner’s Motion to
Seal (Paper 50) is granted;
FURTHER ORDERED that the terms of the Board’s
Default Protective Order shall govern the disclosure of
sealed documents in this proceeding; and
FURTHER ORDERED that, because this is a Final
Written Decision, any party to the proceeding seeking
judicial review of the decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

80a
PETITIONER:
Sarah E. Spires
Parvathi Kota
1092CFAD6@skiermontderby.com
PATENT OWNER:
F. Dominic Cerrito
Frank Calvosa
nickcerrito@quinnemanuel.com
frankcalvosa@quinnemanuel.com
Anthony M. Insogna
aminsogna@jonesday.com

81a

APPENDIX C

Trials@uspto.gov
571.272.7822

Papel No. 73
Entered: October 26, 2016

UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
COALITION FOR AFFORDABLE DRUGS VI LLC,
Petitioner,
v.
CELGENE CORPORATION,
Patent Owner.
Case IPR2015-01096
Patent 6,315,720 B1
Before MICHAEL P. TIERNEY, GRACE KARAFFA
OBERMANN, and TINA E. HULSE, Administrative
Patent Judges.
TIERNEY, Administrative Patent Judge.
FINAL WRITTEN DECISION
Inter Partes Review
35 U.S.C. §318(a) and 37 C.F.R. § 42.73

82a
I. INTRODUCTION
Coalition for Affordable Drugs VI, LLC
(“Petitioner”), filed a Petition requesting an inter
partes review of claims 1–32 of U.S. Patent 6,315,720
(Ex. 1001, “the ’720 patent”). Paper 1 (“Pet.”). Patent
Owner, Celgene Corporation, (“Patent Owner”) filed a
Preliminary Response. Paper 11 (“Prelim. Resp.” with
redacted version Paper 12). We determined that there
was a reasonable likelihood that Petitioner would
prevail in challenging those claims as unpatentable.
Pursuant to 35 U.S.C. § 314, we authorized an inter
partes review to be instituted, on October 27, 2015.
Paper 21 (“Dec. on Inst.”).
After institution, Patent Owner filed a redacted
Patent Owner Response. Paper 40 (“PO Resp.” with
redacted version Paper 41). Petitioner filed a Reply.
Paper 52, (“Reply” with readacted version paper 51).
Additionally, Petitioner filed a Motion to Submit
Supplemental Information (Paper 36), a Motion to
Exclude Evidence (Paper 61), and a Motion to Seal
(Paper 53). Further, Patent Owner filed a Motion to
Exclude Evidence (Paper 60) and Motions to Seal and
for Entry of Protective Order (Papers 10 and 39).
An oral hearing was held on July 21, 2016. A
transcript of the hearing has been entered into the
record of the proceeding as Paper 72 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6(b). This
Final Written Decision is issued pursuant to 35 U.S.C.
§ 318(a) and 37 C.F.R. § 42.73. For the reasons that
follow, we determine that Petitioner has shown by a
preponderance of the evidence that claims 1–32 are
unpatentable.

83a
A. Related Proceedings
According to Petitioner, the ’720 patent has been the
subject of the following judicial matters: Celgene Corp.
v. Lannett Holdings, Inc., DNJ-2-15-00697 (filed Jan.
30, 2015); Celgene Corp. v. Natco Pharma Ltd., DNJ2-10-cv-05197 (filed Oct. 8, 2010); Celgene Corp. v.
Barr Laboratories, Inc., DNJ-2-08-cv-03357 (filed July
3, 2008); Celgene Corp. v. Barr Laboratories, Inc.,
DNJ-2-07-cv-05485 (filed Nov. 14, 2007); Celgene
Corp. v. Barr Laboratories, Inc., DNJ-2-07-cv-04050
(filed Aug. 23, 2007); Celgene Corp. v. Barr
Laboratories, Inc., DNJ-2-07-cv-00286 (filed Jan. 18,
2007). Pet. 2–3. Additionally, the claims of the ’720
patent have been challenged in two related inter
partes review proceedings, IPR2015-01102 and
IPR2015-01103.
B. The ’720 Patent
The ’720 patent specification describes methods for
delivering a drug to a patient. Ex. 1001, 1:8–9. For
example, the method can be used to deliver a drug
known to cause birth defects in pregnant women,
while avoiding the occurrence of known or suspected
side effects of the drug. Id. at 1:9–13, 19–30.
The patent describes prior-art methods that
involved filling drug prescriptions, only after a
computer readable storage medium was consulted, to
assure that the prescriber is registered in the medium
and qualified to prescribe the drug, and that the
patient is registered in the medium and approved to
receive the drug. Id. at 2:50–60. The ’720 patent
specification is said to describe an improvement over
the acknowledged prior art, where the improvement
involves assigning patients to risk groups based on the

84a
risk that the drug will cause adverse side effects. The
improvement further requires entering the risk group
assignment in the storage medium. After determining
the acceptability of likely adverse effects, a
prescription approval code is generated to the
pharmacy before the prescription is filled. Id. at 2:60–
3:4. The specification states that this method may
minimize and simplify demands on the pharmacy and
reduce the risk that the drug will be dispensed to a
contraindicated individual. Id. at 2:8–12.
The ’720 patent specification states that it is
preferable that information probative of the risk of a
drug’s side effects is collected from the patient. Id. at
6:30–33. This information can then be compared with
a defined set of risk parameters for the drug, allowing
for assignment of the patient to a particular risk
group. Id. at 6:33–37. If the risk of adverse side effects
is deemed acceptable, the patient may receive the drug
from a registered pharmacy, subject to conditions such
as a negative pregnancy test, but may not receive
refills without a renewal prescription from the
prescriber. Id. at 11:62–12:8.
The ’720 patent specification states that its method
can be used to deliver teratogenic drugs, and drugs
that can cause severe birth defects when administered
to a pregnant woman, such as thalidomide. Id. at 4:1–
14, 8:39–45.
C. Illustrative Claims
The ’720 patent contains two independent claims
and thirty dependent claims, all of which are
challenged by Petitioner. Each of the independent
claims, 1 and 28, are directed to a method of delivering
a drug to a patient in need of the drug and is written

85a
in a Jepson claim format, where the preamble defines
admitted prior art of prescribing drugs only after a
computer readable storage medium has been
consulted properly. The claimed improvement over the
admitted prior art includes defining a plurality of
patient risk groups, defining information to be
obtained from a patient that is probative of risk of an
adverse side effect, assigning the patient to a risk
group, determining whether the risk of the side effect
is acceptable, and generating an approval code to be
retrieved by a pharmacy before filling a prescription
for the drug.
Claims 2–27 depend, directly or through other
dependent claims, upon claim 1. Dependent claims 2–
4 require that a prescription is filled only following
verified full disclosure and consent of the patient.
Dependent claims 5–6 require that the informed
consent is verified by the prescriber at the time the
patient is registered in a computer, and consent is
transmitted via facsimile and interpreted by optical
character recognition software. Dependent claims 7–
10 require information be obtained from the patient
prior to treatment, including the results of diagnostic
testing, which can comprise genetic testing.
Dependent claims 11–14 and 20–25 further require
additional features, such as a teratogenic effect being
otherwise likely to arise in the patient, arise in a fetus
carried by the patient, and that the drug is
thalidomide. Dependent claims 15–19 and 26–27
require defining a second set of information to be
collected from the patient on a periodic basis, which
can comprise a telephonic survey regarding the results
of pregnancy testing, and where the adverse side effect
of the drug can be a teratogenic effect.

86a
Dependent claims 29–32 each depend, directly or
through other dependent claims, from independent
claim 28. Dependent claims 29–32 further require that
the information collected be probative of likelihood
that the patient may take the drug and other drugs in
combination, and that the diagnostic testing test for
evidence of the use and adverse effect of the other
drug.
Independent claim 1 is illustrative of the challenged
claims, and is recited below:
1. In a method for delivering a drug to a patient
in need of the drug, while avoiding the occurrence
of an adverse side effect known or suspected of
being caused by said drug, wherein said method
is of the type in which prescriptions for said drug
are filled only after a computer readable storage
medium has been consulted to assure that the
prescriber is registered in said medium and
qualified to prescribe said drug, that the
pharmacy is registered in said medium and
qualified to fill the prescription for said drug, and
the patient is registered in said medium and
approved to receive said drug, the improvement
comprising:
a. defining a plurality of patient risk
groups based upon a predefined set of risk
parameters for said drug;
b. defining a set of information to be
obtained from said patient, which information is
probative of the risk that said adverse side effect
is likely to occur if said drug is taken by said
patient;

87a
c. in response to said information set,
assigning said patient to at least one of said risk
groups and entering said risk group assignment
in said medium;
d. based upon said information and said
risk group assignment, determining whether the
risk that said adverse side effect is likely to occur
is acceptable; and
e. upon a determination that said risk is
acceptable, generating a prescription approval
code to be retrieved by said pharmacy before said
prescription is filled.
Claim 28, the only other independent claim, includes
all the elements of claim 1 and adds a wherein clause
that “said adverse side effect is likely to arise in
patients who take the drug in combination with at
least one other drug.” Prelim. Resp. at 15.
D. Prior Art Relied Upon
Petitioner relies upon the following prior art:
“THALOMID™ (thalidomide) Capsules Revised
Package Insert” (Jul. 15, 1998) (“Thalomid PI”) (Ex.
1006)
U.S. 5,832,449, Nov. 30, 1998 (“Cunningham”) (Ex.
1009)
Jerome B. Zeldis et al., S.T.E.P.S.TM: A
Comprehensive Program for Controlling and
Monitoring Access to Thalidomide, CLINICAL
THERAPEUTICS® 21:2, 319–30 (1999) (“Zeldis”) (Ex.
1012)
Daniel P. Keravich and Charles E. Daniels, Challenges
of Thalidomide Distribution in a Hospital Setting, AM.

88a
J. HEALTH-SYST. PHARM. vol. 56, 1721–75 (Sept. 1,
1999) (“Keravich”) (Ex. 1018)
James C. Mundt, Interactive Voice Response Systems
in Clinical Research and Treatment, PSYCHIATRIC
SERVICES (May 1997) 48:5, 611–12, 623 (“Mundt”)
(Ex. 1024)
Petitioner contends that the challenged claims are
unpatentable under 35 U.S.C. § 103 based on the
following specific grounds (Pet. 14–60):
Reference(s)

Basis

§ 103
Thalomid PI in view of
Cunningham and further in
view of Keravich, Zeldis, and
Mundt1

Claims
challenged
1–32

E. Level of Ordinary Skill in the Art
The person of ordinary skill in the art is a
hypothetical person who is presumed to have known
the relevant art at the time of the invention. Factors
that may be considered in determining the level of
ordinary skill in the art include, but are not limited to,
the types of problems encountered in the art, the
sophistication of the technology, and educational level
1

Petitioner’s heading merely states that claims 1–32 are
obvious over Thalomid PI in view of Cunningham and further in
view of the knowledge of one of ordinary skill in the art. Pet. 51.
The Petition, however, goes on to rely upon additional art to
explain the Thalomid PI reference. Specifically, the Petitioner
relies upon Keravich, Zeldis, and Mundt. Id. at 17, 24–25, 33, 42,
46–47, 49–50, and 55–56. In the Decision to Institute we included
the additional art relied upon, Keravich, Zeldis, and Mundt, in
the stated grounds, so that the record was clear as to the prior art
relied upon. Dec. on Inst.

89a
of active workers in the field. In a given case, one or
more factors may predominate. In re GPAC, 57 F.3d
1573, 1579 (Fed. Cir. 1995).
The challenged claims are directed to the subject
matter of delivering a drug to a patient in need of the
drug, while avoiding the occurrence of an adverse side
effect known or suspected of being caused by said drug.
The claims are said to be an improvement over prior
art distribution systems where the improvement
includes using an approval code to help minimize and
simplify demands on a pharmacy and reduce the risk
that the drug will be dispensed to a contraindicated
individual. Ex. 1001 at 2:8–12.
Petitioner contends that a person skilled in the art
of pharmaceutical prescriptions, which would involve
controlling distribution of a drug, typically would have
either a Pharm.D. or a B.S. in pharmacy with
approximately 5–10 years of experience and a license
to practice as a registered pharmacist in any one or
more of the United States. Ex. 1021, Declaration of Dr.
Jeffrey Fudin ¶¶ 13, 16. Patent Owner disagrees with
Petitioner’s definition of a person of ordinary skill in
art and contends that such a person would have at
least 2 years of experience in risk management
relating to pharmaceutical drug products or a B.S. or
M.S. in pharmaceutical drug product risk
management or a related field. PO Resp. 12–13.
Based on the record presented, we hold that the
cited prior art is representative of the level of ordinary
skill in the art. See Okajima v. Bourdeau, 261 F.3d
1350, 1355 (Fed. Cir. 2001). The prior art references,
like the ’720 patent specification, focus on controlling
the distribution of a drug. See, e.g., Ex. 1001, 1:13–16

90a
(describing “the distribution to patients of drugs,
particularly teratogenic drugs, in ways wherein such
distribution can be carefully monitored and
controlled”); see generally Exs. 1003, 1006, 1009, 1012,
1018. Consistent with the prior art, Petitioner’s
Declarant, Dr. Fudin, testifies that the types of
problems encountered by one of ordinary skill in the
art included creating a restricted drug distribution
program to prevent adverse side effects, such as
teratogenic risks. Ex. 1021 ¶¶ 44–50. Accordingly, the
prior art demonstrates that one of ordinary skill in the
art would have experience in controlling the
distribution of a drug. To the extent a more specific
definition is required, we hold, for the reasons
provided below, that a person of ordinary skill in the
art would have several years of experience in risk
management relating to pharmaceutical drug
products, which encompasses experience as a
pharmacist.
Patent Owner contends that a pharmacist would not
be considered a person of ordinary skill in the art.
Patent Owner relies upon the declaration of Dr. Frau,
who testifies that “an average pharmacist at the time
of the invention would have lacked the ability and the
motivation to design an all inclusive system of drug
delivery for a hazardous drug that is focused on
preprescription patient assessment.” Ex. 2059, ¶ 47.
The challenged claims, however, are directed to an
improvement of an existing drug distribution method
that provides an approval code after a prescriber has
prescribed the drug. Specifically, the approval code
checks to see if all the requisite information was
properly registered in the storage medium and if the
approval code is provided the pharmacy provides the

91a
drug. Ex. 1001, 14:45–57. Additionally, as to
preprescription patient assessment, Dr. Frau fails to
explain why pharmacists would lack awareness of
preprescription patient assessment for drugs
requiring prescriptions, e.g., checking patient history
to prevent prescription of contraindicated drugs.
Patent Owner contends that neither of the inventors
of the challenged patent are pharmacists and relies
upon the Dr. Frau’s testimony as support for its
position. Ex. 2059, ¶ 46. Although Dr. Frau states that
the inventors are not pharmacists, Dr. Frau does not
provide the basis for her testimony.
Patent Owner contends that the focus of the ’720
patent is avoiding adverse events associated with drug
products and not pharmaceutical prescriptions. PO
Resp. 13. The challenged claims, however, do not
prevent a patient taking a drug from experiencing the
side effects associated with the drug. Rather, the
challenged claims attempt to prevent a person from
obtaining a drug where the person has an
unacceptable risk associated with the known side
effects of the drug. Specifically, the claims seek to
control the distribution of a prescribed drug.
Patent Owner, relying on the testimony of Dr. Frau,
contends that a person of ordinary skill in the art
would have education or experience focused on safety
surveillance,
pharmacovigilance
or
pharmacoepidemiology. Id. at 14. On crossexamination, Dr. Frau did not identify any schools in
the United States that offered a degree in
pharmaceutical risk management or related fields,
such as pharmacoepidemiology, but did identify two

92a
schools located outside the United States. Ex. 1075,
166:19–167:19.
Patent Owner contends that Dr. Fudin
acknowledged on cross-examination that, under his
definition, one of ordinary skill in the art would not
know how to design the “full system” claimed in
the ’720 patent. PO Resp. 15 citing Ex. 2061, 199:8–
200:25. The challenged claims of the ’720 patent are
Jepson claims where the preamble defines admitted
prior art. On this record it is unclear whether Dr.
Fudin was testifying that a person of ordinary skill
under his definition would be unable to develop the
admitted prior art. Regardless, Dr. Fudin testified
that pharmacists “don’t need to know how to design
it,” which is distinct from would not know how to
design it. Ex. 2061, 201:1–6.
We credit Dr. Fudin’s testimony that a person of
ordinary skill in the art would encompass a
pharmacist as his testimony is consistent with the ’720
patent specification, which states that the use of the
approval code is focused on helping a pharmacy and a
pharmacist would understand what would help
simplify demands on a pharmacy. Ex. 1001 at 2:8–12.
We likewise credit Dr. Frau’s testimony that the
person of ordinary skill in the art is not limited to
pharmacists but would likewise encompass persons
having at least 2 years of experience in risk
management relating to pharmaceutical products, as
pharmacists are not the only persons having restricted
drug distribution experience and knowledge. Ex. 2059,
¶ 39.

93a
II. ANALYSIS
A. Claim Interpretation
In an inter partes review, claim terms in an
unexpired patent are given their broadest reasonable
interpretation in light of the specification of the patent
in which they appear. 37 C.F.R. § 42.100(b).
Generally, Petitioner states that the claim terms
are presumed to take on the ordinary and customary
meaning that they would have to one of ordinary skill
in the art. Pet. at 10. Petitioner however, proposes
constructions for several claim terms including
“consulted,” “teratogenic effect,” and “adverse side
effect.” Id. at 9–11. Patent Owner does not propose
distinct constructions of these terms. We determine
that the identified claim terms should be given their
ordinary and customary meaning, as would be
understood by one with ordinary skill in the art, and
need not be construed explicitly at this time for
purposes of this Decision.
Independent claims 1 and 28 are written in a Jepson
claim format. Patent Owner acknowledges that the
challenged claims are written to be an improvement
over its prior program for controlling patient access to
thalidomide known as the System for Thalidomide
Education and Prescribing Safety, or S.T.E.P.S.,
which originally was claimed in U.S. Patent No.
6,045,501. Prelim. Resp. at 1, 10.
Patent Owner contends that the term “prescription
approval code” requires construction and that the term
has a specific meaning. PO Resp. 21–22. According to
Patent Owner, the term “prescription approval code”
means:

94a
[A] code representing that an affirmative risk
assessment has been made based upon riskgroup assignment and the information collected
from the patient, and that is generated only upon
a determination that the risk of a side effect
occurring is acceptable.
Id. at 21, 23. Petitioner disagrees, stating that there is
no requirement for an “affirmative” risk assessment.
Reply 9–12.
The specification defines prescription approval code
such that the prescription approval code is not
provided unless certain conditions are met. Ex. 1001,
13:42–52. The conditions include the prescriber,
pharmacy, patient, patient’s risk group and the
patient’s informed consent have been properly
registered in the storage medium. Id. Specifically,
the ’720 patent specification describes “approval code”
as follows:
In certain embodiments of the invention, the
methods may require that the registered
pharmacy consult the computer readable
medium to retrieve a prescription approval code
before dispensing the drug to the patient. This
approval code is preferably not provided unless
the prescriber, the pharmacy, the patient, the
patient’s risk group and the patient’s informed
consent have been properly registered in the
storage medium. Additionally, depending upon
the risk group assignment, generation of the
prescription approval code may further require
the registration in the storage medium of the
additional set of information, including periodic
surveys and the results of diagnostic tests, as

95a
have been defined as being relevant to the risk
group assignment.
Id. The specification also states that if a patient’s risk
group assignment so indicates, a prescription approval
code “generally” will not be generated until specific
periodic diagnostic tests have been performed and
satisfactory results entered into the storage medium.
Id. at 14:37–15:6. As apparent from the specification,
the prescription approval code is “preferably” or
“generally” not provided unless certain information is
properly registered in a storage medium. An
affirmative risk assessment, however, is not
mentioned in the specification as a mandatory
requirement for generation of the prescription
approval code.
Patent Owner contends that during prosecution
they overcame a prior-art rejection by defining the
term prescription approval code. PO Resp. 22.
Specifically, Patent Owner overcame the rejection by
noting that the prior art cited by the Examiner merely
described an “identifier for the prescription, and . . .
not an approval code as recited in Applicant’s claims.”
Ex. 1002, 107. Patent Owner also stated that the prior
art was merely a prescription identifier and not
reflective of a determination that the risk of the side
effect occurring has been found to be acceptable. Id.
Patent Owner also states both Petitioner’s expert
(Dr. Fudin) and Patent Owner’s expert (Dr. Frau)
agree with Patent Owner’s claim construction. PO
Resp. 23, citing Ex. 2059 ¶¶ 50–52, Ex. 2060 ¶¶ 36–
38, Ex. 2061, 434:8–15. Patent Owner notes that Dr.
Fudin also insisted that the claimed prescription code

96a
is just a number and could even be a credit card. Id.
citing Ex. 2061 at 432:21–24.
During cross examination, Dr. Fudin was asked
questions regarding the meaning of the terms
“approval code” and “prescription approval code.” Ex.
2061 at 412:17–25, 429:18–430:10, 433:14–434:15.
When Dr. Fudin was asked what an “approval code”
means as used in the ’720 patent claims, Dr. Fudin
testified that it meant a code generated to allow a
prescription to be filled and noted that it could be like
a consumer credit card approval code. Id. at 412:17–
25. When questioned as to how Cunningham taught
an approval code used to represent a determination
made concerning risk of side effects, Dr. Fudin
testified that the code is used to track things and the
technology should allow you to combine it with other
materials that you could track. Id. at 429:18–430:10.
When Dr. Fudin was asked whether the claimed
prescription approval code was merely a number, Dr.
Fudin stated that it was a number associated with the
prescription and agreed that the claimed prescription
approval code represented a determination that the
risk of a side effect occurring was acceptable and that
approval and affirmative decision had been made for
the prescription to be filled. Id. at 433:14– 434:15.
Based on the record presented, we adopt Patent
Owner’s construction of the term prescription
approval code. Specifically, we credit Dr. Fudin’s
testimony that an approval code may be an identifier,
such as an approval code identifier used in consumer
credit card transactions (approved/declined). We
further credit Dr. Fudin’s testimony, as well as Dr.
Frau and Dr. DiPiro’s, that a prescription approval
code represents the fact that a prescription has been

97a
provided and that the prescription approval code
thereby represents that an affirmative risk
assessment has been made based upon risk-group
assignment and the information collected from the
patient, and that is generated only upon a
determination that the risk of a side effect occurring is
acceptable.
B. Claims 1–32 Obviousness over Thalomid PI in
view of Cunningham and Further in view of
Keravich, Zeldis, and Mundt
Petitioner contends that the challenged claims,
which utilize approval codes to implement known drug
restriction requirements, represent no more than an
arrangement of old elements with each performing the
same functions it had been known to perform and
yields no more than one would expect from such an
arrangement. Pet. 53–54. Patent Owner disagrees. PO
Resp. 16–58.
1. Background on Obviousness
A claimed invention is not patentable under 35
U.S.C. § 103 if it is obvious. See KSR Int’l Co. v.
Teleflex Inc., 550 U.S. 398, 426–27 (2007). In Graham
v. John Deere Co., the Supreme Court established the
facts underlying an obviousness inquiry.
Under § 103, the scope and content of the prior
art are to be determined; differences between the
prior art and the claims at issue are to be
ascertained; and the level of ordinary skill in the
pertinent art resolved. Against this background,
the obviousness or nonobviousness of the subject
matter is determined.
Graham v. John Deere Co., 383 U.S. 1, 17 (1966). In
addressing the findings of fact, “[t]he combination of

98a
familiar elements according to known methods is
likely to be obvious when it does no more than yield
predictable results.” KSR, 550 U.S. at 416. As
explained in KSR:
If a person of ordinary skill can implement a
predictable variation, § 103 likely bars its
patentability. For the same reason, if a technique
has been used to improve one device, and a
person of ordinary skill in the art would recognize
that it would improve similar devices in the same
way, using the technique is obvious unless its
actual application is beyond his or her skill.
Id. at 417. Accordingly, a central question in analyzing
obviousness is “whether the improvement is more
than the predictable use of prior art elements
according to their established functions.” Id.
2. Scope and Content of the Prior Art
a. Thalomid PI
Thalomid PI is a thalidomide capsules revised
package insert. Ex. 1006, 1. Thalomid PI states that,
in an effort to make the chance of fetal exposure to
thalidomide as negligible as possible, thalidomide is
approved by the FDA only under a special restricted
distribution program. Id. The restricted program is
called “System for Thalidomide Education and
Prescribing Safety,” (i.e., “S.T.E.P.S.”). Id. According
to Thalomid PI, only prescribers and pharmacists
registered with the program may prescribe and
dispense the product. Id. Further, under the program,
patients must be advised of, and agree to, comply with
the S.T.E.P.S. program in order to receive the product.
Id. For example, Thalomid PI states that prescriptions
for thalidomide for women of childbearing potential

99a
must not be issued until a written report of a negative
pregnancy test has been obtained by the prescriber. Id.
at 2. For sexually mature males, patients must
acknowledge the need for using barrier contraception.
Id. at 4. Sexually mature males and women of
childbearing potential also are required to be capable
of complying with a S.T.E.P.S. patient survey. Id. at
3–4. Thalidomide is to be supplied only to pharmacists
registered with the S.T.E.P.S. program, and patient
compliance with the specific informed consent and
patient registry and survey are required prior to
dispensing thalidomide. Id. at 19.
Thalomid PI describes counseling patients by giving
patients both oral and written warnings of the hazards
of taking thalidomide. Id. at 3–4. In addition to
counseling, before starting treatment, women of
childbearing potential should have a pregnancy test
within 24 hours prior to beginning therapy, so as to
avoid risks of severe birth defects or death to an
unborn baby. Id. at 1–2. Further, women of
childbearing potential are to be referred to a qualified
provider of contraceptive methods, if needed. Id. at 2.
Authorization for thalidomide is provided by a
physician only after the patient and physician
acknowledge that the patient has been given a
warning as to the nature, purpose, and risks of the
treatment. Id. at 21.
When taking thalidomide, Thalomid PI teaches that
pregnancy testing should occur weekly during the first
month of use, then monthly thereafter. Id. at 2.
Thalomid PI also teaches that drug prescribing should
be contingent upon initial and confirmed negative
results of pregnancy testing. Id. at 18. In addition to
pregnancy testing, white blood cell count and

100a
differential should be monitored on an ongoing basis.
Id. at 10. Patients taking thalidomide must
participate in a survey and patient registry. Id. at 20–
21.
Thalomid PI describes adverse side effects when
taking thalidomide in combination with other drugs.
For example, Thalomid PI teaches that thalidomide
has been reported to enhance sedative activity of
barbiturates, alcohol, chlorpromazine, and reserpine.
Id. at 12. Further, medications known to be associated
with peripheral neuropathy are to be used with
caution when taking thalidomide. Id. Thalomid PI also
teaches testing pharmacokinetic profiles of patients on
oral contraceptives. Id. at 12.
b. Cunningham
Cunningham describes a method of dispensing,
tracking, and managing pharmaceutical product
samples. Ex. 1009, 1:6–10. The method involves
communicatively linking prescribers and pharmacies
to a central computing station. Id. at 1:8–11.
Specifically, before filling any prescription for a
pharmaceutical trial product, a pharmacy must
upload defined information into a central computing
station. Id. at 11:6–13. Only if the central computing
station establishes that the uploaded information is
valid, can the central computing station issue a
pharmacy approval code for the pharmacy to dispense
the pharmaceutical product. Id. at 11:13–24.
c. Keravich
Keravich states that pharmacies under the
S.T.E.P.S. program are to dispense a maximum 28-day
supply and that refills are not authorized. Ex. 1018,
1722. Under the S.T.E.P.S. program, patients are

101a
eligible to continue to receive thalidomide, if they
participate in a mandatory and confidential patient
survey every 30 days for women and 90 days for men.
Id. Keravich states that Celgene provides telephone
and fax services for patient registration, approval, and
prescriber verification. Id. at 1723–24. Keravich also
teaches that the S.T.E.P.S. program patient database
provides critical patient related information that is
found on a consent form. Id. at 1723.
d. Zeldis
Zeldis teaches that the S.T.E.P.S. program provides
a method for controlling and monitoring access to
thalidomide. Ex. 1012, 319. Zeldis also teaches that
thalidomide is efficacious in treating erythema
nodosum leprosum (ENL). Id. at 320–21.
e. Mundt
Mundt describes the use of interactive voice
response systems for clinical research and treatment.
Ex. 1024. According to Mundt, the use of interactive
voice response systems can strengthen clinical
practice, extend research methods, and enhance
administrative support of service quality and value.
Id. at 612. Mundt also teaches that individuals may
disclose sensitive information to a computer that they
would be reluctant to discuss with another person and
that interactive voice response systems can costeffectively enhance service. Id.
3. Analysis
Petitioner contends that Thalomid PI describes all
of the claim limitations recited in independent claims
1 and 28, with the exception of the generation of a
prescription approval code to be retrieved by a
pharmacy before the prescription is filled. Pet. 52.

102a
Petitioner states that one skilled in the art, following
the teachings of Thalomid PI and seeking to avoid
treating pregnant women with thalidomide, would
have implemented the methods disclosed in
Cunningham to limit dispensation of a drug associated
with adverse effects to certain risk groups. Id. at 54.
We understand Petitioner as contending that the
challenged claims represent a combination of known
prior art elements (identifying patient risk groups,
collecting patient information relating to the risk,
determining whether the risk is acceptable, and
controlling dispensation of the drug using both a
prescription and an approval code) for their known
purpose (control distribution of drug) to achieve a
predictable result (avoid giving patients drugs that
have an unacceptable risk of side effects). For the
reasons provided below, we conclude that Petitioner
has demonstrated by a preponderance of the evidence
that the challenged claims are obvious over the cited
prior art.
a. Person of Ordinary Skill in the Art
Patent Owner contends that Petitioner has failed to
demonstrate that the challenged claims would have
been obvious to one of ordinary skill in the art.
According to Patent Owner, Petitioner conducted its
obviousness analysis using the wrong person of
ordinary skill in the art. PO Resp. 2. Dr. Fudin,
Petitioner’s declarant, testified that the art related to
pharmaceutical prescriptions and use of computer
systems to regulate access to prescription drugs. Ex.
1021, ¶ 13. Dr. Fudin also testified that a person of
ordinary skill in the art would typically have either a
Pharm.D. or a B.S. in pharmacy with approximately
5–10 years of experience and a license to practice as a

103a
registered pharmacist in any one or more of the United
States. Id. at ¶ 16. Dr. Frau, testifying on behalf of
Patent Owner, opined that a person of ordinary skill
in the art would have experience in risk management
relating to pharmaceutical drug products or B.S. or
M.S. in pharmaceutical drug product risk
management or related field. Ex. 2059, ¶ 39.
As stated above, we hold on this record that a person
of ordinary skill in the art would include a pharmacist
and/or persons having at least 2 years of experience in
risk management relating to pharmaceutical products
as pharmacists. Based on the record presented, we
hold that Petitioner has conducted its obviousness
analysis from an appropriate person of ordinary skill
in the art. Additionally, even we adopted Dr. Frau’s
definition of ordinary skill in the art verbatim, Patent
Owner has failed to present sufficient and credible
evidence to persuade us that Patent Owner’s defined
person of ordinary skill in the art would be led to a
different outcome regarding the obviousness of the
challenged claims. Specifically, Dr. DiPiro, testifying
for Patent Owner, acknowledged that many types of
pharmacists use risk management techniques in their
practice on a day-to-day basis. Ex. 1074 at 95:17–96:1.
Dr. DiPiro’s testimony is consistent with an article he
wrote where he stated that pharmacists can be
assured of an important role in health care as long as
they are focused on needs and problems, such as
medication errors and preventable adverse drug
effects. Ex. 1073 at 2.
b. Problem to be Solved
Patent Owner states that the challenged claims
were conceived as part of Patent Owner’s efforts to

104a
improve its existing controlled patient access
thalidomide program, which is said to be embodied in
U.S. Patent No. 6,045,501. PO Resp. 1. Patent Owner
states that, as of the effective filing date, the prior art
thalidomide program was 100% successful in
preventing birth defects associated with thalidomide.
Id. at 4. Patent Owner contends that Petitioner has
not identified any reason to modify or improve upon
Patent Owner’s prior art thalidomide program. PO
Resp. 17. Patent Owner states that Dr. Fudin
admitted that there was nothing in the prior
thalidomide program that would suggest a problem.
Id. Additionally, Patent Owner contends that Zeldis,
which describes the prior art thalidomide program,
fails to supply a person of ordinary skill in the art with
any reason to try to improve the restricted distribution
program. Id. at 18.
Thalidomide
is
known
to
cause
severe
malformations in children of mothers who took the
drug during pregnancy, resulting in over 10,000 birth
defects in Europe. PO. Resp. 3. As such, as evidenced
by the art of record, there are serious concerns
regarding the distribution and use of thalidomide.
Zeldis teaches that the prior art thalidomide program
provided mechanisms for close constant monitoring to
identify noncompliance or other problems, but
concluded by stating that Celgene was committed to
making the program succeed and would be willing to
make any modifications to the program necessary to
ensure its effectiveness. Ex. 1012 at 329. This
willingness to make any modifications is consistent
with the understanding that the underlying drug
remains a safety concern because controlling the
distribution of the drug does not negate the actual side

105a
effects of the underlying drug. In dealing with such
drugs, such as those capable of causing severe birth
defects, the highest level of safety is desired. Under
such circumstances, consistent with the teachings of
Zeldis and the art of record one skilled in the art would
understand that where significant safety risks exist
with a drug, one would continuously search for safer
ways to control the distribution of the drug. Put
simply, where significant safety concerns exists, one of
ordinary skill in the art would not wait until an
accident occurred to seek out improvements.
c. Reason to Combine
As stated above, Petitioner contends that the
challenged claims, which utilize approval codes to
implement known drug restriction requirements,
represent no more than an arrangement of old
elements with each performing the same functions it
had been known to perform and yields no more than
one would expect from such an arrangement. Pet. 53–
54. Patent Owner contends however, that the prior art
did not teach, disclose, or suggest the claimed
prescription approval code. PO Resp. 35–39.
Patent Owner states that Cunningham’s pharmacy
approval code is part of a method of tracking and
managing the dispensing of pharmaceutical trial
products and has no connection to patient information
at all. Id. at 37. Patent Owner also states that
Cunningham’s pharmacy approval code is merely a
number or identifier associated with samples of
pharmaceutical products. Id. at 38. Patent Owner
contends that a person of ordinary skill in the art
would therefore have understood that Cunningham’s

106a
pharmacy approval code is not the same as the claimed
prescription approval code. Id. at 38.
Cunningham describes a method of dispensing,
tracking, and managing pharmaceutical products
whereby prescribers and pharmacies are linked to a
central computing station. Ex. 1009, 1:6–11. Certain
pharmaceutical drugs, such as thalidomide, were
known in the art to require a prescription in order for
a patient to be provided the drug whereby a prescriber
would authorize a patient to receive a drug from a
pharmacy. “A person of ordinary skill is also a
person of ordinary creativity, not an automaton.” KSR,
550 U.S. at 421. Dr. Fudin testified that the use of an
approval code of Cunningham could be like that of a
consumer credit card approval code, and is used to
track things and the technology should allow you to
combine it with other materials that you could track.
Ex. 2061 at 412:17–25, 429:18–430:10. Based on the
record presented, we hold that a person of ordinary
skill in the art would understand that an approval
code used by prescribers and pharmacies to track and
manage pharmaceutical products could likewise be
used by prescribers and pharmacies to track and
manage prescription pharmaceutical products. We
further hold that the claimed improvement recited in
the challenged claims represents a combination of
known prior art elements (identifying patient risk
groups, collecting patient information relating to the
risk, determining whether the risk is acceptable, and
controlling dispensation of the drug using both a
prescription and an approval code) for their known
purpose (control distribution of drug) to achieve a
predictable result (avoid giving patients drugs that
have an unacceptable risk of side effects).

107a
Patent Owner raised a new contention at Oral
Hearing that, with the prior system, a drunk doctor
may have let a patient who wanted to have a baby take
thalidomide. Tr. at 41:9–23. According to Patent
Owner, in contrast to the prior system, the new
improved system embodied by the challenged Jepson
claims would have caught such a mistake because of
the use of the approval code. Id. at 41:23–44:22. Patent
Owner did not identify sufficient and credible evidence
of record to support such a contention or provide
sufficient evidence that the existence of drunk doctor
prescriptions was a problem to be overcome.
Additionally, parties are not permitted to raise new
arguments or evidence at oral hearing. Office Patent
Trial Practice Guide, 77 Fed. Reg. 48,756, 48,768 (Aug.
14, 2012).
As to the dependent claims, claims 2–27 and 29–32,
Petitioner provides detailed explanations and claim
charts identifying where the additional limitations are
taught in the prior art. Pet. 22–60. Additionally,
Petitioner relies upon the Declaration of Dr. Fudin to
demonstrate that the one of ordinary skill in the art
would understand that the prior art teaches each and
every requirement of the challenged dependent
claims, and that one would have had reason to employ
the additional requirements in combination with the
subject matter of the independent claims. Ex. 1021
¶¶ 107–233. For the reasons provided in the Petition,
and below with respect to claims 5, 6, 10 and 17, we
hold that Petitioner has demonstrated by a
preponderance of the evidence that the dependent
claims are unpatentable as obvious over the cited prior
art.

108a
d. Dependent Claims 5 and 6
Dependent claim 5 requires that the informed
consent be verified by the prescriber at the time the
patient is registered in the computer readable storage
medium. Claim 6 depends from claim 5 and further
requires the use of facsimile and optical character
recognition software.
Petitioner states that Thalomid PI teaches that
prescribers are to screen risk group assignment and
informed consent at the time a patient is registered
into the controlled drug distribution program. Pet. 42.
Dr. Fudin testifies that one of ordinary skill in the art
would have reason to have the prescriber verify both
risk group assignment and informed consent at the
time of computer entry to eliminate error and delay.
Ex. 1021 ¶ 220. Dr. Fudin also testifies that it was well
known in the art to use optical character recognition
software to interpret paper data. Id. at ¶ 128.
Patent Owner states that the prior art discloses that
pharmacists, not the prescribers, verified the informed
consent at the time of patient registration. PO Resp.
40. Specifically, Patent Owner contends that Thalomid
PI discloses that the prescriber only ensures that the
patient completes the informed consent form, not that
the prescriber verifies the informed consent. Id. at 41.
Rather, Patent Owner states that the pharmacist
registers the patient and verifies the informed
consent. Id. at 42–44.
Both parties agree that Thalomid PI teaches the use
of informed consent forms and that the consent forms
were entered into the patient registration database
prior to dispensing thalidomide to a patient. As
Dr. Fudin testifies, one of ordinary skill in the art

109a
would have reason to have the prescriber verify the
informed consent at the time the informed consent
form is completed. Specifically, Dr. Fudin testifies
that one of ordinary skill in the art would understand
that prescribers verifying patient consent and
associated risk group assignment at the time the
consent forms are completed could eliminate error and
delay. Ex. 1021, ¶ 220. We credit Dr. Fudin’s
testimony as it is consistent with the understanding
that allowing verification at the time the consent
forms are completed reduces the potential for delays
associated with incorrectly completed forms.
e. Dependent Claim 10
Claim 10 depends from claim 7, which depends from
claim 1. Claim 7 requires that the set of information
obtained from a patient include diagnostic testing and
claim 10 requires the diagnostic testing comprise
genetic testing.
Petitioner contends that genetic testing was a wellknown diagnostic procedure as of the effective filing
date of the ’720 patent. Pet. 58. Petitioner states that
it would have been obvious to include genetic testing
given that genetic testing was well-known and that
such testing was to precede last-resort treatments,
such as that disclosed in Thalomid PI. Id.
Patent Owner states that the references of record do
not disclose or suggest genetic testing. PO Resp. 45.
Patent Owner further states that Dr. Fudin has failed
to provide evidence in support of his opinion that
genetic testing was “common” as of the effective filing
date. Id. at 46. Patent Owner however, did not dispute
that genetic testing was known in the art for obtaining
diagnostic information.

110a
Based on the evidence of record, we credit Dr.
Fudin’s testimony that genetic testing was a known
diagnostic procedure as of the effective filing date. Dr.
Fudin’s testimony is consistent with the FDA Meeting
Minutes (Ex. 1013), which contain a statement from a
Dr. Holmes, said to represent the American College of
Medical Genetics and the Teratology Society. Ex.
1013, 137. According to the FDA Meeting Minutes, Mr.
Holmes stated that:
It may seem strange to you that a genetics society
would be standing here, commenting on potential
environmental exposures with awful fetal effects,
but many clinical geneticists around the country
are expected to provide counseling to pregnant
women about exposures in pregnancies, so the
geneticists, in fact, are often the clinical
teratologists. And I am speaking myself as an
active clinical teratologist in the Boston area.
Id.
We hold that the genetic testing of dependent claim
10 represents a combination of known elements for
their known use to achieve a predictable result,
genetic testing to obtain information for diagnosis and
treatment.
f. Dependent Claim 17
Claim 17 depends from claim 16, which depends
from claim 15. Claim 15 depends from claim 1 and
requires defining, obtaining, and entering a second set
of information for each risk group. Claim 16 further
requires the second set of information comprise a
survey regarding patient behavior and compliance.
Claim 17 further requires that the survey be

111a
conducted telephonically using an integrated voice
response system.
Petitioner relies upon Thalomid PI for its teaching
of collecting patient survey data regarding behavior
and compliance. Pet. 46 (citing Ex. 1006 at 3, 4, 10, 20,
and 21). Petitioner also relies upon Mundt, which
teaches that use of interactive voice response systems
can strengthen clinical practice, extend research
methods, and enhance administrative support of
service quality and value. Pet. 59 (citing Ex. 1024,
611–612, 623). Petitioner contends that it would have
been obvious to a person of ordinary skill in the art to
utilize an integrated voice response system in
conducting surveys as such surveys were well known
in the art as of the effective filing date and that it is
not inventive to provide a mechanical or automatic
means to replace a manual activity. Pet. 59.
Patent Owner contends that no single reference
disclosed, taught, or suggested the limitation recited
in claim 17. PO Resp. 47. Patent Owner notes that
Keravich and Zeldis disclose that the patient surveys
are physical paper forms. Id. at 48. As to Mundt,
Patent Owner states that Mundt does not mention
using integrated voice response systems for risk group
assignments. Id. at 49. Additionally, Patent Owner
contends that one skilled in the art would not have
expected the claimed voice response system to
accomplish the same result as paper surveys as paper
surveys allow for interactive prescriber/patient risk
counseling. Id.
Based on the record presented we find that one of
ordinary skill in the art would have understood that
there are benefits and detriments to both paper

112a
surveys and integrated voice response systems. For
example, Mundt teaches that individuals may disclose
sensitive information to a computer that they would
be reluctant to discuss with another person and that
interactive voice response systems can cost-effectively
enhance service. Ex. 1024 at 612. One of ordinary skill
in the art would have been familiar with collecting
patient information and would have been able to
determine which collection method best served their
needs, automated process or in-person process. We
hold that the record demonstrates that the use of
integrated response systems in combination with a
controlled distribution drug program is a combination
of known elements being used for their known purpose
to achieve a predictable result, obtaining patient
information through an automated process to aid in
assessing risk group assignment for prescribing drugs.
g. Remaining Arguments
We have considered Patent Owner’s remaining
arguments, e.g., implementation would be beyond the
level of ordinary skill in the art, but do not find them
persuasive. For example, at Oral Hearing, Patent
Owner acknowledged that a person of ordinary skill in
the art need only to design the invention, and does not
need to be able to implement the invention. Tr. 69:12–
75:11, 87:11–94:11. Additionally, Patent Owner
acknowledged at Oral Hearing that they were not
arguing unexpected results for the ’720 patent. Tr. at
35:15–18.
We hold that Petitioner has demonstrated by a
preponderance of the evidence that claims 1–32 of
the ’720 patent are unpatentable as obvious over the
combined teachings of Thalomid PI in view of

113a
Cunningham and further in view of Keravich, Zeldis,
and Mundt.
III. Motions to Exclude
Patent Owner filed a Motion to Exclude Evidence.
Paper 60. Patent Owner alleges that Petitioner relied
improperly upon Mundt (Exhibit 1024) and FDA
Meeting (Exhibit 1076). Id. at 2. Patent Owner states
that Petitioner made statements that are not
supported by the exhibits and that the exhibits should
therefore be excluded as out-of-court statements to
prove the truth of the matter asserted. Id. Patent
Owner’s objection to Petitioner’s statements go to the
credibility of the statements made by Petitioner and
do not go to the exhibits themselves. A prior art
document “is offered simply as evidence of what it
described, not for proving the truth of the matters
addressed in the document.” See, e.g., Joy Techs., Inc.
v. Manbeck, 751 F. Supp. 225, 233 n.2 (D.D.C. 1990),
judgment aff’d, 959 F.2d 226 (Fed. Cir. 1992); Fed. R.
Evid. 801(c) 1997 Adv. Comm. Note (“If the
significance of an offered statement lies solely in the
fact that it was made, no issue is raised as to the truth
of anything asserted, and the statement is not
hearsay.”). Therefore, Mundt and the FDA Meeting
exhibits are not hearsay under Federal Rule of
Evidence 801(c).
Patent Owner alleges that Petitioner relied upon
irrelevant evidence and seeks to exclude the evidence
as they are irrelevant for the purposes for which it is
offered. Paper 60, 3. Petitioner disagrees with Patent
Owner and contends that Patent Owner’s relevance
objections go to the weight given to the evidence. Paper
64, 5–8. We agree with Petitioner. It is the Board’s

114a
discretion to assign the appropriate weight to be
accorded the evidence and we hold that, in this
instance, it is not necessary to resort to a formal
exclusion of the identified evidence in assessing the
sufficiency of the evidence.
Patent
Owner
contends
that
Petitioner
mischaracterized certain portions of Dr. Frau’s
testimony. Paper 60, 9–13. Patent Owner states that
the testimony should be excluded unless the Board
considers the testimony surrounding the context
and/or relevant redirect testimony. Id. at 9. To the
extent the Board has relied upon the testimony, the
Board has reviewed the testimony and the
surrounding context.
Additionally, Patent Owner seeks to exclude Exhibit
1076 at page 119 as Petitioner allegedly
mischaracterized the particular statement made by
Mr. Williams and mischaracterized and/or ignored the
full testimony on the issue. Id. at 13. Patent Owner
states that the Board should exclude the exhibit
unless the Board also considers the testimony at
Exhibit 1076 pages 118–119. Id. at 15. To the extent
the Board has relied upon the testimony, the Board
has reviewed the testimony and the surrounding
context.
Patent Owner’s Motion to Exclude is denied for the
reasons stated above. Patent Owner is reminded that
a motion to exclude is limited to explaining why the
evidence is not admissible. A motion to exclude is not
the place to challenge the sufficiency of the evidence to
prove a particular fact.
Petitioner filed a Motion to Exclude Evidence. Paper
61. Specifically, Petitioner requests that the Board

115a
exclude certain testimony of Dr. Fudin elicited during
cross examination as the testimony is said to be
irrelevant. Id. at 1. Petitioner also seeks to exclude
Patent Owner’s arguments regarding the cited
testimony. Id. at 3. Petitioner’s Motion to Exclude is
denied as moot as even taking the evidence into
consideration, we hold that Petitioner has established
by a preponderance of the evidence that claims 1– 32
of the ’720 patent are unpatentable as obvious.
IV. Motion for Supplemental Information
Petitioner moves to submit supplemental
information concerning FDA Meeting Transcripts (Ex.
1013, 1014) and CDC minutes (Ex. 1015). Paper 36.
Specifically,
Petitioner
seeks
to
introduce
supplemental evidence that is said to confirm the
public availability of Exhibits 1013, 1014 and 1015. Id.
at 2–3. Patent Owner opposes. Paper 42.
As our Decision does not exclude the disputed
exhibits, we deny Petitioner’s Motion to Supplement
as moot.
V. Motions to Seal
Patent Owner requests that the Board seal Exhibit
2007 in its entirety, along with the unredacted version
of the Preliminary Response (Paper 11) and for entry
of the Board’s Default Protective Order. Paper 10, 1.
Patent Owner also requests that the Board seal the
unredacted versions of the Patent Owner Response
(Paper 40), the Frau Declaration (Ex. 2059) and the
DiPiro Declaration (Ex. 2060), which discuss
confidential Exhibit 2007. Paper 39, 1. According to
Patent Owner, the documents discuss a confidential,
non-public submission to the U.S. Food and Drug
Administration. Id.

116a
Petitioner requests that the Board seal its
unredacted Petitioner’s Reply to Patent Owner
Response (Paper 52) and Exhibits 1074 and 1075
(deposition transcripts). Paper 53, 1. Petitioner states
that the documents to be sealed discuss Patent
Owner’s confidential business information.
Neither party opposes the grant of the motions to
seal.
We have reviewed documents sought to be sealed.
We conclude that they discuss confidential business
information. The content of those documents that is
asserted as constituting confidential business
information has not been identified in this Final
Written Decision in reaching a determination in this
proceeding with respect to the claims of the ’720
patent. We are persuaded that good cause exists to
have those documents remain under seal.
The record will be maintained undisturbed pending
the outcome of any appeal taken from this decision. At
the conclusion of any appeal proceeding, or if no appeal
is taken, the documents may be made public. See Trial
Practice Guide, 77 Fed. Reg. 48,756, 48,761 (Aug. 14,
2012). Further, either party may file a motion to
expunge the sealed documents from the record
pursuant to 37 C.F.R. § 42.56. Any such motion will be
decided after the conclusion of any appeal proceeding
or the expiration of the time period for appealing.
VI. CONCLUSION
For the foregoing reasons, we determine that
Petitioner has demonstrated by a preponderance of
the evidence that claims 1–32 of the ’720 patent are
unpatentable as obvious over Thalomid PI in view of

117a
Cunningham and further in view of Keravich, Zeldis,
and Mundt.
VII. ORDER
In consideration of the foregoing, it is:
ORDERED that claims 1–32 of the ’720 patent are
held unpatentable;
FURTHER ORDERED that Patent Owner and
Petitioner’s Motions to Seal are granted;
FURTHER ORDERED that Patent Owner and
Petitioner’s Motions to Exclude are denied;
FURTHER ORDERED that Petitioner’s Motion to
File Supplemental Information is denied;
and
FURTHER ORDERED that, because this is a final
written decision, parties to the proceeding seeking
judicial review of the decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

118a
PETITIONER:
Sarah Spires
Parvathi Kota
Skiermont Puckett LLP
1096CFAD6@skiermontderby.com
PATENT OWNER:
F Dominic Cerrito
Quinn Emanuel Urquhart & Sullivan, LLP
nickcerrito@quinnemanuel.com
Anthony M. Insogna
Jones Day
aminsogna@jonesday.com

119a

APPENDIX D

Trials@uspto.gov
571.272.7822

Papel No. 75
Entered: October 26, 2016

UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
COALITION FOR AFFORDABLE DRUGS VI LLC,
Petitioner,
v.
CELGENE CORPORATION,
Patent Owner.
Case IPR2015-01102
Patent 6,315,720 B1
Before MICHAEL P. TIERNEY, GRACE KARAFFA
OBERMANN, and TINA E. HULSE, Administrative
Patent Judges.
TIERNEY, Administrative Patent Judge.
FINAL WRITTEN DECISION
Inter Partes Review
35 U.S.C. §318(a) and 37 C.F.R. § 42.73

120a
I. INTRODUCTION
Coalition for Affordable Drugs VI, LLC
(“Petitioner”), filed a Petition requesting an inter
partes review of claims 1–32 of U.S. Patent 6,315,720
(Ex. 1001, “the ’720 patent”). Paper 1 (“Pet.”). Patent
Owner, Celgene Corporation, (“Patent Owner”) filed a
Preliminary Response. Paper 11 (“Prelim. Resp.” with
redacted version Paper 12). We determined that there
was a reasonable likelihood that Petitioner would
prevail in challenging those claims as unpatentable.
Pursuant to 35 U.S.C. § 314, we authorized an inter
partes review to be instituted, on October 27, 2015.
Paper 21 (“Dec. on Inst.”).
After institution, Patent Owner filed a redacted
Patent Owner Response. Paper 41 (“PO Resp.” with
redacted version Paper 42). Petitioner filed a Reply.
Paper 54, (“Reply” with a redacted version Paper 53).
Additionally, Petitioner filed Motions to Submit
Supplemental Information (Papers 36 and 37), a
Motion to Exclude Evidence (Paper 63), and a Motion
to Seal (Paper 55). Further, Patent Owner filed a
Motion to Exclude Evidence (Paper 62) and Motions to
Seal and for Entry of Protective Order (Papers 10 and
40).
An oral hearing was held on July 21, 2016. A
transcript of the hearing has been entered into the
record of the proceeding as Paper 74 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6(b). This
Final Written Decision is issued pursuant to 35 U.S.C.
§ 318(a) and 37 C.F.R. § 42.73. For the reasons that
follow, we determine that Petitioner has shown by a
preponderance of the evidence that claims 1–32 are
unpatentable.

121a
A. Related Proceedings
According to Petitioner, the ’720 patent has been the
subject of the following judicial matters: Celgene Corp.
et al. v. Lannett Holdings, Inc., DNJ-2-15-00697 (filed
Jan. 30, 2015); Celgene Corp. v. Natco Pharma Ltd.,
DNJ-2-10-cv-05197 (filed Oct. 8, 2010); Celgene Corp.
v. Barr Laboratories, Inc., DNJ-2-08-cv-03357 (filed
July 3, 2008); Celgene Corp. v. Barr Laboratories, Inc.,
DNJ-2-07-cv-05485 (filed Nov. 14, 2007); Celgene
Corp. v. Barr Laboratories, Inc., DNJ-2-07-cv-04050
(filed Aug. 23, 2007); Celgene Corp. v. Barr
Laboratories, Inc., DNJ-2-07-cv-00286 (filed Jan. 18,
2007). Pet. 2–3. Additionally, the claims of the ’720
patent have been challenged in two related inter
partes review proceedings, IPR2015-01096 and
IPR2015-01103.
B. The ’720 Patent
The ’720 patent specification describes methods for
delivering a drug to a patient. Ex. 1001, 1:8–9. For
example, the method can be used to deliver a drug
known to cause birth defects in pregnant women,
while avoiding the occurrence of known or suspected
side effects of the drug. Id. at 1:9–13, 19–30.
The patent describes prior-art methods that
involved filling drug prescriptions, only after a
computer readable storage medium was consulted, to
assure that the prescriber is registered in the medium
and qualified to prescribe the drug, and that the
patient is registered in the medium and approved to
receive the drug. Id. at 2:50–60. The ’720 patent
specification is said to describe an improvement over
the acknowledged prior art, where the improvement
involves assigning patients to risk groups based on the

122a
risk that the drug will cause adverse side effects. The
improvement further requires entering the risk group
assignment in the storage medium. After determining
the acceptability of likely adverse effects, a
prescription approval code is generated to the
pharmacy before the prescription is filled. Id. at 2:60–
3:4. The specification states that this method may
minimize and simplify demands on the pharmacy and
reduce the risk that the drug will be dispensed to a
contraindicated individual. Id. at 2:8–12.
The ’720 patent specification states that it is
preferable that information probative of the risk of a
drug’s side effects is collected from the patient. Id. at
6:30–33. This information can then be compared with
a defined set of risk parameters for the drug, allowing
for assignment of the patient to a particular risk
group. Id. at 6:33–37. If the risk of adverse side effects
is deemed acceptable, the patient may receive the drug
from a registered pharmacy, subject to conditions such
as a negative pregnancy test, but may not receive
refills without a renewal prescription from the
prescriber. Id. at 11:62–12:8.
The ’720 patent specification states that its method
can be used to deliver teratogenic drugs, and drugs
that can cause severe birth defects when administered
to a pregnant woman, such as thalidomide. Id. at 4:1–
14, 8:39–45.
C. Illustrative Claims
The ’720 patent contains two independent claims
and thirty dependent claims, all of which are
challenged by Petitioner. Each of the independent
claims, claims 1 and 28, is directed to a method of
delivering a drug to a patient in need of the drug and

123a
is written in a Jepson claim format, where the
preamble defines admitted prior art of prescribing
drugs only after a computer readable storage medium
has been consulted properly. The claimed
improvement over the admitted prior art includes
defining a plurality of patient risk groups, defining
information to be obtained from a patient that is
probative of risk of an adverse side effect, assigning
the patient to a risk group, determining whether the
risk of the side effect is acceptable, and generating an
approval code to be retrieved by a pharmacy before
filling a prescription for the drug.
Claims 2–27 depend, directly or through other
dependent claims, upon claim 1. Dependent claims 2–
4 and require that a prescription is filled only
following verified full disclosure and consent of the
patient. Dependent claims 5–6 require that the
informed consent is verified by the prescriber at the
time the patient is registered in a computer, and
consent is transmitted via facsimile and interpreted by
optical character recognition software. Dependent
claims 7–10 require information be obtained from the
patient prior to treatment, including the results of
diagnostic testing, which can comprise genetic testing.
Dependent claims 11–14 and 20–25 further require
additional features, such as a teratogenic effect being
otherwise likely to arise in the patient, arise in a fetus
carried by the patient, and that the drug is
thalidomide. Dependent claims 15–19 and 26–27
require defining a second set of information to be
collected from the patient on a periodic basis, which
can comprise a telephonic survey regarding the results
of pregnancy testing, and where the adverse side effect
of the drug can be a teratogenic effect.

124a
Dependent claims 29–32 each depend, directly or
through other dependent claims, from independent
claim 28. Dependent claims 29–32 further require that
the information collected be probative of likelihood
that the patient may take the drug and other drugs in
combination, and that the diagnostic testing test for
evidence of the use and adverse effect of the other
drug.
Independent claim 1 is illustrative of the challenged
claims, and is recited below:
1. In a method for delivering a drug to a patient
in need of the drug, while avoiding the occurrence
of an adverse side effect known or suspected of
being caused by said drug, wherein said method
is of the type in which prescriptions for said drug
are filled only after a computer readable storage
medium has been consulted to assure that the
prescriber is registered in said medium and
qualified to prescribe said drug, that the
pharmacy is registered in said medium and
qualified to fill the prescription for said drug, and
the patient is registered in said medium and
approved to receive said drug, the improvement
comprising:
a. defining a plurality of patient risk
groups based upon a predefined set of risk
parameters for said drug;
b. defining a set of information to be
obtained from said patient, which information is
probative of the risk that said adverse side effect
is likely to occur if said drug is taken by said
patient;

125a
c. in response to said information set,
assigning said patient to at least one of said risk
groups and entering said risk group assignment
in said medium;
d. based upon said information and said
risk group assignment, determining whether the
risk that said adverse side effect is likely to occur
is acceptable; and
e. upon a determination that said risk is
acceptable, generating a prescription approval
code to be retrieved by said pharmacy before said
prescription is filled.
Claim 28, the only other independent claim, includes
all the elements of claim 1 and adds a wherein clause
that “said adverse side effect is likely to arise in
patients who take the drug in combination with at
least one other drug.” Prelim. Resp. at 15.
D. Prior Art Relied Upon
Petitioner relies upon the following prior art:
R.J. Powell & J.M.M Gardner-Medwin, Guideline for
the clinical use and dispensing of thalidomide, 70
POSTGRAD MED. J. 901, 901–04 (1994) (“Powell”) (Ex
1006)
Benjamin R. Dishman et al., Pharmacists’ role in
clozapine therapy at a Veterans Affairs medical center,
51 AM. J. HOSP. PHARM. 899, 899–901 (1994)
(“Dishman”) (Ex 1007)
U.S. 5,832,449; Nov. 3, 1998 (“Cunningham”) (Ex.
1008)
James C. Mundt, Interactive Voice Response Systems
in Clinical Research and Treatment, 48:5 PSYCHIATRIC
SERVICES 611, 611–12, 623 (1997) (“Mundt”) (Ex. 1017)

126a
Thaddeus Mann & Cecelia Lutwak-Mann, Passage of
Chemicals into Human and Animal Semen:
Mechanisms and Significance, 11:1 CRC CRITICAL
REVIEWS IN TOXICOLOGY 1, 1–14 (1982) (“Mann”) (Ex.
1018)
Cori Vanchieri, Preparing for Thalidomide’s
Comeback, 127:10 ANNALS OF INTERNAL MED. 951,
951–54 (1997) (“Vanchieri”) (Ex. 1019)
Arthur F. Shinn et al., Development of a Computerized
Drug Interaction Database (MedicomSM) for Use in a
Patient Specific Environment, 17 DRUG INFORM. J.
205, 205–10 (1983) (“Shinn”) (Ex. 1020)
R. Linnarsson, Decision support for drug prescription
integrated with computer-based patient records in
primary care, 18:2 MED. INFORM. 131, 131–42 (1993)
(“Linnarsson”) (Ex. 1021)
P.E. Grönroos et al., A medication database – a tool for
detecting drug interactions in hospital, 53 EUR. J.
CLIN. PHARMACOL. 13, 13–17 (1997) (“Grönroos”) (Ex.
1022)
M. Soyka et al., Prevalence of Alcohol and Drug Abuse
in Schizophrenic Inpatients, 242 EUR. ARCH.
PSYCHIATRY CLIN. NEUROSCI. 362, 362–72 (1993)
(“Soyka”) (Ex. 1023)
Edna Hamera et al., Alcohol, Cannabis, Nicotine, and
Caffeine Use and Symptom Distress in Schizophrenia,
183:9 J. OF NERVOUS AND MENTAL DISEASE 559, 559–
65 (1995) (“Hamera”) (Ex. 1024)
Thomas R. Kosten & Douglas M. Ziedonis, Substance
Abuse and Schizophrenia: Editors’ Introduction, 23:2
SCHIZOPHRENIA BULLETIN 181, 181–86 (1997)
(“Kosten”) (Ex. 1025)

127a
Jeffrey C. Menill, Substance Abuse and Women on
Welfare, NATIONAL CENTER ON ADDICTION AND
SUBSTANCE ABUSE AT COLUMBIA UNIVERSITY 1–8
(1994) (“Menill”) (Ex. 1026)
Petitioner contends that the challenged claims are
unpatentable under 35 U.S.C. § 103 based on the
following specific grounds (Pet. 14–60):
Reference(s)
Powell and Dishman in view
of Cunningham and further
in view of Mundt, Mann,
Vanchieri, Shinn, Linnarsson,
Grönroos, Soyka, Hamera,
Kosten, and Menill.1

Basis Claims
challenged
§ 103 1–32

E. Level of Ordinary Skill in the Art
The person of ordinary skill in the art is a
hypothetical person who is presumed to have known
the relevant art at the time of the invention. Factors
that may be considered in determining the level of
ordinary skill in the art include, but are not limited to,
1

Petitioner’s heading merely states that claims 1–32 are
obvious over Powell and Dishman in view of Cunningham and
further in view of the knowledge of one of ordinary skill in the
art. Pet. 17. The Petition, however, goes on to rely upon additional
art to explain the knowledge possessed by one skilled in the art
at the time of the invention and cites additional references to
support its position. Specifically, the Petitioner relies upon
Mundt, Mann, Vanchieri, Shinn, Linnarsson, Grönroos, Soyka,
Hamera, Kosten, and Menill. In the Decision to Institute we
include the additional art relied upon, Mundt, Mann, Vanchieri,
Shinn, Linnarsson, Grönroos, Soyka, Hamera, Kosten, and
Menill, in the stated grounds, so that the record was clear as to
the prior art relied upon. Dec. on Inst.

128a
the types of problems encountered in the art, the
sophistication of the technology, and educational level
of active workers in the field. In a given case, one or
more factors may predominate. In re GPAC, 57 F.3d
1573, 1579 (Fed. Cir. 1995).
The challenged claims are directed to the subject
matter of delivering a drug to a patient in need of the
drug, while avoiding the occurrence of an adverse side
effect known or suspected of being caused by said drug.
The claims are said to be an improvement over prior
art distribution systems where the improvement
includes using an approval code to help minimize and
simplify demands on a pharmacy and reduce the risk
that the drug will be dispensed to a contraindicated
individual. Ex. 1001 at 2:8–12.
Petitioner contends that a person skilled in the art
of pharmaceutical prescriptions, which would involve
controlling distribution of a drug, typically would have
either a Pharm.D. or a B.S. in pharmacy with
approximately 5–10 years of experience and a license
to practice as a registered pharmacist in any one or
more of the United States. Ex. 1027, Declaration of Dr.
Jeffrey Fudin, ¶¶ 13, 16. Patent Owner disagrees with
Petitioner’s definition of a person of ordinary skill in
art and contends that such a person would have at
least 2 years of experience in risk management
relating to pharmaceutical drug products or a B.S. or
M.S. in pharmaceutical drug product risk
management or a related field. PO Resp. 12–13.
Based on the record presented, we hold that the
cited prior art is representative of the level of ordinary
skill in the art. See Okajima v. Bourdeau, 261 F.3d
1350, 1355 (Fed. Cir. 2001). The prior art references,

129a
like the ’720 patent specification, focus on controlling
the distribution of a drug. See, e.g., Ex. 1001, 1:13–16
(describing “the distribution to patients of drugs,
particularly teratogenic drugs, in ways wherein such
distribution can be carefully monitored and
controlled”); see generally Exs. 1003; 1008; 1011; 2062;
2066. Consistent with the prior art, Petitioner’s
Declarant, Dr. Fudin, testifies that the types of
problems encountered by one of ordinary skill in the
art included creating a restricted drug distribution
program to prevent adverse side effects, such as
teratogenic risks. Ex. 1027 ¶¶ 44–50. Accordingly, the
prior art demonstrates that one of ordinary skill in the
art would have experience in controlling the
distribution of a drug. To the extent a more specific
definition is required, we hold, for the reasons
provided below, that a person of ordinary skill in the
art would have several years of experience in risk
management relating to pharmaceutical drug
products, which encompasses experience as a
pharmacist.
Patent Owner contends that a pharmacist would not
be considered a person of ordinary skill in the art.
Patent Owner relies upon the declaration of Dr. Frau,
who testifies that “an average pharmacist at the time
of the invention would have lacked the ability and the
motivation to design an all inclusive system of drug
delivery for a hazardous drug that is focused on
preprescription patient assessment.” Ex. 2059, ¶ 47.
The challenged claims, however, are directed to an
improvement of an existing drug distribution method
that provides an approval code after a prescriber has
prescribed the drug. Specifically, the approval code
checks to see if all the requisite information was

130a
properly registered in the storage medium and if the
approval code is provided the pharmacy provides the
drug. Ex. 1001, 14:45–57. Additionally, as to
preprescription patient, Dr. Frau fails to explain why
pharmacists would lack awareness of preprescription
patient assessment for drugs requiring prescriptions,
e.g., checking patient history to prevent prescription of
contraindicated drugs.
Patent Owner contends that neither of the inventors
of the challenged patent are pharmacists and relies
upon the Dr. Frau’s testimony as support for its
position. Ex. 2059, ¶ 46. Although Dr. Frau states that
the inventors are not pharmacists, Dr. Frau does not
provide the basis for her testimony.
Patent Owner contends that the focus of the ’720
patent is avoiding adverse events associated with drug
products and not pharmaceutical prescriptions. PO
Resp. 13. The challenged claims, however, do not
prevent a patient taking a drug from experiencing the
side effects associated with the drug. Rather, the
challenged claims attempt to prevent a person from
obtaining a drug where the person has an
unacceptable risk associated with the known side
effects of the drug. Specifically, the claims seek to
control the distribution of a prescribed drug.
Patent Owner, relying on the testimony of Dr. Frau,
contends that a person of ordinary skill in the art
would have education or experience focused on safety
surveillance,
pharmacovigilance
or
pharmacoepidemiology. Id. at 14. On crossexamination, Dr. Frau did not identify any schools in
the United States that offered a degree in
pharmaceutical risk management or related fields,

131a
such as pharmacoepidemiology, but did identify two
schools located outside the United States. Ex. 1086,
166:19–167:19.
Patent Owner contends that Dr. Fudin
acknowledged on cross-examination that, under his
definition, one of ordinary skill in the art would not
know how to design the “full system” claimed in
the ’720 patent. PO Resp. 15 (citing Ex. 2061, 199:8–
200:25). The challenged claims of the ’720 patent are
Jepson claims where the preamble defines admitted
prior art. On this record it is unclear whether Dr.
Fudin was testifying that a person of ordinary skill
under his definition would be unable to develop the
admitted prior art. Regardless, Dr. Fudin testified
that pharmacists “don’t need to know how to design
it,” which is distinct from would not know how to
design it. Ex. 2061, 201:1–6.
We credit Dr. Fudin’s testimony that a person of
ordinary skill in the art would encompass a
pharmacist as his testimony is consistent with the ’720
patent specification, which states that the use of the
approval code is focused on helping a pharmacy and a
pharmacist would understand what would help
simplify demands on a pharmacy. Ex. 1001 at 2:8–12.
We likewise credit Dr. Frau’s testimony that the
person of ordinary skill in the art is not limited to
pharmacists but would likewise encompass persons
having at least 2 years of experience in risk
management relating to pharmaceutical products, as
pharmacists are not the only persons having restricted
drug distribution experience and knowledge. Ex. 2059,
¶ 39.

132a
II. ANALYSIS
A. Claim Interpretation
In an inter partes review, claim terms in an
unexpired patent are given their broadest reasonable
interpretation in light of the specification of the patent
in which they appear. 37 C.F.R. § 42.100(b).
Generally, Petitioner states that the claim terms
are presumed to take on the ordinary and customary
meaning that they would have to one of ordinary skill
in the art. Pet. 10. Petitioner proposes constructions
for several claim terms including “consulted,”
“teratogenic effect,” and “adverse side effect.” Id. at 9–
11. Patent Owner does not propose distinct
constructions of the identified terms. We determine
that the identified claim terms should be given their
ordinary and customary meaning, as would be
understood by one with ordinary skill in the art, and
need not be construed explicitly at this time for
purposes of this Decision.
Independent claims 1 and 28 are written in a Jepson
claim format. Patent Owner acknowledges that the
challenged claims are written to be an improvement
over its prior program for controlling patient access to
thalidomide known as the System for Thalidomide
Education and Prescribing Safety, or S.T.E.P.S.,
which originally was claimed in U.S. Patent No.
6,045,501. Prelim. Resp. at 1, 10.
Patent Owner contends that the term “prescription
approval code” requires construction and that the term
has a specific meaning. PO Resp. 21–23. According to
Patent Owner, the term “prescription approval code”
means:

133a
[A] code representing that an affirmative risk
assessment has been made based upon riskgroup assignment and the information collected
from the patient, and that is generated only upon
a determination that the risk of a side effect
occurring is acceptable.
Id. at 22–23. Petitioner disagrees, stating that there is
no requirement for an “affirmative” risk assessment.
Reply 7–9.
The specification defines prescription approval code
such that the prescription approval code is not
provided unless certain conditions are met. Ex. 1001,
13:42–52. The conditions include the prescriber,
pharmacy, patient, patient’s risk group and the
patient’s informed consent have been properly
registered in the storage medium. Id. Specifically,
the ’720 patent specification describes “approval code”
as follows:
In certain embodiments of the invention, the
methods may require that the registered
pharmacy consult the computer readable
medium to retrieve a prescription approval code
before dispensing the drug to the patient. This
approval code is preferably not provided unless
the prescriber, the pharmacy, the patient, the
patient’s risk group and the patient’s informed
consent have been properly registered in the
storage medium. Additionally, depending upon
the risk group assignment, generation of the
prescription approval code may further require
the registration in the storage medium of the
additional set of information, including periodic
surveys and the results of diagnostic tests, as

134a
have been defined as being relevant to the risk
group assignment.
Id. The specification also states that if a patient’s risk
group assignment so indicates, a prescription approval
code “generally” will not be generated until specific
periodic diagnostic tests have been performed and
satisfactory results entered into the storage medium.
Id. at 14:37–15:6. As apparent from the specification,
the prescription approval code is “preferably” or
“generally” not provided unless certain information is
properly registered in a storage medium. An
affirmative risk assessment, however, is not
mentioned in the specification as a mandatory
requirement for generation of the prescription
approval code.
Patent Owner contends that during prosecution
they overcame a prior-art rejection by defining the
term prescription approval code. PO Resp. 22–23.
Specifically, Patent Owner overcame the rejection by
noting that the prior art cited by the Examiner merely
described an “identifier for the prescription, and is not
an approval code as recited in Applicant’s claims.” Ex.
1002, 107. Patent Owner also stated that the prior art
was merely a prescription identifier and not reflective
of a determination that the risk of the side effect
occurring has been found to be acceptable. Id.
Patent Owner also states both Petitioner’s expert
(Dr. Fudin) and Patent Owner’s expert (Dr. Frau)
agree with Patent Owner’s claim construction. PO
Resp. 23 (citing Ex. 2059 ¶¶ 50–52, Ex. 2060 ¶¶ 36–
38, Ex. 2061, 434:8–15). Patent Owner notes that Dr.
Fudin also insisted that the claimed prescription code

135a
is just a number and could even be a credit card.
Id. (citing Ex. 2061 at 432:21–24).
During cross examination, Dr. Fudin was asked
questions regarding the meaning of the terms
“approval code” and “prescription approval code.” Ex.
2061 at 412:17–25, 429:18–430:10, 433:14–434:15.
When Dr. Fudin was asked what an “approval code”
means as used in the ’720 patent claims, Dr. Fudin
testified that it meant a code generated to allow a
prescription to be filled and noted that it could be like
a consumer credit card approval code. Id. at 412:17–
25. When questioned as to how Cunningham taught
an approval code used to represent a determination
made concerning risk of side effects, Dr. Fudin
testified that the code is used to track things and the
technology should allow you to combine it with other
materials that you could track. Id. at 429:18–430:10.
When Dr. Fudin was asked whether the claimed
prescription approval code was merely a number, Dr.
Fudin stated that it was a number associated with the
prescription and agreed that the claimed prescription
approval code represented a determination that the
risk of a side effect occurring was acceptable and that
approval and affirmative decision had been made for
the prescription to be filled. Id. at 433:14–434:15.
Based on the record presented, we adopt Patent
Owner’s construction of the term prescription
approval code. Specifically, we credit Dr. Fudin’s
testimony that an approval code may be an identifier,
such as an approval code identifier used in consumer
credit card transactions (approved/declined). We
further credit Dr. Fudin’s testimony, as well as Dr.
Frau and Dr. DiPiro’s, that a prescription approval
code represents the fact that a prescription has been

136a
provided and that the prescription approval code
thereby represents that an affirmative risk
assessment has been made based upon risk-group
assignment and the information collected from the
patient, and that is generated only upon a
determination that the risk of a side effect occurring is
acceptable.
B. Claims 1–32 Obviousness over Powell and
Dishman in view of Cunningham and further in
view of Mundt, Mann, Vanchieri, Shinn,
Linnarsson, Grönroos, Soyka, Hamera, Kosten,
and Menill.
Petitioner contends that the challenged claims,
which utilize approval codes to implement known drug
restriction requirements, represent no more than an
arrangement of old elements with each performing the
same functions it had been known to perform and
yields no more than one would expect from such an
arrangement. Pet. 23. Patent Owner disagrees. PO
Resp. 24–60.
1. Background on Obviousness
A claimed invention is not patentable under 35
U.S.C. § 103 if it is obvious. See KSR Int’l v. Teleflex
Inc., 550 U.S. 398, 426–27 (2007). In Graham v. John
Deere Co., the Supreme Court established the facts
underlying an obviousness inquiry.
Under § 103, the scope and content of the prior
art are to be determined; differences between the
prior art and the claims at issue are to be
ascertained; and the level of ordinary skill in the
pertinent art resolved. Against this background,
the obviousness or nonobviousness of the subject
matter is determined.

137a
Graham v. John Deere Co., 383 U.S. 1, 17 (1966). In
addressing the findings of fact, “[t]he combination of
familiar elements according to known methods is
likely to be obvious when it does no more than yield
predictable results.” KSR, 550 U.S. at 416. As
explained in KSR:
If a person of ordinary skill can implement a
predictable variation, § 103 likely bars its
patentability. For the same reason, if a technique
has been used to improve one device, and a
person of ordinary skill in the art would recognize
that it would improve similar devices in the same
way, using the technique is obvious unless its
actual application is beyond his or her skill.
Id. at 417. Accordingly, a central question in analyzing
obviousness is “whether the improvement is more
than the predictable use of prior art elements
according to their established functions.” Id.
2. Scope and Content of the Prior Art
a. Powell
Powell is an article that describes guidelines
designed to promote the safest possible clinical use
and dispensing of thalidomide. Ex. 1006, 901. Powell
teaches that certain patients should be specifically
excluded from treatment with thalidomide. Id.
Patients to be excluded include women of childbearing
potential who have not practiced a reliable form of
contraception for 1 year, are unwilling to take reliable
contraceptive precautions, and those who are not
considered capable of complying with the
requirements
for
reliable
contraception.
Id.
Additionally, Powell excludes pregnant women by

138a
requiring that a pregnancy test be taken within the 2
weeks prior to starting therapy. Id.
Powell teaches that fully informed consent should
be obtained using a written consent form. Id. Powell
also teaches that appropriate clinical and
electrophysiological measurements should be recorded
before treatment is commenced, and that follow-up
visits should be at monthly intervals. Id. at 902.
Warnings about possible toxicity and adequate
contraception should be reinforced during the followup visits. Id. Powell provides a sample patient
information sheet containing information regarding
use and potential side effects of thalidomide including
“[d]amage to babies.” Id. at 902–903.
b. Dishman
Dishman is an article that describes a Veterans
Affairs program for controlling the dispensation of
clozapine, an antipsychotic drug. Ex. 1007. A high
frequency side effect of clozapine is agranulocytosis, a
life-threatening side effect. Id. at 899. To avoid such
effects, Dishman teaches that prescribers and patients
must be registered in a national registry, patients are
monitored weekly, and that only a one-week supply is
dispensed at a time. Id. Further, pharmacists may
only dispense clozapine upon the pharmacist’s
verification that the patient’s white blood cell counts
are within acceptable limits. Id.
To ensure proper patient monitoring, the VA
developed its own clozapine monitoring program. Id.
at 900. The VA established a National Clozapine
Coordinating Center (NCCC) where physicians review
each candidate’s file before granting approval for use
and review weekly patient tracking sheets. Id. The

139a
NCCC requires each hospital have a computerized
clozapine prescription lockout system tied to the
hospital’s laboratory database and outpatient
pharmacy dispensing software. Id. The lockout system
prevents the filling of a clozapine prescription where
the computer notices three consecutive drops in the
white blood cell count. Id.
Dishman teaches that the NCCC requires extensive
patient evaluation and documentation. Id. In
particular, a complete physical examination is
required
and
certain
clozapine
therapy
contraindications are noted including seizures and
pregnancy. Id.
c. Cunningham
Cunningham describes a method of dispensing,
tracking, and managing pharmaceutical product
samples. Ex. 1008, 1:6–10. The method involves
communicatively linking prescribers and pharmacies
to a central computing station. Id. at 1:8–11.
Specifically, before filling any prescription for a
pharmaceutical trial product, a pharmacy must
upload defined information into a central computing
station. Id. at 11:6–13. Only if the central computing
station establishes that the uploaded information is
valid, can the central computing station issue a
pharmacy approval code for the pharmacy to dispense
the pharmaceutical product. Id. at 11:13–24.
d. Mundt
Mundt describes the use of interactive voice
response systems for clinical research and treatment.
Ex. 1017. According to Mundt, the use of interactive
voice response systems can strengthen clinical
practice, extend research methods, and enhance

140a
administrative support of service quality and value.
Id. at 612. Mundt also teaches that individuals may
disclose sensitive information to a computer that they
would be reluctant to discuss with another person and
that interactive voice response systems can costeffectively enhance service. Id.
e. Mann, Vanchieri, Shinn, Linnarsson,
Grönroos, Soyka, Hamera, Kosten, and
Menill
The
references,
Mann,
Vanchieri,
Shinn,
Linnarsson, Grönroos, Soyka, Hamera, Kosten, and
Menill (Exs. 1018–1026) are cited by Petitioner as
indicative of the knowledge of one of ordinary skill in
the art. For example, Petitioner cites Mann and
Vanchieri as demonstrating that it was well known in
the art that certain drugs, such as thalidomide, could
be transmitted to a sexual partner of a male
undergoing treatment with the drug. Pet. 31–32.
Petitioner cites Shinn, Linnarsson, and Grönroos as
demonstrating that it was well known in the art that
drug-drug interactions could cause serious and even
lethal adverse side effects. Id. at 41–42. Petitioner
states that Dishman’s regimen was designed to treat
schizophrenics and that Soyka, Hamera and Kosten
demonstrate that it was well known in the art that
substance abuse was prevalent among schizophrenics.
Id. at 42–43. Further, Petitioner cites Menill as
demonstrating that it was well known in the art that
people are generally reluctant to admit to alcohol or
drug abuse and addiction. Id. at 43–44.
3. Analysis
Petitioner contends that one skilled in the art would
understand that Powell describes the desirability of

141a
obtaining patient information and defining patient
risk groups, based on the information, when treating
patients with drugs associated with adverse side
effects to certain risk groups. Pet. 19. Petitioner states
that Powell teaches a checklist for assigning patients
to risk groups, for example, risk groups that can and
cannot be administered drugs such as thalidomide. Id.
Petitioner states further that Powell discloses that
risk groups include women who wish to become
pregnant, and patients who cannot comply with the
prescribing instructions. Id. at 19–20. Petitioner
acknowledges that Powell does not describe explicitly
the use of a specific computerized registry to store the
risk group information. Id. Petitioner states that one
skilled in the art would recognize that storing risk
group assignments in a computer registry, such as
that described by Dishman, would be useful. Id. at 20–
21.
Petitioner relies upon Dishman for its disclosure of
a program for tightly controlling the dispensation of
the antipsychotic drug clozapine. Id. at 20.
Specifically, Petitioner cites Dishman for its
description of a computerized clozapine lockout system
that ties a hospital’s lab database to outpatient
pharmacy dispensing software. Id. at 21. The lockout
system prevents the filling of clozapine prescriptions
where the computer notices three consecutive drops in
white blood cell count. Id. at 22. Although Dishman
does not mention an approval code, Petitioner states
that it would have been obvious to one of ordinary skill
in the art at the time of the invention to employ an
approval code system in the system of Dishman. Id. at
22–24. According to Petitioner, it would have been
obvious to combine Dishman’s computer lockout

142a
system with the computer approval code system
taught by Cunningham to limit the dispensation of a
drug, where the drug was known to be associated with
adverse effects to certain risk groups. Id. at 23–24.
We understand Petitioner as contending that the
challenged claims represent a combination of known
prior art elements (identifying patient risk groups,
collecting patient information relating to the risk,
determining whether the risk is acceptable, and
controlling dispensation of the drug using both a
prescription and an approval code) for their known
purpose (control distribution of drug) to achieve a
predictable result (avoid giving patients drugs that
have an unacceptable risk of side effects). For the
reasons provided below, we conclude that Petitioner
has demonstrated by a preponderance of the evidence
that the challenged claims are obvious over the cited
prior art.
a. Person of Ordinary Skill in the Art
Patent Owner contends that Petitioner has failed to
demonstrate that the challenged claims would have
been obvious to one of ordinary skill in the art.
According to Patent Owner, Petitioner conducted its
obviousness analysis using the wrong person of
ordinary skill in the art. PO Resp. 2. Dr. Fudin,
Petitioner’s declarant, testified that the art related to
pharmaceutical prescriptions and use of computer
systems to regulate access to prescription drugs. Ex.
1027, ¶ 13. Dr. Fudin also testified that a person of
ordinary skill in the art would typically have either a
Pharm.D. or a B.S. in pharmacy with approximately
5–10 years of experience and a license to practice as a
registered pharmacist in any one or more of the United

143a
States. Id. at ¶ 16. Dr. Frau, testifying on behalf of
Patent Owner, opined that a person of ordinary skill
in the art would have experience in risk management
relating to pharmaceutical drug products or B.S. or
M.S. in pharmaceutical drug product risk
management or related field. Ex. 2059, ¶ 39.
As stated above, we hold on this record that a person
of ordinary skill in the art would include a pharmacist
and/or persons having at least 2 years of experience in
risk management relating to pharmaceutical products
as pharmacists. Based on the record presented, we
hold that Petitioner has conducted its obviousness
analysis from the perspective of an appropriate person
of ordinary skill in the art. Additionally, even if we
adopted Dr. Frau’s definition of ordinary skill in the
art verbatim, Patent Owner has failed to present
sufficient and credible evidence to persuade us that
Patent Owner’s defined person of ordinary skill in the
art would be led to a different outcome regarding the
obviousness of the challenged claims. Specifically, Dr.
DiPiro, testifying for Patent Owner, acknowledged
that many types of pharmacists use risk management
techniques in their practice on a day-to-day basis. Ex.
1085 at 95:17–96:1. Dr. DiPiro’s testimony is
consistent with an article he wrote where he stated
that pharmacists can be assured of an important role
in health care as long as they are focused on needs and
problems, such as medication errors and preventable
adverse drug effects. Ex. 1084 at 2.
b. Problem to be Solved
Patent Owner states that the challenged claims
were conceived as part of Patent Owner’s efforts to
improve its existing controlled patient access

144a
thalidomide program, which is said to be embodied in
U.S. Patent No. 6,045,501. PO Resp. 1. Patent Owner
states that, as of the effective filing date, the prior art
thalidomide program was 100% successful in
preventing birth defects associated with thalidomide.
Id. at 4. Patent Owner contends that Petitioner has
not identified any reason to modify or improve upon
Patent Owner’s prior art thalidomide program. PO
Resp. 17. Patent Owner states that Dr. Fudin
admitted that there was nothing in the prior
thalidomide program that would suggest a problem.
Id. Additionally, Patent Owner contends that Zeldis,
which describes the prior art thalidomide program,
fails to supply a person of ordinary skill in the art with
any reason to try to improve the restricted distribution
program. Id. at 18.
Thalidomide
is
known
to
cause
severe
malformations in children of mothers who took the
drug during pregnancy, resulting in over 10,000 birth
defects in Europe. PO. Resp. 3. As such, as evidenced
by the art of record, there are serious concerns
regarding the distribution and use of thalidomide.
Zeldis teaches that the prior art thalidomide program
provided mechanisms for close constant monitoring to
identify noncompliance or other problems, but
concluded by stating that Celgene was committed to
making the program succeed and would be willing to
make any modifications to the program necessary to
ensure its effectiveness. Ex. 1011 at 329. This
willingness to make any modifications is consistent
with the understanding that the underlying drug
remains a safety concern because controlling the
distribution of the drug does not negate the actual side
effects of the underlying drug. In dealing with such

145a
drugs, such as those capable of causing severe birth
defects, the highest level of safety is desired. Under
such circumstances, consistent with the teachings of
Zeldis and the art of record one skilled in the art would
understand that where significant safety risks exist
with a drug, one would continuously search for safer
ways to control the distribution of the drug. Put
simply, where significant safety concerns exists, one of
ordinary skill in the art would not wait until an
accident occurred to seek out improvements.
c. Reason to Combine
As stated above, Petitioner contends that the
challenged claims, which utilize approval codes to
implement known drug restriction requirements,
represent no more than an arrangement of old
elements with each performing the same functions it
had been known to perform and yields no more than
one would expect from such an arrangement. Pet. 23.
Patent Owner contends however, that the prior art did
not teach, disclose, or suggest the claimed prescription
approval code. PO Resp. 34–40.
Patent Owner states that Cunningham’s pharmacy
approval code is part of a method of tracking and
managing the dispensing of pharmaceutical trial
products and has no connection to patient information
at all. Id. at 38. Patent Owner also states that
Cunningham’s pharmacy approval code is merely a
number or identifier associated with samples of
pharmaceutical products. Id. at 39. Patent Owner
contends that a person of ordinary skill in the art
would have therefore understood that Cunningham’s
pharmacy approval code is not the same as the claimed
prescription approval code. Id. at 39–40.

146a
Cunningham describes a method of dispensing,
tracking, and managing pharmaceutical products
whereby prescribers and pharmacies are linked to a
central computing station. Ex. 1008, 1:6–11. Certain
pharmaceutical drugs, such as thalidomide, were
known in the art to require a prescription in order for
a patient to be provided the drug whereby a prescriber
would authorize a patient to receive a drug from a
pharmacy. “A person of ordinary skill is also a
person of ordinary creativity, not an automaton.” KSR,
550 U.S. at 421. Dr. Fudin testified that the use of an
approval code of Cunningham could be like that of a
consumer credit card approval code, and is used to
track things and the technology should allow you to
combine it with other materials that you could track.
Ex. 2061 at 412:17–25, 429:18–430:10. Based on the
record presented, we hold that a person of ordinary
skill in the art would understand that an approval
code used by prescribers and pharmacies to track and
manage pharmaceutical products could likewise be
used by prescribers and pharmacies to track and
manage prescription pharmaceutical products. We
further hold that the claimed improvement recited in
the challenged claims represents a combination of
known prior art elements (identifying patient risk
groups, collecting patient information relating to the
risk, determining whether the risk is acceptable, and
controlling dispensation of the drug using both a
prescription and an approval code) for their known
purpose (control distribution of drug) to achieve a
predictable result (avoid giving patients drugs that
have an unacceptable risk of side effects).
Patent Owner raised a new contention at Oral
Hearing that, with the prior system, a drunk doctor

147a
may let a patient who wanted to have a baby take
thalidomide. Tr. at 41:9–23. According to Patent
Owner, in contrast to the prior system, the new
improved system embodied by the challenged Jepson
claims would have caught such a mistake because of
the use of the approval code. Id. at 41:23–44:22. Patent
Owner did not identify sufficient and credible evidence
of record to support such a contention or provide
sufficient evidence that the existence of drunk doctor
prescriptions was a problem to be overcome.
Additionally, parties are not permitted to raise new
arguments or evidence at oral hearing. Office Patent
Trial Practice Guide, 77 Fed. Reg. 48,756, 48,768 (Aug.
14, 2012).
We conclude that, based on the evidence of record,
Petitioner has demonstrated by a preponderance of
the evidence that the independent claims would have
been obvious to one of ordinary skill in the art over the
cited prior art.
As to the dependent claims, claims 2–27 and 29–32,
Petitioner provides detailed claim charts identifying
where the additional limitations are taught in the
prior art. Pet. 48–60. For example, as to claim 4, which
requires filling a prescription only after informed
consent, Petitioner identifies how Powell teaches that
thalidomide should only be prescribed after fully
informed consent has been obtained using a written
consent formed. Pet. 49; Ex. 1006, 901. Additionally,
Petitioner relies upon the Declaration of Dr. Fudin to
demonstrate that the one of ordinary skill in the art
would understand that the prior art teaches each and
every requirement of the challenged dependent
claims, and that one would have had reason to employ
the additional requirements in combination with the

148a
subject matter of the independent claims. Ex. 1027
¶¶ 109–202. For the reasons provided in the Petition,
and below with respect to claims 5, 6, 10 and 17, we
hold that Petitioner has demonstrated by a
preponderance of the evidence that the dependent
claims are unpatentable as obvious over the cited prior
art.
d. Dependent Claims 5 and 6
Dependent claim 5 requires that the informed
consent be verified by the prescriber at the time the
patient is registered in the computer readable storage
medium. Claim 6, depends from claim 5 and further
requires the use of facsimile and optical character
recognition software.
Petitioner states that Powell teaches that a doctor
prescribing thalidomide is responsible for the patient’s
welfare and that the patient is to be given an
information sheet that counsels as to the severe side
effects of thalidomide, including toxicity to developing
babies. Pet. 25–26. Petitioner further states that
Powell teaches that fully informed consent should be
obtained using a written consent form and signed
agreement. Id. at 26. Petitioner also relies upon
Dishman for its teaching that pharmacists fax
tracking sheets containing weekly follow-up
evaluations to a central coordinating center. Id. at 26–
27. Petitioner states that it was known in the art to
transfer paper data into a computer database by fax
and use optical character recognition to interpret the
data. Id. at 27 (citing Ex. 1027, ¶ 121).
Patent Owner states that the prior art discloses that
pharmacists, not the prescribers, verified the informed
consent at the time of patient registration. PO Resp.

149a
41–45. Specifically, Patent Owner contends that
Powell merely teaches that the prescriber give the
patient an information sheet and provides risk
counseling. Id. at 41. As to Dishman, Patent Owner
contends that Dishman teaches only that the
pharmacist forwards patient information to the
central coordinating center and the doctors at the
coordinating center review the patient file before
approving usage of the drug. Id. at 42.
Powell specifically states that the physician
prescribing thalidomide is entirely responsible for the
patient’s welfare. Ex. 1006 at 902. The doctor is
responsible for informing the patient of any
contraindications,
warning
and
precautions
associated with thalidomide. Id. Suppliers, however,
are not required to provide contraindications,
warnings and precautions. Id. Dishman teaches that,
to avoid physician’s having to evaluate candidates who
are not ineligible for clozapine therapy, candidates are
to be screened by pharmacists by reviewing the
patient file and interviewing the patients. Ex. 1007 at
900. We credit Dr. Fudin’s testimony that it would
have been obvious to have the prescribing doctor verify
the patient’s informed consent and risk group
assignment, as Powell teaches that doctors, as opposed
to pharmacists, are required to provide patients with
contraindications, warnings and precautions.
e. Dependent Claim 10
Claim 10 depends from claim 7, which depends from
claim 1. Claim 7 requires that the set of information
obtained from a patient include diagnostic testing and
claim 10 requires the diagnostic testing comprise
genetic testing.

150a
Petitioner contends that genetic testing was a wellknown diagnostic procedure as of the effective filing
date of the ’720 patent. Pet. 29–30. Petitioner states
that it would have been obvious to include genetic
testing given that genetic testing was well-known and
that such testing was to precede last-resort
treatments, such as that disclosed in Powell and
Dishman. Id.
Patent Owner states that the references of record do
not disclose or suggest genetic testing. PO Resp. 47.
Patent Owner further states that Dr. Fudin has failed
to provide evidence in support of his opinion that
genetic testing was “common” as of the effective filing
date. Id. at 47–48. Patent Owner however, did not
dispute that genetic testing was known in the art for
obtaining diagnostic information.
Based on the evidence of record, we credit Dr.
Fudin’s testimony that genetic testing was a known
diagnostic procedure as of the effective filing date. Dr.
Fudin’s testimony is consistent with the FDA Meeting
Minutes (Ex. 1013), which contain a statement from a
Dr. Holmes, said to represent the American College of
Medical Genetics and the Teratology Society. Ex.
1012, 137. According to the FDA Meeting Minutes, Mr.
Holmes stated that:
It may seem strange to you that a genetics society
would be standing here, commenting on potential
environmental exposures with awful fetal effects,
but many clinical geneticists around the country
are expected to provide counseling to pregnant
women about exposures in pregnancies, so the
geneticists, in fact, are often the clinical

151a
teratologists. And I am speaking myself as an
active clinical teratologist in the Boston area.
Id.
We hold that the genetic testing of dependent claim
10 represents a combination of known elements for
their known use to achieve a predictable result,
genetic testing to obtain information for diagnosis and
treatment.
f. Dependent Claim 17
Claim 17 depends from claim 16, which depends
from claim 15. Claim 15 depends from claim 1 and
requires defining, obtaining, and entering a second set
of information for each risk group. Claim 16 further
requires the second set of information comprise a
survey regarding patient behavior and compliance.
Claim 17 further requires that the survey be
conducted telephonically using an integrated voice
response system.
Petitioner relies upon Powell and Dishman for their
teaching of collecting patient survey data regarding
behavior and compliance. Pet. 36 (citing Ex. 1006 at
901, and Ex. 1007 at 900). Petitioner also relies upon
Mundt, which teaches that use of interactive voice
response systems can strengthen clinical practice,
extend research methods, and enhance administrative
support of service quality and value. Pet. 37 (citing Ex.
1017 at 611–612, 623). Petitioner contends that it
would have been obvious to a person of ordinary skill
in the art to utilize an integrated voice response
system in conducting surveys as such surveys were
well known in the art as of the effective filing date and
that it is not inventive to provide a mechanical or
automatic means to replace a manual activity. Id.

152a
Patent Owner contends that Mundt failed to
disclose, teach or suggest the limitation recited in
claim 17. PO Resp. 48. Specifically, Patent Owner
states that Mundt does not mention using integrated
voice response systems for risk group assignments. Id.
Patent Owner also contends that Powell and
Dishman’s surveys would have been completed during
in-person
patient
interviews
and
follow-up
appointments and that Keravich and Zeldis disclose
that their patient surveys are physical paper forms.
Id. at 49. Additionally, Patent Owner contends that
one skilled in the art would not have expected the
claimed voice response system to accomplish the same
result as paper surveys as paper surveys allow for
interactive prescriber/patient risk counseling. Id.
Based on the record presented we find that one of
ordinary skill in the art would have understood that
there are benefits and detriments to both paper
surveys and integrated voice response systems. For
example, Mundt teaches that individuals may disclose
sensitive information to a computer that they would
be reluctant to discuss with another person and that
interactive voice response systems can cost-effectively
enhance service. Ex. 1017 at 612. One of ordinary skill
in the art would have been familiar with collecting
patient information and would have been able to
determine which collection method best served their
needs, automated process or in-person process. We
hold that the record demonstrates that the use of
integrated response systems in combination with a
controlled distribution drug program is a combination
of known elements being used for their known purpose
to achieve a predictable result, obtaining patient

153a
information through an automated process to aid in
assessing risk group assignment for prescribing drugs.
g. Remaining Arguments
We have considered Patent Owner’s remaining
arguments, e.g., implementation would be beyond the
level of ordinary skill in the art, but do not find them
persuasive. For example, at Oral Hearing, Patent
Owner acknowledged that a person of ordinary skill in
the art need only to design the invention, and does not
need to be able to implement the invention. Tr. 69:12–
75:11, 87:11–94:11. Additionally, Patent Owner
acknowledged at Oral Hearing that they were not
arguing unexpected results for the ’720 patent. Tr. at
35:15–18.
We hold that Petitioner has demonstrated by a
preponderance of the evidence that claims 1–32 of
the ’720 patent are unpatentable as obvious over
Powell and Dishman in view of Cunningham and
further in view of Mundt, Mann, Vanchieri, Shinn,
Linnarsson, Grönroos, Soyka, Hamera, Kosten, and
Menill.
III. Motions to Exclude
Patent Owner filed a Motion to Exclude Evidence.
Paper 62. Patent Owner alleges that Petitioner relied
improperly upon Mundt (Exhibit 1017) and FDA
Meeting (Exhibit 1012). Id. at 2. Patent Owner states
that Petitioner made statements that are not
supported by the exhibits and that the exhibits should
therefore be excluded as out-of-court statements to
prove the truth of the matter asserted. Id. Patent
Owner’s objection to Petitioner’s statements go to the
credibility of the statements made by Petitioner and
do not go to the exhibits themselves. A prior art

154a
document “is offered simply as evidence of what it
described, not for proving the truth of the matters
addressed in the document.” See, e.g., Joy Techs., Inc.
v. Manbeck, 751 F. Supp. 225, 233 n.2 (D.D.C. 1990),
judgment aff’d, 959 F.2d 226 (Fed. Cir. 1992); Fed. R.
Evid. 801(c) 1997 Adv. Comm. Note (“If the
significance of an offered statement lies solely in the
fact that it was made, no issue is raised as to the truth
of anything asserted, and the statement is not
hearsay.”). Therefore, Mundt and the FDA Meeting
exhibits are not hearsay under Federal Rule of
Evidence 801(c).
Patent Owner alleges that Petitioner relied upon
irrelevant evidence and seeks to exclude the evidence
as they are irrelevant for the purposes for which they
are offered. Paper 62, 3. Petitioner disagrees with
Patent Owner and contends that Patent Owner’s
relevance objections go to the weight given to the
evidence. Paper 66, 5–8. We agree with Petitioner. It
is the Board’s discretion to assign the appropriate
weight to be accorded the evidence and we hold that,
in this instance, it is not necessary to resort to a formal
exclusion of the identified evidence in assessing the
sufficiency of the evidence.
Patent
Owner
contends
that
Petitioner
mischaracterized certain portions of Dr. Frau’s
testimony. Paper 62, 9–13. Patent Owner states that
the testimony should be excluded unless the Board
considers the testimony surrounding the context
and/or relevant redirect testimony. Id. at 10. To the
extent the Board has relied upon the testimony, the
Board has reviewed the testimony and the
surrounding context.

155a
Additionally, Patent Owner seeks to exclude Exhibit
1012 at page 119 as Petitioner allegedly
mischaracterized the particular statement made by
Mr. Williams and mischaracterized and/or ignored the
full testimony on the issue. Id. at 14. Patent Owner
states that the Board should exclude the exhibit
unless the Board also considers the testimony at
Exhibit 1012 pages 118–119. Id. at 15. To the extent
the Board has relied upon the testimony, the Board
has reviewed the testimony and the surrounding
context.
Patent Owner’s Motion to Exclude is denied for the
reasons stated above. Patent Owner is reminded that
a motion to exclude is limited to explaining why the
evidence is not admissible. A motion to exclude is not
the place to challenge the sufficiency of the evidence to
prove a particular fact.
Petitioner filed a Motion to Exclude Evidence. Paper
63. Specifically, Petitioner requests that the Board
exclude certain testimony of Dr. Fudin elicited during
cross examination as the testimony is said to be
irrelevant. Id. at 1. Petitioner also seeks to exclude
Patent Owner’s arguments regarding the cited
testimony. Id. at 3. Petitioner’s Motion to Exclude is
denied as moot as even taking the evidence into
consideration, we hold that Petitioner has established
by a preponderance of the evidence that claims 1–32 of
the ’720 patent are unpatentable as obvious.
IV. Motion for Supplemental Information
Petitioner moves to submit supplemental
information concerning FDA Meeting Transcripts (Ex.
1012, 1013) and CDC minutes (Ex. 1014). Paper 36.
Specifically,
Petitioner
seeks
to
introduce

156a
supplemental evidence that is said to confirm the
public availability of Exhibits 1012, 1013 and 1014. Id.
at 2–3. Patent Owner opposes. Paper 43.
As our Decision does not exclude the disputed
exhibits, we deny Petitioner’s Motion to Supplement
as moot.
Petitioner also moves to submit supplemental
information concerning Menill to demonstrate its
public accessibility. Paper 36, 2. Patent Owner
opposes. Paper 44. As Patent Owner did not challenge
the public accessibility of Menill, we deny Petitioner’s
Motion to Supplement as moot.
V. Motions to Seal
Patent Owner requests that the Board seal Exhibit
2007 in its entirety, along with the unredacted version
of the Preliminary Response (Paper 11) and for entry
of the Board’s Default Protective Order. Paper 10, 1.
Patent Owner also requests that the Board seal the
unredacted versions of the Patent Owner Response
(Paper 41), the Frau Declaration (Ex. 2059) and the
DiPiro Declaration (Ex. 2060), which discuss
confidential Exhibit 2007. Paper 40, 1. According to
Patent Owner, the documents discuss a confidential,
non-public submission to the U.S. Food and Drug
Administration. Id.
Petitioner requests that the Board seal its
unredacted Petitioner’s Reply to Patent Owner
Response (Paper 54) and Exhibits 1085 and 1086
(deposition transcripts). Paper 53, 1. Petitioner states
that the documents to be sealed discuss Patent
Owner’s confidential business information.
Neither party opposes the grant of the motions to
seal.

157a
We have reviewed documents sought to be sealed.
We conclude that they discuss confidential business
information. The content of those documents that is
asserted as constituting confidential business
information has not been identified in this Final
Written Decision in reaching a determination in this
proceeding with respect to the claims of the ’720
patent. We are persuaded that good cause exists to
have those documents remain under seal.
The record will be maintained undisturbed pending
the outcome of any appeal taken from this decision. At
the conclusion of any appeal proceeding, or if no appeal
is taken, the documents may be made public. See Trial
Practice Guide, 77 Fed. Reg. 48,756, 48,761 (Aug. 14,
2012). Further, either party may file a motion to
expunge the sealed documents from the record
pursuant to 37 C.F.R. § 42.56. Any such motion will be
decided after the conclusion of any appeal proceeding
or the expiration of the time period for appealing.
VI. CONCLUSION
For the foregoing reasons, we determine that
Petitioner has demonstrated by a preponderance of
the evidence that claims 1–32 of the ’720 patent are
unpatentable as obvious over Powell and Dishman in
view of Cunningham and further in view of Mundt,
Mann, Vanchieri, Shinn, Linnarsson, Grönroos,
Soyka, Hamera, Kosten, and Menill.

158a
VII. ORDER
In consideration of the foregoing, it is:
ORDERED that claims 1–32 of the ’720 patent are
held unpatentable;
FURTHER ORDERED that Patent Owner and
Petitioner’s Motions to Seal are granted;
FURTHER ORDERED that Patent Owner and
Petitioner’s Motions to Exclude are denied;
FURTHER ORDERED that Petitioner’s Motions to
File Supplemental Information are denied;
and
FURTHER ORDERED that, because this is a final
written decision, parties to the proceeding seeking
judicial review of the decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

159a
PETITIONER:
Sarah Spires
Parvathi Kota
Skiermont Puckett LLP
1102CFAD6@skiermontderby.com
PATENT OWNER:
F Dominic Cerrito
Frank Calvosa
Quinn Emanuel Urquhart & Sullivan, LLP
nickcerrito@quinnemanuel.com
frankcalvosa@quinnemanuel.com
Anthony M. Insogna
Gasper LaRosa
Jones Day
aminsogna@jonesday.com
gjlarosa@jonesday.com

160a

APPENDIX E

Trials@uspto.gov
571.272.7822

Papel No. 76
Entered: October 26, 2016

UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
COALITION FOR AFFORDABLE DRUGS VI LLC,
Petitioner,
v.
CELGENE CORPORATION,
Patent Owner.
Case IPR2015-01103
Patent 6,315,720 B1
Before MICHAEL P. TIERNEY, GRACE KARAFFA
OBERMANN, and TINA E. HULSE, Administrative
Patent Judges.
TIERNEY, Administrative Patent Judge.
FINAL WRITTEN DECISION
Inter Partes Review
35 U.S.C. §318(a) and 37 C.F.R. § 42.73

161a
I. INTRODUCTION
Coalition for Affordable Drugs VI, LLC
(“Petitioner”), filed a Petition requesting an inter
partes review of claims 1–32 of U.S. Patent 6,315,720
(Ex. 1001, “the '720 patent”). Paper 1 (“Pet.”). Patent
Owner, Celgene Corporation, (“Patent Owner”) filed a
Preliminary Response. Paper 11 (“Prelim. Resp.” with
redacted version Paper 12). We determined that there
was a reasonable likelihood that Petitioner would
prevail in challenging those claims as unpatentable.
Pursuant to 35 U.S.C. § 314, we authorized an inter
partes review to be instituted, on October 27, 2015.
Paper 22 (“Dec. on Inst.”).
After institution, Patent Owner filed a redacted
Patent Owner Response. Paper 42 (“PO Resp.” with
redacted version Paper 43). Petitioner filed a Reply.
Paper 55 (“Reply” with a redacted version Paper 54).
Additionally, Petitioner filed Motions to Submit
Supplemental Information (Papers 37 and 38), a
Motion to Exclude Evidence (Paper 63), and a Motion
to Seal (Paper 56). Further, Patent Owner filed a
Motion to Exclude Evidence (Paper 63) and Motions to
Seal and for Entry of Protective Order (Papers 9 and
41).
An oral hearing was held on July 21, 2016. A
transcript of the hearing has been entered into the
record of the proceeding as Paper 75 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6(b). This
Final Written Decision is issued pursuant to 35 U.S.C.
§ 318(a) and 37 C.F.R. § 42.73. For the reasons that
follow, we determine that Petitioner has shown by a
preponderance of the evidence that claims 1–32 are
unpatentable.

162a
A. Related Proceedings
According to Petitioner, the '720 patent has been the
subject of the following judicial matters: Celgene Corp.
et al. v. Lannett Holdings, Inc., DNJ-2-15-00697 (filed
Jan. 30, 2015); Celgene Corp. v. Natco Pharma Ltd.,
DNJ-2-10-cv-05197 (filed Oct. 8, 2010); Celgene Corp.
v. Barr Laboratories, Inc., DNJ-2-08-cv-03357 (filed
July 3, 2008); Celgene Corp. v. Barr Laboratories, Inc.,
DNJ-2-07-cv-05485 (filed Nov. 14, 2007); Celgene
Corp. v. Barr Laboratories, Inc., DNJ-2-07-cv-04050
(filed Aug. 23, 2007); Celgene Corp. v. Barr
Laboratories, Inc., DNJ-2-07-cv-00286 (filed Jan. 18,
2007). Pet. 2–3. Additionally, the claims of the '720
patent have been challenged in two related inter
partes review proceedings, IPR2015-01096 and
IPR2015-01102.
B. The '720 Patent
The '720 patent specification describes methods for
delivering a drug to a patient. Ex. 1001, 1:8–9. For
example, the method can be used to deliver a drug
known to cause birth defects in pregnant women,
while avoiding the occurrence of known or suspected
side effects of the drug. Id. at 1:9–13, 19–30.
The patent describes prior-art methods that
involved filling drug prescriptions, only after a
computer readable storage medium was consulted, to
assure that the prescriber is registered in the medium
and qualified to prescribe the drug, and that the
patient is registered in the medium and approved to
receive the drug. Id. at 2:50–60. The '720 patent
specification is said to describe an improvement over
the acknowledged prior art, where the improvement
involves assigning patients to risk groups based on the

163a
risk that the drug will cause adverse side effects. The
improvement further requires entering the risk group
assignment in the storage medium. After determining
the acceptability of likely adverse effects, a
prescription approval code is generated to the
pharmacy before the prescription is filled. Id. at 2:60–
3:4. The specification states that this method may
minimize and simplify demands on the pharmacy and
reduce the risk that the drug will be dispensed to a
contraindicated individual. Id. at 2:8–12.
The '720 patent specification states that it is
preferable that information probative of the risk of a
drug’s side effects is collected from the patient. Id. at
6:30–33. This information can then be compared with
a defined set of risk parameters for the drug, allowing
for assignment of the patient to a particular risk
group. Id. at 6:33–37. If the risk of adverse side effects
is deemed acceptable, the patient may receive the drug
from a registered pharmacy, subject to conditions such
as a negative pregnancy test, but may not receive
refills without a renewal prescription from the
prescriber. Id. at 11:62–12:8.
The '720 patent specification states that its method
can be used to deliver teratogenic drugs, and drugs
that can cause severe birth defects when administered
to a pregnant woman, such as thalidomide. Id. at 4:1–
14, 8:39–45.
C. Illustrative Claims
The '720 patent contains two independent claims
and thirty dependent claims, all of which are
challenged by Petitioner. Each of the independent
claims, claims 1 and 28, is directed to a method of
delivering a drug to a patient in need of the drug and

164a
is written in a Jepson claim format, where the
preamble defines admitted prior art of prescribing
drugs only after a computer readable storage medium
has been consulted properly. The claimed
improvement over the admitted prior art includes
defining a plurality of patient risk groups, defining
information to be obtained from a patient that is
probative of risk of an adverse side effect, assigning
the patient to a risk group, determining whether the
risk of the side effect is acceptable, and generating an
approval code to be retrieved by a pharmacy before
filling a prescription for the drug.
Claims 2–27 depend, directly or through other
dependent claims, upon claim 1. Dependent claims 2–
4 and require that a prescription is filled only
following verified full disclosure and consent of the
patient. Dependent claims 5–6 require that the
informed consent is verified by the prescriber at the
time the patient is registered in a computer, and
consent is transmitted via facsimile and interpreted by
optical character recognition software. Dependent
claims 7–10 require information be obtained from the
patient prior to treatment, including the results of
diagnostic testing, which can comprise genetic testing.
Dependent claims 11–14 and 20–25 further require
additional features, such as a teratogenic effect being
otherwise likely to arise in the patient, arise in a fetus
carried by the patient, and that the drug is
thalidomide. Dependent claims 15–19 and 26–27
require defining a second set of information to be
collected from the patient on a periodic basis, which
can comprise a telephonic survey regarding the results
of pregnancy testing, and where the adverse side effect
of the drug can be a teratogenic effect.

165a
Dependent claims 29–32 each depend, directly or
through other dependent claims, from independent
claim 28. Dependent claims 29–32 further require that
the information collected be probative of likelihood
that the patient may take the drug and other drug in
combination, and that the diagnostic testing test for
evidence of the use and adverse effect of the other
drug.
Independent claim 1 is illustrative of the challenged
claims, and is recited below:
1. In a method for delivering a drug to a patient
in need of the drug, while avoiding the occurrence
of an adverse side effect known or suspected of
being caused by said drug, wherein said method
is of the type in which prescriptions for said drug
are filled only after a computer readable storage
medium has been consulted to assure that the
prescriber is registered in said medium and
qualified to prescribe said drug, that the
pharmacy is registered in said medium and
qualified to fill the prescription for said drug, and
the patient is registered in said medium and
approved to receive said drug, the improvement
comprising:
a. defining a plurality of patient risk
groups based upon a predefined set of risk
parameters for said drug;
b. defining a set of information to be
obtained from said patient, which information is
probative of the risk that said adverse side effect
is likely to occur if said drug is taken by said
patient;

166a
c. in response to said information set,
assigning said patient to at least one of said risk
groups and entering said risk group assignment
in said medium;
d. based upon said information and said
risk group assignment, determining whether the
risk that said adverse side effect is likely to occur
is acceptable; and
e. upon a determination that said risk is
acceptable, generating a prescription approval
code to be retrieved by said pharmacy before said
prescription is filled.
Claim 28, the only other independent claim, includes
all the elements of claim 1 and adds a wherein clause
that “said adverse side effect is likely to arise in
patients who take the drug in combination with at
least one other drug.” Prelim. Resp. at 15.
D. Prior Art Relied Upon
Petitioner relies upon the following prior art:
Benjamin R. Dishman et al., Pharmacists’ role in
clozapine therapy at a Veterans Affairs medical center,
51 AM. J. HOSP. PHARM. 899, 899–901 (1994)
(“Dishman”) (Ex 1007)
U.S. 5,832,449; Nov. 3, 1998 (“Cunningham”) (Ex.
1008)
Allen A. Mitchell et al., A Pregnancy-Prevention
Program in Women of Childbearing Age Receiving
Isotretinoin, New Eng. J. Med. (Jul. 13, 1995) 333:2,
101–06 (Ex. 1010, “Mitchell”)
James C. Mundt, Interactive Voice Response Systems
in Clinical Research and Treatment, 48:5 PSYCHIATRIC
SERVICES 611, 611–12, 623 (1997) (“Mundt”) (Ex. 1017)

167a
Thaddeus Mann & Cecelia Lutwak-Mann, Passage of
Chemicals into Human and Animal Semen:
Mechanisms and Significance, 11:1 CRC CRITICAL
REVIEWS IN TOXICOLOGY 1, 1–14 (1982) (“Mann”) (Ex.
1018)
Cori Vanchieri, Preparing for Thalidomide’s
Comeback, 127:10 ANNALS OF INTERNAL MED. 951,
951–54 (1997) (“Vanchieri”) (Ex. 1019)
Arthur F. Shinn et al., Development of a Computerized
Drug Interaction Database (MedicomSM) for Use in a
Patient Specific Environment, 17 DRUG INFORM. J.
205, 205–10 (1983) (“Shinn”) (Ex. 1020)
R. Linnarsson, Decision support for drug prescription
integrated with computer-based patient records in
primary care, 18:2 MED. INFORM. 131, 131–42 (1993)
(“Linnarsson”) (Ex. 1021)
P.E. Grönroos et al., A medication database – a tool for
detecting drug interactions in hospital, 53 EUR. J.
CLIN. PHARMACOL. 13, 13–17 (1997) (“Grönroos”) (Ex.
1022)
M. Soyka et al., Prevalence of Alcohol and Drug Abuse
in Schizophrenic Inpatients, 242 EUR. ARCH.
PSYCHIATRY CLIN. NEUROSCI. 362, 362–72 (1993)
(“Soyka”) (Ex. 1023)
Edna Hamera et al., Alcohol, Cannabis, Nicotine, and
Caffeine Use and Symptom Distress in Schizophrenia,
183:9 J. OF NERVOUS AND MENTAL DISEASE 559, 559–
65 (1995) (“Hamera”) (Ex. 1024)
Thomas R. Kosten & Douglas M. Ziedonis, Substance
Abuse and Schizophrenia: Editors’ Introduction, 23:2
SCHIZOPHRENIA BULLETIN 181, 181–86 (1997)
(“Kosten”) (Ex. 1025)

168a
Jeffrey C. Menill, Substance Abuse and Women on
Welfare, NATIONAL CENTER ON ADDICTION AND
SUBSTANCE ABUSE AT COLUMBIA UNIVERSITY 1–8
(1994) (“Menill”) (Ex. 1026)
Petitioner contends that the challenged claims are
unpatentable under 35 U.S.C. § 103 based on the
following specific grounds (Pet. 14–60):
Reference(s)

Basis

Mitchell and Dishman in view § 103
of Cunningham and further in
view of Mundt, Mann,
Vanchieri, Shinn, Linnarsson,
Grönroos, Soyka, Hamera,
Kosten, and Menill.1

Claims
challenged
1–32

E. Level of Ordinary Skill in the Art
The person of ordinary skill in the art is a
hypothetical person who is presumed to have known
the relevant art at the time of the invention. Factors
that may be considered in determining the level of

1

Petitioner’s heading merely states that claims 1–32 are
obvious over Mitchell and Dishman in view of Cunningham and
further in view of the knowledge of one of ordinary skill in the
art. Pet. 17. The Petition, however, goes on to rely upon additional
art to explain the knowledge possessed by one skilled in the art
at the time of the invention and cites additional references to
support its position. Specifically, the Petitioner relies upon
Mundt, Mann, Vanchieri, Shinn, Linnarsson, Grönroos, Soyka,
Hamera, Kosten, and Menill. In the Decision to Institute, we
included the additional art relied upon, Mundt, Mann, Vanchieri,
Shinn, Linnarsson, Grönroos, Soyka, Hamera, Kosten, and
Menill, in the stated grounds, so that the record was clear as to
the prior art relied upon. Dec. on Inst.

169a
ordinary skill in the art include, but are not limited to,
the types of problems encountered in the art, the
sophistication of the technology, and educational level
of active workers in the field. In a given case, one or
more factors may predominate. In re GPAC, 57 F.3d
1573, 1579 (Fed. Cir. 1995).
The challenged claims are directed to the subject
matter of delivering a drug to a patient in need of the
drug, while avoiding the occurrence of an adverse side
effect known or suspected of being caused by said drug.
The claims are said to be an improvement over prior
art distribution systems where the improvement
includes using an approval code to help minimize and
simplify demands on a pharmacy and reduce the risk
that the drug will be dispensed to a contraindicated
individual. Ex. 1001 at 2:8–12.
Petitioner contends that a person skilled in the art
of pharmaceutical prescriptions, which would involve
controlling distribution of a drug, typically would have
either a Pharm.D. or a B.S. in pharmacy with
approximately 5–10 years of experience and a license
to practice as a registered pharmacist in any one or
more of the United States. Ex. 1027, Declaration of Dr.
Jeffrey Fudin, ¶¶ 13, 16. Patent Owner disagrees with
Petitioner’s definition of a person of ordinary skill in
art and contends that such a person would have at
least 2 years of experience in risk management
relating to pharmaceutical drug products or a B.S. or
M.S. in pharmaceutical drug product risk
management or a related field. PO Resp. 12–13.
Based on the record presented, we hold that the
cited prior art is representative of the level of ordinary
skill in the art. See Okajima v. Bourdeau, 261 F.3d

170a
1350, 1355 (Fed. Cir. 2001). The prior art references,
like the '720 patent specification, focus on controlling
the distribution of a drug. See, e.g., Ex. 1001, 1:13–16
(describing “the distribution to patients of drugs,
particularly teratogenic drugs, in ways wherein such
distribution can be carefully monitored and
controlled”); see generally Exs. 1003, 1008, 1011, 2062,
2067. Consistent with the prior art, Petitioner’s
Declarant, Dr. Fudin, testifies that the types of
problems encountered by one of ordinary skill in the
art included creating a restricted drug distribution
program to prevent adverse side effects, such as
teratogenic risks. Ex. 1027 ¶¶ 43–50. Accordingly, the
prior art demonstrates that one of ordinary skill in the
art would have experience in controlling the
distribution of a drug. To the extent a more specific
definition is required, we hold, for the reasons
provided below, that a person of ordinary skill in the
art would have several years of experience in risk
management relating to pharmaceutical drug
products, which encompasses experience as a
pharmacist.
Patent Owner contends that a pharmacist would not
be considered a person of ordinary skill in the art.
Patent Owner relies upon the declaration of Dr. Frau,
who testifies that “an average pharmacist at the time
of the invention would have lacked the ability and the
motivation to design an all inclusive system of drug
delivery for a hazardous drug that is focused on
preprescription patient assessment.” Ex. 2059, ¶ 47.
The challenged claims, however, are directed to an
improvement of an existing drug distribution method
that provides an approval code after a prescriber has
prescribed the drug. Specifically, the approval code

171a
checks to see if all the requisite information was
properly registered in the storage medium and if the
approval code is provided the pharmacy provides the
drug. Ex. 1001, 14:45–57. Additionally, as to
preprescription patient, Dr. Frau fails to explain why
pharmacists would lack awareness of preprescription
patient assessment for drugs requiring prescriptions,
e.g., checking patient history to prevent prescription of
contraindicated drugs.
Patent Owner contends that neither of the inventors
of the challenged patent are pharmacists and relies
upon Dr. Frau’s testimony as support for its position.
Ex. 2059, ¶ 46. Although Dr. Frau states that the
inventors are not pharmacists, Dr. Frau does not
provide the basis for her testimony.
Patent Owner contends that the focus of the '720
patent is avoiding adverse events associated with drug
products and not pharmaceutical prescriptions. PO
Resp. 13. The challenged claims, however, do not
prevent a patient taking a drug from experiencing the
side effects associated with the drug. Rather, the
challenged claims attempt to prevent a person from
obtaining a drug where the person has an
unacceptable risk associated with the known side
effects of the drug. Specifically, the claims seek to
control the distribution of a prescribed drug.
Patent Owner, relying on the testimony of Dr. Frau,
contends that a person of ordinary skill in the art
would have education or experience focused on safety
surveillance, pharmacovigilance or pharmacoepidemiology. Id. at 14. On cross-examination, Dr.
Frau did not identify any schools in the United States
that offered a degree in pharmaceutical risk

172a
management
or
related
fields,
such
as
pharmacoepidemiology, but did identify two schools
located outside the United States. Ex. 1086, 166:19–
167:19.
Patent Owner contends that Dr. Fudin
acknowledged on cross-examination that, under his
definition, one of ordinary skill in the art would not
know how to design the “full system” claimed in the
'720 patent. PO Resp. 15 (citing Ex. 2061, 199:8–
200:25). The challenged claims of the '720 patent are
Jepson claims where the preamble defines admitted
prior art. On this record it is unclear whether Dr.
Fudin was testifying that a person of ordinary skill
under his definition would be unable to develop the
admitted prior art. Regardless, Dr. Fudin testified
that pharmacists “don’t need to know how to design
it,” which is distinct from would not know how to
design it. Ex. 2061, 201:1–6.
We credit Dr. Fudin’s testimony that a person of
ordinary skill in the art would encompass a
pharmacist as his testimony is consistent with the '720
patent specification, which states that the use of the
approval code is focused on helping a pharmacy and a
pharmacist would understand what would help
simplify demands on a pharmacy. Ex. 1001 at 2:8–12.
We likewise credit Dr. Frau’s testimony that the
person of ordinary skill in the art is not limited to
pharmacists but would likewise encompass persons
having at least 2 years of experience in risk
management relating to pharmaceutical products, as
pharmacists are not the only persons having restricted
drug distribution experience and knowledge. Ex. 2059,
¶ 39.

173a
II. ANALYSIS
A. Claim Interpretation
In an inter partes review, claim terms in an
unexpired patent are given their broadest reasonable
interpretation in light of the specification of the patent
in which they appear. 37 C.F.R. § 42.100(b).
Generally, Petitioner states that the claim terms
are presumed to take on the ordinary and customary
meaning that they would have to one of ordinary skill
in the art. Pet. at 10. Petitioner proposes constructions
for several claim terms including “consulted,”
“teratogenic effect,” and “adverse side effect.” Id. at
10–11. Patent Owner does not propose distinct
constructions of the identified terms. We determine
that the identified claim terms should be given their
ordinary and customary meaning, as would be
understood by one with ordinary skill in the art, and
need not be construed explicitly at this time for
purposes of this Decision.
Independent claims 1 and 28 are written in a Jepson
claim format. Patent Owner acknowledges that the
challenged claims are written to be an improvement
over its prior program for controlling patient access to
thalidomide known as the System for Thalidomide
Education and Prescribing Safety, or S.T.E.P.S.,
which originally was claimed in U.S. Patent No.
6,045,501. Prelim. Resp. at 1, 10.
Patent Owner contends that the term “prescription
approval code” requires construction and that the term
has a specific meaning. PO Resp. 21–24. According to
Patent Owner, the term “prescription approval code”
means:

174a
[A] code representing that an affirmative risk
assessment has been made based upon riskgroup assignment and the information collected
from the patient, and that is generated only upon
a determination that the risk of a side effect
occurring is acceptable.
Id. at 23–24. Petitioner disagrees, stating that there is
no requirement for an “affirmative” risk assessment.
Reply 6–9.
The specification defines prescription approval code
such that the prescription approval code is not
provided unless certain conditions are met. Ex. 1001,
13:42–52. The conditions include the prescriber,
pharmacy, patient, patient’s risk group and the
patient’s informed consent have been properly
registered in the storage medium. Id. Specifically, the
'720 patent specification describes “approval code” as
follows:
In certain embodiments of the invention, the
methods may require that the registered
pharmacy consult the computer readable
medium to retrieve a prescription approval code
before dispensing the drug to the patient. This
approval code is preferably not provided unless
the prescriber, the pharmacy, the patient, the
patient’s risk group and the patient’s informed
consent have been properly registered in the
storage medium. Additionally, depending upon
the risk group assignment, generation of the
prescription approval code may further require
the registration in the storage medium of the
additional set of information, including periodic
surveys and the results of diagnostic tests, as

175a
have been defined as being relevant to the risk
group assignment.
Id. The specification also states that if a patient’s risk
group assignment so indicates, a prescription approval
code “generally” will not be generated until specific
periodic diagnostic tests have been performed and
satisfactory results entered into the storage medium.
Id. at 14:37–15:6. As apparent from the specification,
the prescription approval code is “preferably” or
“generally” not provided unless certain information is
properly registered in a storage medium. An
affirmative risk assessment, however, is not
mentioned in the specification as a mandatory
requirement for generation of the prescription
approval code.
Patent Owner contends that during prosecution
they overcame a prior-art rejection by defining the
term prescription approval code. PO Resp. 21–22.
Specifically, Patent Owner overcame the rejection by
noting that the prior art cited by the Examiner merely
described an “identifier for the prescription, and . . .
not an approval code as recited in Applicant’s claims.”
Ex. 1002, 107. Patent Owner also stated that the prior
art was merely a prescription identifier and not
reflective of a determination that the risk of the side
effect occurring has been found to be acceptable. Id.
Patent Owner also states both Petitioner’s expert
(Dr. Fudin) and Patent Owner’s expert (Dr. Frau)
agree with Patent Owner’s claim construction. PO
Resp. 23 (citing Ex. 2059 ¶¶ 50–52, Ex. 2060 ¶¶ 36–
38, Ex. 2061, 434:8–15). Patent Owner notes that Dr.
Fudin also insisted that the claimed prescription code

176a
is just a number and could even be a credit card.
Id. (citing Ex. 2061 at 432:21–24).
During cross examination, Dr. Fudin was asked
questions regarding the meaning of the terms
“approval code” and “prescription approval code.” Ex.
2061 at 412:17–25, 429:18–430:10, 433:14–434:15.
When Dr. Fudin was asked what an “approval code”
means as used in the '720 patent claims, Dr. Fudin
testified that it meant a code generated to allow a
prescription to be filled and noted that it could be like
a consumer credit card approval code. Id. at 412:17–
25. When questioned as to how Cunningham taught
an approval code used to represent a determination
made concerning risk of side effects, Dr. Fudin
testified that the code is used to track things and the
technology should allow you to combine it with other
materials that you could track. Id. at 429:18–430:10.
When Dr. Fudin was asked whether the claimed
prescription approval code was merely a number, Dr.
Fudin stated that it was a number associated with the
prescription and agreed that the claimed prescription
approval code represented a determination that the
risk of a side effect occurring was acceptable and that
approval and affirmative decision had been made for
the prescription to be filled. Id. at 433:14–434:15.
Based on the record presented, we adopt Patent
Owner’s construction of the term prescription
approval code. Specifically, we credit Dr. Fudin’s
testimony that an approval code may be an identifier,
such as an approval code identifier used in consumer
credit card transactions (approved/declined). We
further credit Dr. Fudin’s testimony, as well as Dr.
Frau and Dr. DiPiro’s, that a prescription approval
code represents the fact that a prescription has been

177a
provided and that the prescription approval code
thereby represents that an affirmative risk
assessment has been made based upon risk-group
assignment and the information collected from the
patient, and that is generated only upon a
determination that the risk of a side effect occurring is
acceptable.
B. Claims 1–32 Obviousness over Mitchell and
Dishman in view of Cunningham and further in
view of Mundt, Mann, Vanchieri, Shinn,
Linnarsson, Grönroos, Soyka, Hamera, Kosten,
and Menill.
Petitioner contends that the challenged claims,
which utilize approval codes to implement known drug
restriction requirements, represent no more than an
arrangement of old elements with each performing the
same functions it had been known to perform and
yields no more than one would expect from such an
arrangement. Pet. 23–24. Patent Owner disagrees. PO
Resp. 24–60.
1. Background on Obviousness
A claimed invention is not patentable under 35
U.S.C. § 103 if it is obvious. See KSR Int’l v. Teleflex
Inc., 550 U.S. 398, 426–27 (2007). In Graham v. John
Deere Co., the Supreme Court established the facts
underlying an obviousness inquiry.
Under § 103, the scope and content of the prior
art are to be determined; differences between the
prior art and the claims at issue are to be
ascertained; and the level of ordinary skill in the
pertinent art resolved. Against this background,
the obviousness or nonobviousness of the subject
matter is determined.

178a
Graham v. John Deere Co., 383 U.S. 1, 17 (1966). In
addressing the findings of fact, “[t]he combination of
familiar elements according to known methods is
likely to be obvious when it does no more than yield
predictable results.” KSR, 550 U.S. at 416. As
explained in KSR:
If a person of ordinary skill can implement a
predictable variation, § 103 likely bars its
patentability. For the same reason, if a technique
has been used to improve one device, and a
person of ordinary skill in the art would recognize
that it would improve similar devices in the same
way, using the technique is obvious unless its
actual application is beyond his or her skill.
Id. at 417. Accordingly, a central question in analyzing
obviousness is “whether the improvement is more
than the predictable use of prior art elements
according to their established functions.” Id.
2. Scope and Content of the Prior Art
a. Mitchell
Mitchell relates to a pregnancy-prevention program
for women users of Accutane®, a Vitamin A analogue
of isotretinoin and a known teratogenic. Ex. 1010,
101–102. The prevention program was implemented to
keep the drug available while minimizing the
teratogenic hazards. Id. at 105. As such, Mitchell
targets “women of childbearing age (12 to 59 years of
age)” for the pregnancy-prevention program. Id. at
102.
Mitchell suggests that female patients, who are
capable of becoming pregnant, should be isolated for
counseling. Specifically, Mitchell describes the use of
contraceptive information, a consent form, and

179a
warnings about risks of becoming pregnant while
taking isotretinoin. Id. Under Mitchell’s program
physicians were given instructions to warn patients of
risks involved in treatment with the teratogenic drug
and communication between physicians and patients
regarding the drug’s teratogenic risk and the need to
prevent pregnancy was encouraged. Id. at 101, 105.
Additionally,
Mitchell
describes
preventative
measures, such as pregnancy-risk warnings on
packaging, targeted “specifically at women.” Id. at
101. Mitchell also suggests the use of pregnancy
testing prior to starting drug therapy. Id. 101.
Mitchell states that the experience gained with
isotretinoin can serve as a basis for considering how
drugs, such as thalidomide, should be used and
monitored, with a view to ensuring that adverse side
effects are reduced to an absolute minimum. Id. at
105.
b. Dishman
Dishman is an article that describes a Veterans
Affairs program for controlling the dispensation of
clozapine, an antipsychotic drug. Ex. 1007. A high
frequency side effect of clozapine is agranulocytosis, a
life-threatening side effect. Id. at 899. To avoid such
effects, Dishman teaches that prescribers and patients
must be registered in a national registry, patients are
monitored weekly, and that only a one-week supply is
dispensed at a time. Id. Further, pharmacists may
only dispense clozapine upon the pharmacist’s
verification that the patient’s white blood cell counts
are within acceptable limits. Id.
To ensure proper patient monitoring, the VA
developed its own clozapine monitoring program. Id.

180a
at 900. The VA established a National Clozapine
Coordinating Center (NCCC) where physicians review
each candidate’s file before granting approval for use
and review weekly patient tracking sheets. Id. The
NCCC requires each hospital have a computerized
clozapine prescription lockout system tied to the
hospital’s laboratory database and outpatient
pharmacy dispensing software. Id. The lockout system
prevents the filling of a clozapine prescription where
the computer notices three consecutive drops in the
white blood cell count. Id.
Dishman teaches that the NCCC requires extensive
patient evaluation and documentation. Id. In
particular, a complete physical examination is
required
and
certain
clozapine
therapy
contraindications are noted including seizures and
pregnancy. Id.
c. Cunningham
Cunningham describes a method of dispensing,
tracking, and managing pharmaceutical product
samples. Ex. 1008, 1:6–10. The method involves
communicatively linking prescribers and pharmacies
to a central computing station. Id. at 1:8–11.
Specifically, before filling any prescription for a
pharmaceutical trial product, a pharmacy must
upload defined information into a central computing
station. Id. at 11:6–13. Only if the central computing
station establishes that the uploaded information is
valid, can the central computing station issue a
pharmacy approval code for the pharmacy to dispense
the pharmaceutical product. Id. at 11:13–24.

181a
d. Mundt
Mundt describes the use of interactive voice
response systems for clinical research and treatment.
Ex. 1017. According to Mundt, the use of interactive
voice response systems can strengthen clinical
practice, extend research methods, and enhance
administrative support of service quality and value.
Id. at 612. Mundt also teaches that individuals may
disclose sensitive information to a computer that they
would be reluctant to discuss with another person and
that interactive voice response systems can costeffectively enhance service. Id.
e. Mann, Vanchieri, Shinn, Linnarsson,
Grönroos, Soyka, Hamera, Kosten, and
Menill
The
references,
Mann,
Vanchieri,
Shinn,
Linnarsson, Grönroos, Soyka, Hamera, Kosten, and
Menill (Exs. 1018–1026) are cited by Petitioner as
indicative of the knowledge of one of ordinary skill in
the art. For example, Petitioner cites Mann and
Vanchieri as demonstrating that it was well known in
the art that certain drugs, such as thalidomide, could
be transmitted to a sexual partner of a male
undergoing treatment with the drug. Pet. 32–33.
Petitioner cites Shinn, Linnarsson, and Grönroos as
demonstrating that it was well known in the art that
drug-drug interactions could cause serious and even
lethal adverse side effects. Id. at 42–43. Petitioner
states that Dishman’s regimen was designed to treat
schizophrenics and that Soyka, Hamera and Kosten
demonstrate that it was well known in the art that
substance abuse was prevalent among schizophrenics.
Id. at 43–44. Further, Petitioner cites Menill as

182a
demonstrating that it was well known in the art that
people are generally reluctant to admit to alcohol or
drug abuse and addiction. Id. at 44–45.
3. Analysis
Petitioner contends that one skilled in the art would
understand that Mitchell describes the desirability of
obtaining patient information and defining patient
risk groups, based on the information, when treating
patients with drugs associated with adverse side
effects to certain risk groups. Pet. 19–20. Petitioner
states that Mitchell teaches a patient-qualification
checklist for assigning patients to risk groups, for
example, risk groups that can and cannot be
administered teratogenic drugs, such as isotretinoin.
Id. Petitioner states further that Mitchell discloses
that risk groups include women of childbearing age
and women who were at high risk of becoming
pregnant. Id. Petitioner acknowledges that Mitchell
does not describe explicitly the use of a specific
computerized registry to store the risk group
information. Id. Petitioner states that one skilled in
the art would recognize that storing risk group
assignments in a computer registry, such as that
described by Dishman, would be useful. Id. at 20–21.
Petitioner relies upon Dishman for its disclosure of
a program for tightly controlling the dispensation of
the antipsychotic drug clozapine. Id. at 21.
Specifically, Petitioner cites Dishman for its
description of a computerized clozapine lockout system
that ties a hospital’s lab database to outpatient
pharmacy dispensing software. Id. at 22. The lockout
system prevents the filling of clozapine prescriptions
where the computer notices three consecutive drops in

183a
white blood cell count. Id. at 22–23. Although
Dishman does not mention an approval code,
Petitioner states that it would have been obvious to
one of ordinary skill in the art at the time of the
invention to employ an approval code system in the
system of Dishman. Id. at 22–24. According to
Petitioner, it would have been obvious to combine
Dishman’s computer lockout system with the
computer approval code system taught by
Cunningham to limit the dispensation of a drug, where
the drug was known to be associated with adverse
effects to certain risk groups. Id. at 23–25.
We understand Petitioner as contending that the
challenged claims represent a combination of known
prior art elements (identifying patient risk groups,
collecting patient information relating to the risk,
determining whether the risk is acceptable, and
controlling dispensation of the drug using both a
prescription and an approval code) for their known
purpose (control distribution of drug) to achieve a
predictable result (avoid giving patients drugs that
have an unacceptable risk of side effects). For the
reasons provided below, we conclude that Petitioner
has demonstrated by a preponderance of the evidence
that the challenged claims are obvious over the cited
prior art.
a. Person of Ordinary Skill in the Art
Patent Owner contends that Petitioner has failed to
demonstrate that the challenged claims would have
been obvious to one of ordinary skill in the art.
According to Patent Owner, Petitioner conducted its
obviousness analysis using the wrong person of
ordinary skill in the art. PO Resp. 2. Dr. Fudin,

184a
Petitioner’s declarant, testified that the art related to
pharmaceutical prescriptions and use of computer
systems to regulate access to prescription drugs. Ex.
1027, ¶ 13. Dr. Fudin also testified that a person of
ordinary skill in the art would typically have either a
Pharm.D. or a B.S. in pharmacy with approximately
5–10 years of experience and a license to practice as a
registered pharmacist in any one or more of the United
States. Id. at ¶ 16. Dr. Frau, testifying on behalf of
Patent Owner, opined that a person of ordinary skill
in the art would have experience in risk management
relating to pharmaceutical drug products or B.S. or
M.S. in pharmaceutical drug product risk
management or related field. Ex. 2059, ¶ 39.
As stated above, we hold on this record that a person
of ordinary skill in the art would include a pharmacist
and/or persons having at least 2 years of experience in
risk management relating to pharmaceutical products
as pharmacists. Based on the record presented, we
hold that Petitioner has conducted its obviousness
analysis from the perspective of an appropriate person
of ordinary skill in the art. Additionally, even if we
adopted Dr. Frau’s definition of ordinary skill in the
art verbatim, Patent Owner has failed to present
sufficient and credible evidence to persuade us that
Patent Owner’s defined person of ordinary skill in the
art would have been led to a different outcome
regarding the obviousness of the challenged claims.
Specifically, Dr. DiPiro, testifying for Patent Owner,
acknowledged that many types of pharmacists use risk
management techniques in their practice on a day-today basis. Ex. 1085 at 96:17–97:1. Dr. DiPiro’s
testimony is consistent with an article he wrote where
he stated that pharmacists can be assured of an

185a
important role in health care as long as they are
focused on needs and problems, such as medication
errors and preventable adverse drug effects. Ex. 1084
at 2.
b. Problem to be Solved
Patent Owner states that the challenged claims
were conceived as part of Patent Owner’s efforts to
improve its existing controlled patient access
thalidomide program, which is said to be embodied in
U.S. Patent No. 6,045,501. PO Resp. 1. Patent Owner
states that, as of the effective filing date, the prior art
thalidomide program was 100% successful in
preventing birth defects associated with thalidomide.
Id. at 4. Patent Owner contends that Petitioner has
not identified any reason to modify or improve upon
Patent Owner’s prior art thalidomide program. PO
Resp. 17. Patent Owner states that Dr. Fudin
admitted that there was nothing in the prior
thalidomide program that would suggest a problem.
Id. Additionally, Patent Owner contends that Zeldis,
which describes the prior art thalidomide program,
fails to supply a person of ordinary skill in the art with
any reason to try to improve the restricted distribution
program. Id. at 18.
Thalidomide
is
known
to
cause
severe
malformations in children of mothers who took the
drug during pregnancy, resulting in over 10,000 birth
defects in Europe. PO. Resp. 3. As such, as evidence by
the art of record, there are serious concerns regarding
the distribution and use of thalidomide. Zeldis teaches
that the prior art thalidomide program provided
mechanisms for close constant monitoring to identify
noncompliance or other problems, but concluded by

186a
stating that Celgene was committed to making the
program succeed and would have been willing to make
any modifications to the program necessary to ensure
its effectiveness. Ex. 1011 at 329. This willingness to
make any modifications is consistent with the
understanding that the underlying drug remains a
safety concern because controlling the distribution of
the drug does not negate the actual side effects of the
underlying drug. In dealing with such drugs, such as
those capable of causing severe birth defects, the
highest level of safety is desired. Under such
circumstances, consistent with the teachings of Zeldis
and the art of record one skilled in the art would
understand that where significant safety risks exist
with a drug, one would continuously search for safer
ways to control the distribution of the drug. Put
simply, where significant safety concerns exists, one of
ordinary skill in the art would not wait until an
accident occurred to seek out improvements.
c. Reason to Combine
As stated above, Petitioner contends that the
challenged claims, which utilize approval codes to
implement known drug restriction requirements,
represent no more than an arrangement of old
elements with each performing the same functions it
had been known to perform and yields no more than
one would expect from such an arrangement. Pet. 24.
Patent Owner contends however, that the prior art did
not teach, disclose, or suggest the claimed prescription
approval code. PO Resp. 34–40.
Patent Owner states that Cunningham’s pharmacy
approval code is part of a method of tracking and
managing the dispensing of pharmaceutical trial

187a
products and has no connection to patient information
at all. Id. at 39. Patent Owner also states that
Cunningham’s pharmacy approval code is merely a
number or identifier associated with samples of
pharmaceutical products. Id. at 40. Patent Owner
contends that a person of ordinary skill in the art
would have therefore understood that Cunningham’s
pharmacy approval code is not the same as the claimed
prescription approval code. Id.
Cunningham describes a method of dispensing,
tracking, and managing pharmaceutical products
whereby prescribers and pharmacies are linked to a
central computing station. Ex. 1008, 1:6–8. Certain
pharmaceutical drugs, such as thalidomide, were
known in the art to require a prescription in order for
a patient to be provided the drug whereby a prescriber
would authorize a patient to receive a drug from a
pharmacy. “A person of ordinary skill is also a person
of ordinary creativity, not an automaton.” KSR, 550
U.S. at 421. Dr. Fudin testified that the use of an
approval code of Cunningham could be like that of a
consumer credit card approval code, and is used to
track things and the technology should allow you to
combine it with other materials that you could track.
Ex. 2061 at 412:17–25, 429:18–430:10. Based on the
record presented, we hold that a person of ordinary
skill in the art would understand that an approval
code used by prescribers and pharmacies to track and
manage pharmaceutical products could likewise be
used by prescribers and pharmacies to track and
manage prescription pharmaceutical products. We
further hold that the claimed improvement recited in
the challenged claims represents a combination of
known prior art elements (identifying patient risk

188a
groups, collecting patient information relating to the
risk, determining whether the risk is acceptable, and
controlling dispensation of the drug using both a
prescription and an approval code) for their known
purpose (control distribution of drug) to achieve a
predictable result (avoid giving patients drugs that
have an unacceptable risk of side effects).
Patent Owner raised a new contention at Oral
Hearing that, with the prior art system, a drunk
doctor may let a patient who wanted to have a baby
take thalidomide. Tr. at 41:9–23. According to Patent
Owner, in contrast to the prior system, the new
improved system embodied by the challenged Jepson
claims would have caught such a mistake because of
the use of the approval code. Id. at 41:23–44:22. Patent
Owner did not identify sufficient and credible evidence
of record to support such a contention or provide
sufficient evidence that the existence of drunk doctor
prescriptions was a problem to be overcome.
Additionally, parties are not permitted to raise new
arguments or evidence at oral hearing. Office Patent
Trial Practice Guide, 77 Fed. Reg. 48,756, 48,768 (Aug.
14, 2012).
We conclude that, based on the evidence of record,
Petitioner has demonstrated by a preponderance of
the evidence that the independent claims would have
been obvious to one of ordinary skill in the art over the
cited prior art.
As to the dependent claims, claims 2–27 and 29–32,
Petitioner provides detailed claim charts identifying
where the additional limitations are taught in the
prior art. Pet. 49–60. For example, as to claim 4, which
requires filling a prescription only after informed

189a
consent, Petitioner identifies how Mitchell teaches
that thalidomide should only be prescribed after fully
informed consent has been obtained using a written
consent formed. Pet. 49 (citing Ex. 1010, 101, 102,
105). Additionally, Petitioner relies upon the
Declaration of Dr. Fudin to demonstrate that the one
of ordinary skill in the art would understand that the
prior art teaches each and every requirement of the
challenged dependent claims, and that one would have
had reason to employ the additional requirements in
combination with the subject matter of the
independent claims. Ex. 1027 ¶¶ 101–192. For the
reasons provided in the Petition, and below with
respect to claims 5, 6, 10 and 17, we hold that
Petitioner has demonstrated by a preponderance of
the evidence that the dependent claims are
unpatentable as obvious over the cited prior art.
d. Dependent Claims 5 and 6
Dependent claim 5 requires that the informed
consent be verified by the prescriber at the time the
patient is registered in the computer readable storage
medium. Claim 6, depends from claim 5 and further
requires the use of facsimile and optical character
recognition software.
Mitchell teaches that a doctor prescribing the
teratogenic drug isotretinoin is provided guidelines
including a patient-qualification checklist, a patient
information brochure and a consent form. Ex. 1010 at
101. Petitioner contends that it would have been
obvious that the prescribing doctor would have
verified the disclosed treatment requirements, such as
informed consent, when screening the enrollment

190a
forms and registering the patient into the database.
Pet. 27.
Petitioner relies upon Dishman for its teaching that
pharmacists fax tracking sheets containing weekly
follow-up evaluations to a central coordinating center.
Id. at 28. Petitioner states that it was known in the art
to transfer paper data into a computer database by fax
and use optical character recognition to interpret the
data. Id. at 28 (citing Ex. 1027, ¶ 114).
Patent Owner states that the prior art discloses that
pharmacists, not the prescribers, verified the informed
consent at the time of patient registration. PO Resp.
41–45. Specifically, Patent Owner contends that
Mitchell does not teach screening forms with respect
to treatment and registering them into the computer
readable storage medium. Id. at 42. As to Dishman,
Patent Owner contends that Dishman teaches only
that the pharmacist forwards patient information to
the central coordinating center and the doctor’s at the
coordinating center review the patient file before
approving usage of the drug. Id. at 43.
Mitchell specifically provides physicians with
guidelines and materials, including a patientqualification checklist, contraceptive information,
information about the necessary forms for
contraception referral program, and a consent form.
Ex. 1010 at 101. Dishman teaches that, to avoid
physicians having to evaluate candidates who are not
ineligible for clozapine therapy, candidates are to be
screened by pharmacists by reviewing the patient file
and interviewing the patients. Ex. 1007 at 900. We
credit Dr. Fudin’s testimony that it would have been
obvious to have the prescribing doctor verify the

191a
patient’s informed consent and risk group assignment,
as Mitchell teaches that physicians are to warn
patients of risks and provide informed consent forms.
Ex. 1027, ¶¶ 106–110.
e. Dependent Claim 10
Claim 10 depends from claim 7, which depends from
claim 1. Claim 7 requires that the set of information
obtained from a patient include diagnostic testing and
claim 10 requires the diagnostic testing comprise
genetic testing.
Petitioner contends that genetic testing was a wellknown diagnostic procedure as of the effective filing
date of the '720 patent. Pet. 30–31. Petitioner states
that it would have been obvious to include genetic
testing given that genetic testing was well-known and
that such testing was to precede last-resort
treatments, such as that disclosed in Mitchell and
Dishman. Id.
Patent Owner states that the references of record do
not disclose or suggest genetic testing. PO Resp. 48.
Patent Owner further states that Dr. Fudin has failed
to provide evidence in support of his opinion that
genetic testing was “common” as of the effective filing
date. Id. at 48–49. Patent Owner however, did not
dispute that genetic testing was known in the art for
obtaining diagnostic information.
Based on the evidence of record, we credit Dr.
Fudin’s testimony that genetic testing was a known
diagnostic procedure as of the effective filing date. Dr.
Fudin’s testimony is consistent with the FDA Meeting
Minutes (Ex. 1012), which contain a statement from a
Dr. Holmes, said to represent the American College of
Medical Genetics and the Teratology Society. Ex.

192a
1012, 137. According to the FDA Meeting Minutes, Mr.
Holmes stated that:
It may seem strange to you that a genetics society
would be standing here, commenting on potential
environmental exposures with awful fetal effects,
but many clinical geneticists around the country
are expected to provide counseling to pregnant
women about exposures in pregnancies, so the
geneticists, in fact, are often the clinical
teratologists. And I am speaking myself as an
active clinical teratologist in the Boston area.
Id.
We hold that the genetic testing of dependent claim
10 represents a combination of known elements for
their known use to achieve a predictable result,
genetic testing to obtain information for diagnosis and
treatment.
f. Dependent Claim 17
Claim 17 depends from claim 16, which depends
from claim 15. Claim 15 depends from claim 1 and
requires defining, obtaining, and entering a second set
of information for each risk group. Claim 16 further
requires the second set of information comprise a
survey regarding patient behavior and compliance.
Claim 17 further requires that the survey be
conducted telephonically using an integrated voice
response system.
Petitioner relies upon Mitchell for its teaching of
collecting patient survey data regarding behavior and
compliance. Pet. 37–38 (citing Ex. 1006 at 901, and Ex.
1010 at 101–104). Petitioner also relies upon Mundt,
which teaches that use of interactive voice response
systems can strengthen clinical practice, extend

193a
research methods, and enhance administrative
support of service quality and value. Pet. 38 (citing Ex.
1017 at 611–612, 623). Petitioner contends that it
would have been obvious to a person of ordinary skill
in the art to utilize an integrated voice response
system in conducting surveys as such surveys were
well known in the art as of the effective filing date and
that it is not inventive to provide a mechanical or
automatic means to replace a manual activity. Id.
Patent Owner contends that Mundt failed to
disclose, teach or suggest the limitation recited in
claim 17. PO Resp. 50. Specifically, Patent Owner
states that Mundt does not mention using integrated
voice response systems for risk group assignments. Id.
Patent Owner also contends that Mitchell’s surveys
would have been completed during interactive patient
interviews and that Keravich and Zeldis disclose that
their patient surveys are physical paper forms. Id.
Additionally, Patent Owner contends that one skilled
in the art would not have expected the claimed voice
response system to accomplish the same result as prior
art interactive prescriber/patient surveys. Id. at 51.
Based on the record presented we find that one of
ordinary skill in the art would have understood that
there are benefits and detriments to both paper
surveys and integrated voice response systems. For
example, Mundt teaches that individuals may disclose
sensitive information to a computer that they would
be reluctant to discuss with another person and that
interactive voice response systems can cost-effectively
enhance service. Ex. 1017 at 612. One of ordinary skill
in the art would have been familiar with collecting
patient information and would have been able to
determine which collection method best served their

194a
needs, automated process or in-person process. We
hold that the record demonstrates that the use of
integrated response systems in combination with a
controlled distribution drug program is a combination
of known elements being used for their known purpose
to achieve a predictable result, obtaining patient
information through an automated process to aid in
assessing risk group assignment for prescribing drugs.
g. Remaining Arguments
We have considered Patent Owner’s remaining
arguments, e.g., implementation would be beyond the
level of ordinary skill in the art, but do not find them
persuasive. For example, at Oral Hearing, Patent
Owner acknowledged that a person of ordinary skill in
the art need only to design the invention, and does not
need to be able to implement the invention. Tr. 69:12–
75:11, 87:11–94:11. Additionally, Patent Owner
acknowledged at Oral Hearing that they were not
arguing unexpected results for the '720 patent. Tr. at
35:15–18.
We hold that Petitioner has demonstrated by a
preponderance of the evidence that claims 1–32 of the
'720 patent are unpatentable as obvious over Mitchell
and Dishman in view of Cunningham and further in
view of Mundt, Mann, Vanchieri, Shinn, Linnarsson,
Grönroos, Soyka, Hamera, Kosten, and Menill.
III. Motions to Exclude
Patent Owner filed a Motion to Exclude Evidence.
Paper 63. Patent Owner alleges that Petitioner relied
improperly upon Mundt (Exhibit 1017) and FDA
Meeting (Exhibit 1012). Id. at 2. Patent Owner states
that Petitioner made statements that are not
supported by the exhibits and that the exhibits should

195a
therefore be excluded as out-of-court statements to
prove the truth of the matter asserted. Id. Patent
Owner’s objection to Petitioner’s statements go to the
credibility of the statements made by Petitioner and
do not go to the exhibits themselves. A prior art
document “is offered simply as evidence of what it
described, not for proving the truth of the matters
addressed in the document.” See, e.g., Joy Techs., Inc.
v. Manbeck, 751 F. Supp. 225, 233 n.2 (D.D.C. 1990),
judgment aff’d, 959 F.2d 226 (Fed. Cir. 1992); Fed. R.
Evid. 801(c) 1997 Adv. Comm. Note (“If the
significance of an offered statement lies solely in the
fact that it was made, no issue is raised as to the truth
of anything asserted, and the statement is not
hearsay.”). Therefore, Mundt and the FDA Meeting
exhibits are not hearsay under Federal Rule of
Evidence 801(c).
Patent Owner alleges that Petitioner relied upon
irrelevant evidence and seeks to exclude the evidence
as they are irrelevant for the purposes for which they
are offered. Paper 63, 3. Petitioner disagrees with
Patent Owner and contends that Patent Owner’s
relevance objections go to the weight given to the
evidence. Paper 67, 5–8. We agree with Petitioner. It
is the Board’s discretion to assign the appropriate
weight to be accorded the evidence and we hold that,
in this instance, it is not necessary to resort to a formal
exclusion of the identified evidence in assessing the
sufficiency of the evidence.
Patent
Owner
contends
that
Petitioner
mischaracterized certain portions of Dr. Frau’s
testimony. Paper 63, 9–13. Patent Owner states that
the testimony should be excluded unless the Board
considers the testimony surrounding the context

196a
and/or relevant redirect testimony. Id. at 10–12. To
the extent the Board has relied upon the testimony,
the Board has reviewed the testimony and the
surrounding context. Patent Owner also moves to
exclude a statement by Petitioner concerning Dr.
Frau’s testimony at Ex. 1086 at 130:4–11. As we did
not rely upon this particular testimony of Dr. Frau, the
issue is moot.
Additionally, Patent Owner seeks to exclude Exhibit
1012 at page 119 as Petitioner allegedly
mischaracterized the particular statement made by
Mr. Williams and mischaracterized and/or ignored the
full testimony on the issue. Id. at 14. Patent Owner
states that the Board should exclude the exhibit
unless the Board also considers the testimony at
Exhibit 1076 pages 118–119. Id. at 15. To the extent
the Board has relied upon the testimony, the Board
has reviewed the testimony and the surrounding
context.
Patent Owner’s Motion to Exclude is denied for the
reasons stated above. Patent Owner is reminded that
a motion to exclude is limited to explaining why the
evidence is not admissible. A motion to exclude is not
the place to challenge the sufficiency of the evidence to
prove a particular fact.
Petitioner filed a Motion to Exclude Evidence. Paper
64. Specifically, Petitioner requests that the Board
exclude certain testimony of Dr. Fudin elicited during
cross examination as the testimony is said to be
irrelevant. Id. at 1. Petitioner also seeks to exclude
Patent Owner’s arguments regarding the cited
testimony. Id. at 3. Petitioner’s Motion to Exclude is
denied as moot as even taking the evidence into

197a
consideration, we hold that Petitioner has established
by a preponderance of the evidence that claims 1– 32
of the '720 patent are unpatentable as obvious.
IV. Motion for Supplemental Information
Petitioner moves to submit supplemental
information concerning FDA Meeting Transcripts (Ex.
1012, 1013) and CDC minutes (Ex. 1014). Paper 37.
Specifically,
Petitioner
seeks
to
introduce
supplemental evidence that is said to confirm the
public availability of Exhibits 1012, 1013 and 1014. Id.
at 2–3. Patent Owner opposes. Paper 44.
As our Decision does not exclude the disputed
exhibits, we deny Petitioner’s Motion to Supplement
as moot.
Petitioner also moves to submit supplemental
information concerning Menill to demonstrate its
public accessibility. Paper 38, 2. Patent Owner
opposes. Paper 45. As Patent Owner did not challenge
the public accessibility of Menill, we deny Petitioner’s
Motion to Supplement as moot.
V. Motions to Seal
Patent Owner requests that the Board seal Exhibit
2007 in its entirety, along with the unredacted version
of the Preliminary Response (Paper 11) and for entry
of the Board’s Default Protective Order. Paper 9, 1.
Patent Owner also requests that the Board seal the
unredacted versions of the Patent Owner Response
(Paper 42), the Frau Declaration (Ex. 2059) and the
DiPiro Declaration (Ex. 2060), which discuss
confidential Exhibit 2007. Paper 41, 1. According to
Patent Owner, the documents discuss a confidential,
non-public submission to the U.S. Food and Drug
Administration. Id.

198a
Petitioner requests that the Board seal its
unredacted Petitioner’s Reply to Patent Owner
Response (Paper 55) and Exhibits 1085 and 1086
(deposition transcripts). Paper 56, 1. Petitioner states
that the documents to be sealed discuss Patent
Owner’s confidential business information.
Neither party opposes the grant of the motions to
seal.
We have reviewed documents sought to be sealed.
We conclude that they discuss confidential business
information. The content of those documents that is
asserted as constituting confidential business
information has not been identified in this Final
Written Decision in reaching a determination in this
proceeding with respect to the claims of the '720
patent. We are persuaded that good cause exists to
have those documents remain under seal.
The record will be maintained undisturbed pending
the outcome of any appeal taken from this decision. At
the conclusion of any appeal proceeding, or if no appeal
is taken, the documents may be made public. See Trial
Practice Guide, 77 Fed. Reg. 48,756, 48,761 (Aug. 14,
2012). Further, either party may file a motion to
expunge the sealed documents from the record
pursuant to 37 C.F.R. § 42.56. Any such motion will be
decided after the conclusion of any appeal proceeding
or the expiration of the time period for appealing.
VI. CONCLUSION
For the foregoing reasons, we determine that
Petitioner has demonstrated by a preponderance of
the evidence that claims 1–32 of the '720 patent are
unpatentable as obvious over Mitchell and Dishman in
view of Cunningham and further in view of Mundt,

199a
Mann, Vanchieri, Shinn, Linnarsson,
Soyka, Hamera, Kosten, and Menill.

Grönroos,

VII. ORDER
In consideration of the foregoing, it is:
ORDERED that claims 1–32 of the '720 patent are
held unpatentable;
FURTHER ORDERED that Patent Owner and
Petitioner’s Motions to Seal are granted;
FURTHER ORDERED that Patent Owner and
Petitioner’s Motions to Exclude are denied;
FURTHER ORDERED that Petitioner’s Motions to
File Supplemental Information are denied;
and
FURTHER ORDERED that, because this is a final
written decision, parties to the proceeding seeking
judicial review of the decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

200a
PETITIONER:
Sarah Spires
Parvathi Kota
Skiermont Puckett LLP
1103CFAD6@skiermontderby.com
PATENT OWNER:
F Dominic Cerrito
Frank Calvosa
Quinn Emanuel Urquhart & Sullivan, LLP
nickcerrito@quinnemanuel.com
frankcalvosa@quinnemanuel.com
Anthony M. Insogna
Gasper LaRosa
Jones Day
aminsogna@jonesday.com
gjlarosa@jonesday.com

201a

APPENDIX F

NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
CELGENE CORPORATION,
Appellant
v.
LAURA A. PETER, DEPUTY UNDER
SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DEPUTY
DIRECTOR OF THE UNITED STATES PATENT
AND TRADEMARK OFFICE,
Intervenor
2018-1167, 2018-1168, 2018-1169
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2015-01096, IPR2015-01102, IPR2015-01103.
ON MOTION

202a
Before PROST, Chief Judge, NEWMAN, LOURIE,
BRYSON1, DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellant Celgene Corporation filed a petition for
rehearing en banc. A response to the petition was
invited by the court and filed by Intervenor Laura A.
Peter. The petition was first referred as a petition for
rehearing to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on December 16,
2019.
FOR THE COURT
December 9, 2019
Date

1

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Circuit Judge Bryson participated only in the decision on
the petition for panel rehearing.

203a

APPENDIX G

NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
CELGENE CORPORATION,
Appellant
v.
LAURA A. PETER, DEPUTY UNDER
SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DEPUTY
DIRECTOR OF THE UNITED STATES PATENT
AND TRADEMARK OFFICE,
Intervenor
2018-1171
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2015-01092.
ON MOTION

204a
Before PROST, Chief Judge, NEWMAN, LOURIE,
BRYSON1, DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellant Celgene Corporation filed a petition for
rehearing en banc. A response to the petition was
invited by the court and filed by Intervenor Laura A.
Peter. The petition was first referred as a petition for
rehearing to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on December 16,
2019.
FOR THE COURT
December 9, 2019
Date

1

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Circuit Judge Bryson participated only in the decision on
the petition for panel rehearing.

205a

APPENDIX H

Trials@uspto.gov
Tel: 571.272.7822

Paper 76
Entered: September 8, 2017

UNITED STATES PATENT AND
TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
COALITION FOR AFFORDABLE DRUGS VI LLC,
Petitioner,
v.
CELGENE CORPORATION,
Patent Owner.
Case IPR2015-01096 (Patent 6,315,720 B1)
Case IPR2015-01102 (Patent 6,315,720 B1)
Case IPR2015-01103 (Patent 6,315,720 B1)1

1

Patent Owner filed a substantially identical Request for
Rehearing in each proceeding. IPR2015-01096, Paper 74;
IPR2015-01102, Paper 76; IPR2015-01103, Paper 77. This
Decision addresses issues common to all cases. Accordingly, we
issue a single Decision to be entered in each case. For
convenience, we refer to papers filed in IPR2015-01096.

206a
Before MICHAEL P. TIERNEY, Vice Chief
Administrative Patent Judge, GRACE KARAFFA
OBERMANN, and TINA E. HULSE, Administrative
Patent Judges.
OBERMANN, Administrative Patent Judge.
DECISION
Granting Patent Owner’s Request for Rehearing
37 C.F.R. § 42.71(d)

207a
I. INTRODUCTION
On November 25, 2016, Celgene Corporation
(“Patent Owner”) filed a Request for Rehearing of the
Final Written Decision. Paper 74 (“Req.”). In the
Final Written Decision, we held that claims 1–32 of
U.S. Patent No. 6,315,720 B1 (“the ’720 patent”) are
unpatentable. Paper 73, (“Dec.”). The Request for
Rehearing is confined to our holding that claim 10 is
unpatentable. Req. 1; see Dec. 27–28 (addressing
claim 10).
For reasons that follow, we grant the Request for
Rehearing. We are persuaded that the Final Written
Decision should be modified as to claim 10.
Specifically, we hold that Petitioner fails to establish
by a preponderance of the evidence that claim 10 of
the ’720 patent is unpatentable. This Decision does
not disturb our holding, stated in the Final Written
Decision, that Petitioner establishes by a
preponderance of the evidence that claims 1–9 and 11–
32 are unpatentable. Dec. 34.
II. ANALYSIS
Patent Owner asserts that the Board overlooked or
misapprehended evidence and arguments showing
that the subject matter of claim 10 would not have
been obvious under 35 U.S.C. § 103(b). Req. 1.
In pertinent part, 37 C.F.R. § 42.71(d) states:
The burden of showing a decision should be
modified lies with the party challenging the
decision. The request must specifically identify
all matters the party believes the Board
misapprehended or overlooked, and the place
where each matter was previously addressed in a
motion, an opposition, or a reply.

208a
Claim 10 depends from claim 7, which depends from
claim 1. Claim 1 requires, inter alia, defining a set of
information to be obtained from a patient. Ex. 1001,
18:30–31.
Claim 7 further requires that the
“information to be obtained” from the patient “includes
the results of diagnostic testing.” Id. at 18:59–60.
Claim 10 requires that “said diagnostic testing
comprises genetic testing.” Id. at 18:66–67.
In the Final Written Decision, we found that the
subject matter of claim 10 would have been obvious,
even though “the references of record do not disclose
or suggest genetic testing.” Dec. 27–28. On that point,
we credited Dr. Fudin’s declaration testimony that
genetic testing was a known diagnostic procedure as
of the effective filing date of the ’720 patent. Id. at 28.
We reasoned that Dr. Fudin’s testimony was
consistent with FDA Meeting Minutes (Ex. 1013),
which contained a statement from a Dr. Holmes, said
to represent the American College of Medical Genetics
and the Teratology Society.
Ex. 1013, 137.
Specifically, Mr. Holmes stated that:
It may seem strange to you that a genetics
society would be standing here, commenting on
potential environmental exposures with awful
fetal effects, but many clinical geneticists around
the country are expected to provide counseling to
pregnant women about exposures in pregnancies,
so the geneticists, in fact, are often the clinical
teratologists. And I am speaking myself as an
active clinical teratologist in the Boston area.
Id.
Based on that objective support, we held “that the
genetic testing of dependent claim 10 represents a

209a
combination of known elements for their known use to
achieve a predictable result, genetic testing to obtain
information for diagnosis and treatment.” Dec. 28.
Having reconsidered the record on rehearing,
however, we find that this finding is not supported by
a preponderance of the evidence.
As an initial matter, Patent Owner argues that the
Board improperly shifted the burden of proof by
holding that Patent Owner “did not dispute that
genetic testing was known in the art for obtaining
diagnostic information.”2 Req. 3 (quoting Dec. 27).
Patent Owner, in fact, timely disputed that genetic
testing would have been understood as common in the
art, and identified a gap in Petitioner’s evidence on
that point.
Req. 3 (citing PO Resp. 45–56).
Specifically, Patent Owner pointed to the absence of
disclosure in the asserted prior art, which teaches
various other tests but not genetic testing. PO Resp.
46. Patent Owner argued that the lack of disclosure
in the record evidence “undermines Dr. Fudin’s
opinion that such testing was ‘common.’” Id.
We agree that the proper focus is not whether
Patent Owner disputed that fact, but whether
Petitioner came forward with evidence sufficient to
demonstrate that genetic testing was known and
would have been used in the combination required by

2 Patent Owner asserts that in its Patent Owner Response it
did dispute that genetic testing was known in the art or common.
Req. 3. Other than citing its entire argument regarding claim 10,
which we already address throughout this Decision, Patent
Owner does not identify any specific argument or evidence that
we overlooked or misapprehended in connection with this
assertion. Id.

210a
claim 10. We also agree that the lack of disclosure in
the prior art of record—coupled with the record’s
disclosure of other types of tests—cuts against a
finding “that genetic testing would be used, let alone
that it would have been common.” Req. 3. Dr. Fudin
states that “[i]t was common in the art at the time of”
the invention “to conduct genetic testing at the same
time as the pregnancy testing taught in” the prior art,
but directs us to no disclosure in the asserted prior art,
or any other objective evidence, on point. Pet. 27–31
(citing Ex. 1021 ¶¶ 141–143).
On that point, Dr. Fudin does not cite, or otherwise
explain the significance of, the disclosure in the FDA
Meeting Minutes that we relied upon in the Final
Written Decision. Ex. 1021 ¶¶ 140–143. PO Resp. 45–
46; Pet. 58 (citing Ex. 1021 ¶¶ 229–231); Dec. 28. That
disclosure, cited for the first time in Petitioner’s
Reply3, does not refer to genetic testing, much less
suggest using genetic testing in the combination
required by claim 10. Reply 25–26 (citing Ex. 10764,
137); see Req. 3 (arguing on rehearing that the
Petitioner “relied solely on a single passage” in the
FDA Meeting Minutes “that focuses on the geneticist
acting as a clinical teratologist that might counsel
patients on the risks of exposure”) (citing Reply 25–26;
Ex. 1013, 137). Patent Owner correctly points out that
“the cited passage says nothing about genetic testing,

3

The Petition cites other disclosures in the FDA Meeting
Minutes to support arguments unrelated to the genetic testing
limitation of claim 10. Pet. 13–14 (citing Ex. 1013).
4

The same material appears on page 137 of Exhibit 1013,
which is cited in the Final Written Decision. Dec. 28.

211a
nor does it suggest such testing.” Req. 3 (emphasis
omitted); Ex. 1013, 137; Ex. 1076, 137.
We find that the FDA Meeting Minutes fail to
support adequately Dr. Fudin’s opinion testimony that
genetic testing would have been common at the time
of the invention. Contrary to “Dr. Fudin’s opinion that
[genetic] testing was ‘common,’” the asserted prior art
references do not disclose, teach, or suggest genetic
testing, “despite disclosing various other types of
tests.” Req. 2; PO Resp. 46. Given that Dr. Fudin’s
opinion on that point is unsupported by objective
evidence, we assign his testimony little weight in the
analysis of claim 10. Req. 2–3; PO Resp. 46 (citing 37
C.F.R. § 42.65(a) and Ashland Oil, Inc. v. Delta Resins
& Refractories, Inc., 776 F.2d 281, 294 (Fed. Cir.
1985)). The gap in the disclosures of the prior art,
occurring at or near the time of the invention, carries
more weight than the much later, unsupported
opinion of Dr. Fudin.
Petitioner fails to demonstrate that it would have
been obvious at the time of the invention to use genetic
testing in the method of claim 10. Req. 3. The objective
evidence on point consists of a single paragraph from
the FDA Meeting Minutes, raised in Petitioner’s
Reply, which is not relied upon in the relevant witness
testimony, and does not disclose genetic testing.
Accordingly, we hold that Petitioner fails to establish
by a preponderance of the evidence that claim 10 is
unpatentable.
II. CONCLUSION
For the foregoing reasons, Patent Owner establishes
that the Final Written Decisions in each proceeding
should be modified to hold that, based on the record

212a
developed in this proceeding, a preponderance of the
evidence demonstrates that claim 10 is not proven
unpatentable.
III. ORDER
It is
ORDERED that the Request for Rehearing is
granted;
FURTHER ORDERED that the Final Written
Decision is modified to hold that, based on the record
developed in this proceeding, a preponderance of the
evidence demonstrates that claim 10 is not proven
unpatentable;
FURTHER ORDERED that this Decision does not
disturb the holding in the Final Written Decision that
Petitioner establishes by a preponderance of the
evidence that claims 1–9 and 11–32 are unpatentable.
PETITIONER:
Sarah E. Spires
Parvathi Kota
SKIERMONT PUCKETT LLP
sarah.spires@skiermontpuckett.com
parvathi.kota@skiermontpuckett.com
PATENT OWNER:
F. Dominic Cerrito
Frank Calvosa
QUINN EMANUEL URQUHART & SULLIVAN,
LLP
nickcerrito@quinnemanuel.com
frankcalvosa@quinnemanuel.com

213a
Anthony M. Insogna
Gasper LaRosa
JONES DAY
aminsogna@jonesday.com
gjlarosa@jonesday.com

214a

APPENDIX I

35 U.S.C. § 311
INTER PARTES REVIEW
(a) In General.—Subject to the provisions of this
chapter, a person who is not the owner of a patent may
file with the Office a petition to institute an inter
partes review of the patent. The Director shall
establish, by regulation, fees to be paid by the person
requesting the review, in such amounts as the Director
determines to be reasonable, considering the
aggregate costs of the review.
(b) Scope.—A petitioner in an inter partes review
may request to cancel as unpatentable 1 or more
claims of a patent only on a ground that could be raised
under section 102 or 103 and only on the basis of prior
art consisting of patents or printed publications.
(c) Filing Deadline.—A petition for inter partes
review shall be filed after the later of either—
(1) the date that is 9 months after the grant of a
patent; or
(2) if a post-grant review is instituted under chapter
32, the date of the termination of such post-grant
review.
35 U.S.C. § 312
PETITIONS
(a) Requirements of Petition.—A petition filed
under section 311 may be considered only if—

215a
(1) the petition is accompanied by payment of the
fee established by the Director under section 311;
(2) the petition identifies all real parties in interest;
(3) the petition identifies, in writing and with
particularity, each claim challenged, the grounds on
which the challenge to each claim is based, and the
evidence that supports the grounds for the
challenge to each claim, including—
(A) copies of patents and printed publications
that the petitioner relies upon in support of the
petition; and
(B) affidavits or declarations of supporting
evidence and opinions, if the petitioner relies on
expert opinions;
(4) the petition provides such other information as
the Director may require by regulation; and
(5) the petitioner provides copies of any of the
documents required under paragraphs (2), (3), and
(4) to the patent owner or, if applicable, the
designated representative of the patent owner.
(b) Public Availability.—As soon as practicable
after the receipt of a petition under section 311, the
Director shall make the petition available to the
public.
35 U.S.C. § 313
PRELIMINARY RESPONSE TO PETITION
If an inter partes review petition is filed under section
311, the patent owner shall have the right to file a
preliminary response to the petition, within a time
period set by the Director, that sets forth reasons why
no inter partes review should be instituted based upon

216a
the failure of the petition to meet any requirement of
this chapter.
35 U.S.C. § 314
INSTITUTION OF INTER PARTES REVIEW
(a) Threshold.—The Director may not authorize an
inter partes review to be instituted unless the Director
determines that the information presented in the
petition filed under section 311 and any response filed
under section 313 shows that there is a reasonable
likelihood that the petitioner would prevail with
respect to at least 1 of the claims challenged in the
petition.
(b) Timing.—The Director shall determine whether
to institute an inter partes review under this chapter
pursuant to a petition filed under section 311 within 3
months after—
(1) receiving a preliminary response to the petition
under section 313; or
(2) if no such preliminary response is filed, the last
date on which such response may be filed.
(c) Notice.—The Director shall notify the petitioner
and patent owner, in writing, of the Director's
determination under subsection (a), and shall make
such notice available to the public as soon as is
practicable. Such notice shall include the date on
which the review shall commence.
(d) No Appeal.—The determination by the Director
whether to institute an inter partes review under this
section shall be final and nonappealable.

217a
35 U.S.C. § 315
RELATION TO OTHER PROCEEDINGS
OR ACTIONS
(a) Infringer's Civil Action.—
(1) Inter partes review barred by civil
action.—An inter partes review may not be
instituted if, before the date on which the petition
for such a review is filed, the petitioner or real party
in interest filed a civil action challenging the
validity of a claim of the patent.
(2) Stay of civil action.—If the petitioner or real
party in interest files a civil action challenging the
validity of a claim of the patent on or after the date
on which the petitioner files a petition for inter
partes review of the patent, that civil action shall be
automatically stayed until either—
(A) the patent owner moves the court to lift the
stay;
(B) the patent owner files a civil action or
counterclaim alleging that the petitioner or real
party in interest has infringed the patent; or
(C) the petitioner or real party in interest moves
the court to dismiss the civil action.
(3) Treatment of counterclaim.—A counterclaim
challenging the validity of a claim of a patent does
not constitute a civil action challenging the validity
of a claim of a patent for purposes of this subsection.
(b) Patent Owner's Action.—An inter partes review
may not be instituted if the petition requesting the
proceeding is filed more than 1 year after the date on
which the petitioner, real party in interest, or privy of
the petitioner is served with a complaint alleging

218a
infringement of the patent. The time limitation set
forth in the preceding sentence shall not apply to a
request for joinder under subsection (c).
(c) Joinder.—If the Director institutes an inter
partes review, the Director, in his or her discretion,
may join as a party to that inter partes review any
person who properly files a petition under section 311
that the Director, after receiving a preliminary
response under section 313 or the expiration of the
time for filing such a response, determines warrants
the institution of an inter partes review under section
314.
(d) Multiple Proceedings. — Notwithstanding
sections 135(a), 251, and 252, and chapter 30, during
the pendency of an inter partes review, if another
proceeding or matter involving the patent is before the
Office, the Director may determine the manner in
which the inter partes review or other proceeding or
matter may proceed, including providing for stay,
transfer, consolidation, or termination of any such
matter or proceeding.
(e) Estoppel.—
(1) Proceedings
before
the
Office.—The
petitioner in an inter partes review of a claim in a
patent under this chapter that results in a final
written decision under section 318(a), or the real
party in interest or privy of the petitioner, may not
request or maintain a proceeding before the Office
with respect to that claim on any ground that the
petitioner raised or reasonably could have raised
during that inter partes review.
(2) Civil actions and other proceedings.—The
petitioner in an inter partes review of a claim in a

219a
patent under this chapter that results in a final
written decision under section 318(a), or the real
party in interest or privy of the petitioner, may not
assert either in a civil action arising in whole or in
part under section 1338 of title 28 or in a proceeding
before the International Trade Commission under
section 337 of the Tariff Act of 1930 that the claim
is invalid on any ground that the petitioner raised
or reasonably could have raised during that inter
partes review.
35 U.S.C. § 316
CONDUCT OF INTER PARTES REVIEW
(a) Regulations.—The
regulations—

Director

shall

prescribe

(1) providing that the file of any proceeding under
this chapter shall be made available to the public,
except that any petition or document filed with the
intent that it be sealed shall, if accompanied by a
motion to seal, be treated as sealed pending the
outcome of the ruling on the motion;
(2) setting forth the standards for the showing of
sufficient grounds to institute a review under
section 314(a);
(3) establishing procedures for the submission of
supplemental information after the petition is filed;
(4) establishing and governing inter partes review
under this chapter and the relationship of such
review to other proceedings under this title;
(5) setting forth standards and procedures for
discovery of relevant evidence, including that such
discovery shall be limited to—

220a
(A) the deposition of witnesses
affidavits or declarations; and

submitting

(B) what is otherwise necessary in the interest of
justice;
(6) prescribing sanctions for abuse of discovery,
abuse of process, or any other improper use of the
proceeding, such as to harass or to cause
unnecessary delay or an unnecessary increase in
the cost of the proceeding;
(7) providing for protective orders governing the
exchange
and
submission
of
confidential
information;
(8) providing for the filing by the patent owner of a
response to the petition under section 313 after an
inter partes review has been instituted, and
requiring that the patent owner file with such
response, through affidavits or declarations, any
additional factual evidence and expert opinions on
which the patent owner relies in support of the
response;
(9) setting forth standards and procedures for
allowing the patent owner to move to amend the
patent under subsection (d) to cancel a challenged
claim or propose a reasonable number of substitute
claims, and ensuring that any information
submitted by the patent owner in support of any
amendment entered under subsection (d) is made
available to the public as part of the prosecution
history of the patent;
(10) providing either party with the right to an oral
hearing as part of the proceeding;

221a
(11) requiring that the final determination in an
inter partes review be issued not later than 1 year
after the date on which the Director notices the
institution of a review under this chapter, except
that the Director may, for good cause shown, extend
the 1-year period by not more than 6 months, and
may adjust the time periods in this paragraph in the
case of joinder under section 315(c);
(12) setting a time period for requesting joinder
under section 315(c); and
(13) providing the petitioner with at least 1
opportunity to file written comments within a time
period established by the Director.
(b) Considerations.—In prescribing regulations
under this section, the Director shall consider the
effect of any such regulation on the economy, the
integrity of the patent system, the efficient
administration of the Office, and the ability of the
Office to timely complete proceedings instituted under
this chapter.
(c) Patent Trial and Appeal Board.—The Patent
Trial and Appeal Board shall, in accordance with
section 6, conduct each inter partes review instituted
under this chapter.
(d) Amendment of the Patent.—
(1) In general.—During an inter partes review
instituted under this chapter, the patent owner may
file 1 motion to amend the patent in 1 or more of the
following ways:
(A) Cancel any challenged patent claim.
(B) For each challenged claim, propose
reasonable number of substitute claims.

a

222a
(2) Additional motions.—Additional motions to
amend may be permitted upon the joint request of
the petitioner and the patent owner to materially
advance the settlement of a proceeding under
section 317, or as permitted by regulations
prescribed by the Director.
(3) Scope of claims.—An amendment under this
subsection may not enlarge the scope of the claims
of the patent or introduce new matter.
(e) Evidentiary Standards.—In an inter partes
review instituted under this chapter, the petitioner
shall have the burden of proving a proposition of
unpatentability by a preponderance of the evidence.
35 U.S.C. § 317
SETTLEMENT
(a) In General.—An inter partes review instituted
under this chapter shall be terminated with respect to
any petitioner upon the joint request of the petitioner
and the patent owner, unless the Office has decided
the merits of the proceeding before the request for
termination is filed. If the inter partes review is
terminated with respect to a petitioner under this
section, no estoppel under section 315(e) shall attach
to the petitioner, or to the real party in interest or
privy of the petitioner, on the basis of that petitioner's
institution of that inter partes review. If no petitioner
remains in the inter partes review, the Office may
terminate the review or proceed to a final written
decision under section 318(a).
(b) Agreements in Writing.—Any agreement or
understanding between the patent owner and a
petitioner, including any collateral agreements

223a
referred to in such agreement or understanding, made
in connection with, or in contemplation of, the
termination of an inter partes review under this
section shall be in writing and a true copy of such
agreement or understanding shall be filed in the Office
before the termination of the inter partes review as
between the parties. At the request of a party to the
proceeding, the agreement or understanding shall be
treated as business confidential information, shall be
kept separate from the file of the involved patents, and
shall be made available only to Federal Government
agencies on written request, or to any person on a
showing of good cause.
35 U.S.C. § 318
DECISION OF THE BOARD
(a) Final Written Decision.—If an inter partes
review is instituted and not dismissed under this
chapter, the Patent Trial and Appeal Board shall issue
a final written decision with respect to the
patentability of any patent claim challenged by the
petitioner and any new claim added under section
316(d).
(b) Certificate.—If the Patent Trial and Appeal
Board issues a final written decision under subsection
(a) and the time for appeal has expired or any appeal
has terminated, the Director shall issue and publish a
certificate canceling any claim of the patent finally
determined to be unpatentable, confirming any claim
of the patent determined to be patentable, and
incorporating in the patent by operation of the
certificate any new or amended claim determined to be
patentable.

224a
(c) Intervening Rights.—Any proposed amended or
new claim determined to be patentable and
incorporated into a patent following an inter partes
review under this chapter shall have the same effect
as that specified in section 252 for reissued patents on
the right of any person who made, purchased, or used
within the United States, or imported into the United
States, anything patented by such proposed amended
or new claim, or who made substantial preparation
therefor, before the issuance of a certificate under
subsection (b).
(d) Data on Length of Review.—The Office shall
make available to the public data describing the
length of time between the institution of, and the
issuance of a final written decision under subsection
(a) for, each inter partes review.
35 U.S.C. § 319
APPEAL
A party dissatisfied with the final written decision of
the Patent Trial and Appeal Board under section
318(a) may appeal the decision pursuant to sections
141 through 144. Any party to the inter partes review
shall have the right to be a party to the appeal.
35 U.S.C. § 321
POST-GRANT REVIEW
(a) In General.—Subject to the provisions of this
chapter, a person who is not the owner of a patent may
file with the Office a petition to institute a post-grant
review of the patent. The Director shall establish, by
regulation, fees to be paid by the person requesting the

225a
review, in such amounts as the Director determines to
be reasonable, considering the aggregate costs of the
post-grant review.
(b) Scope.—A petitioner in a post-grant review may
request to cancel as unpatentable 1 or more claims of
a patent on any ground that could be raised under
paragraph (2) or (3) of section 282(b) (relating to
invalidity of the patent or any claim).
(c) Filing Deadline.—A petition for a post-grant
review may only be filed not later than the date that
is 9 months after the date of the grant of the patent or
of the issuance of a reissue patent (as the case may be).
35 U.S.C. § 322
PETITIONS
(a) Requirements of Petition.—A petition filed
under section 321 may be considered only if—
(1) the petition is accompanied by payment of the
fee established by the Director under section 321;
(2) the petition identifies all real parties in interest;
(3) the petition identifies, in writing and with
particularity, each claim challenged, the grounds on
which the challenge to each claim is based, and the
evidence that supports the grounds for the
challenge to each claim, including—
(A) copies of patents and printed publications
that the petitioner relies upon in support of the
petition; and
(B) affidavits or declarations of supporting
evidence and opinions, if the petitioner relies on
other factual evidence or on expert opinions;

226a
(4) the petition provides such other information as
the Director may require by regulation; and
(5) the petitioner provides copies of any of the
documents required under paragraphs (2), (3), and
(4) to the patent owner or, if applicable, the
designated representative of the patent owner.
(b) Public Availability.—As soon as practicable
after the receipt of a petition under section 321, the
Director shall make the petition available to the
public.
35 U.S.C. § 323
PRELIMINARY RESPONSE TO PETITION
If a post-grant review petition is filed under section
321, the patent owner shall have the right to file a
preliminary response to the petition, within a time
period set by the Director, that sets forth reasons why
no post-grant review should be instituted based upon
the failure of the petition to meet any requirement of
this chapter.
35 U.S.C. § 324
INSTITUTION OF POST-GRANT REVIEW
(a) Threshold.—The Director may not authorize a
post-grant review to be instituted unless the Director
determines that the information presented in the
petition filed under section 321, if such information is
not rebutted, would demonstrate that it is more likely
than not that at least 1 of the claims challenged in the
petition is unpatentable.
(b) Additional
Grounds.—The
determination
required under subsection (a) may also be satisfied by

227a
a showing that the petition raises a novel or unsettled
legal question that is important to other patents or
patent applications.
(c) Timing.—The Director shall determine whether
to institute a post-grant review under this chapter
pursuant to a petition filed under section 321 within 3
months after—
(1) receiving a preliminary response to the petition
under section 323; or
(2) if no such preliminary response is filed, the last
date on which such response may be filed.
(d) Notice.—The Director shall notify the petitioner
and patent owner, in writing, of the Director's
determination under subsection (a) or (b), and shall
make such notice available to the public as soon as is
practicable. Such notice shall include the date on
which the review shall commence.
(e) No Appeal.—The determination by the Director
whether to institute a post-grant review under this
section shall be final and nonappealable.
35 U.S.C. § 325
RELATION TO OTHER PROCEEDINGS
OR ACTIONS
(a) Infringer's Civil Action.—
(1) Post-grant review barred by civil action.—
A post-grant review may not be instituted under
this chapter if, before the date on which the petition
for such a review is filed, the petitioner or real party
in interest filed a civil action challenging the
validity of a claim of the patent.

228a
(2) Stay of civil action.—If the petitioner or real
party in interest files a civil action challenging the
validity of a claim of the patent on or after the date
on which the petitioner files a petition for post-grant
review of the patent, that civil action shall be
automatically stayed until either—
(A) the patent owner moves the court to lift the
stay;
(B) the patent owner files a civil action or
counterclaim alleging that the petitioner or real
party in interest has infringed the patent; or
(C) the petitioner or real party in interest moves
the court to dismiss the civil action.
(3) Treatment of counterclaim.—A counterclaim
challenging the validity of a claim of a patent does
not constitute a civil action challenging the validity
of a claim of a patent for purposes of this subsection.
(b) Preliminary Injunctions.—If a civil action
alleging infringement of a patent is filed within 3
months after the date on which the patent is granted,
the court may not stay its consideration of the patent
owner's motion for a preliminary injunction against
infringement of the patent on the basis that a petition
for post-grant review has been filed under this chapter
or that such a post-grant review has been instituted
under this chapter.
(c) Joinder.—If more than 1 petition for a post-grant
review under this chapter is properly filed against the
same patent and the Director determines that more
than 1 of these petitions warrants the institution of a
post-grant review under section 324, the Director may
consolidate such reviews into a single post-grant
review.

229a
(d) Multiple Proceedings. — Notwithstanding
sections 135(a), 251, and 252, and chapter 30, during
the pendency of any post-grant review under this
chapter, if another proceeding or matter involving the
patent is before the Office, the Director may determine
the manner in which the post- grant review or other
proceeding or matter may proceed, including providing
for the stay, transfer, consolidation, or termination of
any such matter or proceeding. In determining
whether to institute or order a proceeding under this
chapter, chapter 30, or chapter 31, the Director may
take into account whether, and reject the petition or
request because, the same or substantially the same
prior art or arguments previously were presented to
the Office.
(e) Estoppel.—
(1) Proceedings
before
the
Office.—The
petitioner in a post-grant review of a claim in a
patent under this chapter that results in a final
written decision under section 328(a), or the real
party in interest or privy of the petitioner, may not
request or maintain a proceeding before the Office
with respect to that claim on any ground that the
petitioner raised or reasonably could have raised
during that post-grant review.
(2) Civil actions and other proceedings.—The
petitioner in a post- grant review of a claim in a
patent under this chapter that results in a final
written decision under section 328(a), or the real
party in interest or privy of the petitioner, may not
assert either in a civil action arising in whole or in
part under section 1338 of title 28 or in a proceeding
before the International Trade Commission under

230a
section 337 of the Tariff Act of 1930 that the claim
is invalid on any ground that the petitioner raised
or reasonably could have raised during that postgrant review.
(f) Reissue Patents.—A post-grant review may not
be instituted under this chapter if the petition
requests cancellation of a claim in a reissue patent
that is identical to or narrower than a claim in the
original patent from which the reissue patent was
issued, and the time limitations in section 321(c)
would bar filing a petition for a post-grant review for
such original patent.
35 U.S.C. § 326
CONDUCT OF POST-GRANT REVIEW
(a) Regulations.—The
regulations—

Director

shall

prescribe

(1) providing that the file of any proceeding under
this chapter shall be made available to the public,
except that any petition or document filed with the
intent that it be sealed shall, if accompanied by a
motion to seal, be treated as sealed pending the
outcome of the ruling on the motion;
(2) setting forth the standards for the showing of
sufficient grounds to institute a review under
subsections (a) and (b) of section 324;
(3) establishing procedures for the submission of
supplemental information after the petition is filed;
(4) establishing and governing a post-grant review
under this chapter and the relationship of such
review to other proceedings under this title;

231a
(5) setting forth standards and procedures for
discovery of relevant evidence, including that such
discovery shall be limited to evidence directly
related to factual assertions advanced by either
party in the proceeding;
(6) prescribing sanctions for abuse of discovery,
abuse of process, or any other improper use of the
proceeding, such as to harass or to cause
unnecessary delay or an unnecessary increase in
the cost of the proceeding;
(7) providing for protective orders governing the
exchange
and
submission
of
confidential
information;
(8) providing for the filing by the patent owner of a
response to the petition under section 323 after a
post-grant review has been instituted, and
requiring that the patent owner file with such
response, through affidavits or declarations, any
additional factual evidence and expert opinions on
which the patent owner relies in support of the
response;
(9) setting forth standards and procedures for
allowing the patent owner to move to amend the
patent under subsection (d) to cancel a challenged
claim or propose a reasonable number of substitute
claims, and ensuring that any information
submitted by the patent owner in support of any
amendment entered under subsection (d) is made
available to the public as part of the prosecution
history of the patent;
(10) providing either party with the right to an oral
hearing as part of the proceeding;

232a
(11) requiring that the final determination in any
post-grant review be issued not later than 1 year
after the date on which the Director notices the
institution of a proceeding under this chapter,
except that the Director may, for good cause shown,
extend the 1-year period by not more than 6 months,
and may adjust the time periods in this paragraph
in the case of joinder under section 325(c); and
(12) providing the petitioner with at least 1
opportunity to file written comments within a time
period established by the Director.
(b) Considerations.—In prescribing regulations
under this section, the Director shall consider the
effect of any such regulation on the economy, the
integrity of the patent system, the efficient
administration of the Office, and the ability of the
Office to timely complete proceedings instituted under
this chapter.
(c) Patent Trial and Appeal Board.—The Patent
Trial and Appeal Board shall, in accordance with
section 6, conduct each post-grant review instituted
under this chapter.
(d) Amendment of the Patent.—
(1) In general.—During a post-grant review
instituted under this chapter, the patent owner may
file 1 motion to amend the patent in 1 or more of the
following ways:
(A) Cancel any challenged patent claim.
(B) For each challenged claim, propose
reasonable number of substitute claims.

a

(2) Additional motions.—Additional motions to
amend may be permitted upon the joint request of

233a
the petitioner and the patent owner to materially
advance the settlement of a proceeding under
section 327, or upon the request of the patent owner
for good cause shown.
(3) Scope of claims.—An amendment under this
subsection may not enlarge the scope of the claims
of the patent or introduce new matter.
(e) Evidentiary Standards.—In a post-grant review
instituted under this chapter, the petitioner shall have
the burden of proving a proposition of unpatentability
by a preponderance of the evidence.
35 U.S.C. § 327
SETTLEMENT
(a) In General.—A post-grant review instituted
under this chapter shall be terminated with respect to
any petitioner upon the joint request of the petitioner
and the patent owner, unless the Office has decided
the merits of the proceeding before the request for
termination is filed. If the post-grant review is
terminated with respect to a petitioner under this
section, no estoppel under section 325(e) shall attach
to the petitioner, or to the real party in interest or
privy of the petitioner, on the basis of that petitioner's
institution of that post-grant review. If no petitioner
remains in the post-grant review, the Office may
terminate the post-grant review or proceed to a final
written decision under section 328(a).
(b) Agreements in Writing.—Any agreement or
understanding between the patent owner and a
petitioner, including any collateral agreements
referred to in such agreement or understanding, made
in connection with, or in contemplation of, the

234a
termination of a post-grant review under this section
shall be in writing, and a true copy of such agreement
or understanding shall be filed in the Office before the
termination of the post-grant review as between the
parties. At the request of a party to the proceeding, the
agreement or understanding shall be treated as
business confidential information, shall be kept
separate from the file of the involved patents, and
shall be made available only to Federal Government
agencies on written request, or to any person on a
showing of good cause.
35 U.S.C. § 328
DECISION OF THE BOARD
(a) Final Written Decision.—If a post-grant review
is instituted and not dismissed under this chapter, the
Patent Trial and Appeal Board shall issue a final
written decision with respect to the patentability of
any patent claim challenged by the petitioner and any
new claim added under section 326(d).
(b) Certificate.—If the Patent Trial and Appeal
Board issues a final written decision under subsection
(a) and the time for appeal has expired or any appeal
has terminated, the Director shall issue and publish a
certificate canceling any claim of the patent finally
determined to be unpatentable, confirming any claim
of the patent determined to be patentable, and
incorporating in the patent by operation of the
certificate any new or amended claim determined to be
patentable.
(c) Intervening Rights.—Any proposed amended or
new claim determined to be patentable and
incorporated into a patent following a post-grant

235a
review under this chapter shall have the same effect
as that specified in section 252 for reissued patents on
the right of any person who made, purchased, or used
within the United States, or imported into the United
States, anything patented by such proposed amended
or new claim, or who made substantial preparation
therefor, before the issuance of a certificate under
subsection (b).
(d) Data on Length of Review.—The Office shall
make available to the public data describing the
length of time between the institution of, and the
issuance of a final written decision under subsection
(a) for, each post-grant review.
35 U.S.C. § 329
APPEAL
A party dissatisfied with the final written decision of
the Patent Trial and Appeal Board under section
328(a) may appeal the decision pursuant to sections
141 through 144. Any party to the post-grant review
shall have the right to be a party to the appeal.

236a
Leahy-Smith America Invents Act,
Pub. L. No. 112-29, § 18, 125 Stat 284, 329 (2011)
(35 U.S.C. § 321 note)
SEC. 18. TRANSITIONAL PROGRAM FOR
COVERED BUSINESS METHOD PATENTS.
(a) TRANSITIONAL PROGRAM.—
(1) ESTABLISHMENT.—Not later than the date
that is 1 year after the date of the enactment of this
Act, the Director shall issue regulations
establishing and implementing a transitional postgrant review proceeding for review of the validity of
covered business method patents. The transitional
proceeding implemented pursuant to this
subsection shall be regarded as, and shall employ
the standards and procedures of, a post-grant
review under chapter 32 of title 35, United States
Code, subject to the following:
(A) Section 321(c) of title 35, United States Code,
and subsections (b), (e)(2), and (f) of section 325 of
such title shall not apply to a transitional
proceeding.
(B) A person may not file a petition for a
transitional proceeding with respect to a covered
business method patent unless the person or the
person's real party in interest or privy has been
sued for infringement of the patent or has been
charged with infringement under that patent.
(C) A petitioner in a transitional proceeding who
challenges the validity of 1 or more claims in a
covered business method patent on a ground
raised under section 102 or 103 of title 35, United
States Code, as in effect on the day before the

237a
effective date set forth in section 3(n)(1), may
support such ground only on the basis of—
(i) prior art that is described by section 102(a)
of such title of such title (as in effect on the day
before such effective date); or
(ii) prior art that—
(I) discloses the invention more than 1 year
before the date of the application for patent
in the United States; and
(II) would be described by section 102(a) of
such title (as in effect on the day before the
effective date set forth in section 3(n)(1)) if
the disclosure had been made by another
before the invention thereof by the applicant
for patent.
(D) The petitioner in a transitional proceeding
that results in a final written decision under
section 328(a) of title 35, United States Code,
with respect to a claim in a covered business
method patent, or the petitioner's real party in
interest, may not assert, either in a civil action
arising in whole or in part under section 1338 of
title 28, United States Code, or in a proceeding
before the International Trade Commission
under section 337 of the Tariff Act of 1930 (19
U.S.C. 1337), that the claim is invalid on any
ground that the petitioner raised during that
transitional proceeding.
(E) The Director may institute a transitional
proceeding only for a patent that is a covered
business method patent.

238a
(2) EFFECTIVE DATE.—The regulations issued
under paragraph (1) shall take effect upon the
expiration of the 1–year period beginning on the
date of the enactment of this Act and shall apply to
any covered business method patent issued before,
on, or after that effective date, except that the
regulations shall not apply to a patent described in
section 6(f)(2)(A) of this Act during the period in
which a petition for post-grant review of that patent
would satisfy the requirements of section 321(c) of
title 35, United States Code.
(3) SUNSET.—
(A) IN GENERAL.—This subsection, and the
regulations issued under this subsection, are
repealed effective upon the expiration of the 8–
year period beginning on the date that the
regulations issued under to paragraph (1) take
effect.
(B) APPLICABILITY.—Notwithstanding
subparagraph (A), this subsection and the
regulations issued under this subsection shall
continue to apply, after the date of the repeal
under subparagraph (A), to any petition for a
transitional proceeding that is filed before the
date of such repeal.
(b) REQUEST FOR STAY.—
(1) IN GENERAL.—If a party seeks a stay of a civil
action alleging infringement of a patent under
section 281 of title 35, United States Code, relating
to a transitional proceeding for that patent, the
court shall decide whether to enter a stay based
on—

239a
(A) whether a stay, or the denial thereof, will
simplify the issues in question and streamline the
trial;
(B) whether discovery is complete and whether a
trial date has been set;
(C) whether a stay, or the denial thereof, would
unduly prejudice the nonmoving party or present
a clear tactical advantage for the moving party;
and
(D) whether a stay, or the denial thereof, will
reduce the burden of litigation on the parties and
on the court.
(2) REVIEW.—A party may take an immediate
interlocutory appeal from a district court's decision
under paragraph (1). The United States Court of
Appeals for the Federal Circuit shall review the
district court's decision to ensure consistent
application of established precedent, and such
review may be de novo.
(c) ATM EXEMPTION FOR VENUE PURPOSES.
—In an action for infringement under section 281 of
title 35, United States Code, of a covered business
method patent, an automated teller machine shall not
be deemed to be a regular and established place of
business for purposes of section 1400(b) of title 28,
United States Code.
(d) DEFINITION.—
(1) IN GENERAL.—For purposes of this section,
the term “covered business method patent” means a
patent that claims a method or corresponding
apparatus for performing data processing or other
operations used in the practice, administration, or

240a
management of a financial product or service,
except that the term does not include patents for
technological inventions.
(2) REGULATIONS.—To assist in implementing
the transitional proceeding authorized by this
subsection, the Director shall issue regulations for
determining whether a patent is for a technological
invention.
(e) RULE OF CONSTRUCTION.—Nothing in this
section shall be construed as amending or interpreting
categories of patent-eligible subject matter set forth
under section 101 of title 35, United States Code.

241a

APPENDIX J

DOCKET NO: CELG-0088

PATENT

IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE
In re application of:
Marc Elsayed and
Bruce Williams
Serial No: 09/143,569

Group Art Unit: 3736

Filed: August 28, 1998

Examiner: M. Astorino

For:
METHOD FOR DELIVERING A
DRUG TO A PATIENT WHILE PREVENTING
THE EXPOSURE OF A FOETUS OR OTHER
CONTRAINDICATED INDIVIDUAL TO THE
DRUG
I, David A. Cherry, Registration No. 35,099,
certify that this correspondence is being
deposited with the U.S. Postal Service as first
class mail in an envelope addressed to the
Assistant Commissioner for Patents,
Washington, D.C. 20231.
On November 10, 1999
s/David A Cherry
David A. Cherry, Registration No. 35,099

242a
Assistant Commissioner for Patents
Washington, D.C. 20231
Dear Sir:
REPLY UNDER 37 C.F.R. § 1.111 TO OFFICE
ACTION DATED OCTOBER 7, 1999
In response to the Office Action mailed
October 7, 1999, reconsideration of the present
application in view of the following remarks is
requested respectfully.
DISCUSSION OF THE OFFICE ACTION
The Office Action includes a rejection of claims 1
and 4 to 11 under 35 U.S.C. § 103(a) as being
unpatentable over Sloane, U.S. Patent No. 5,619,991
(“Sloane”). It is basically asserted in the Office Action
that the Sloane patent discloses the methods defined
in Applicants’ claims. Applicants respectfully traverse
the rejection, and respectfully submit that the present
method is neither disclosed nor suggested in the cited
reference.
THE CLAIMED INVENTION
Generally speaking, the present invention is
directed to methods for delivering a drug to a patient.
An important and critical feature of the invention,
which is recited in independent claim 1, is that the
methods may be used, e.g., to deliver a teratogenic
drug to patients in need of the drug while avoiding
the delivery of the drug to a foetus. Independent
claim 11 importantly and critically defines methods
for delivering a potentially hazardous drug to patients
in need of the drug while avoiding the delivery of
the drug to persons for whom the drug is

243a
contraindicated. As discussed in detail below, there
is no disclosure or suggestion in the cited art of the
methods defined in Applicants’ claims.
DISCUSSION OF THE SLOANE PATENT
Sloane discloses methods for delivering medical
services by using the internet to facilitate
communication between several remote locations
(column 1, lines 40 to 62). According to the methods
in this document, an “e-doc” can communicate with a
patient, then email, or otherwise transmit via the
internet, instructions or data back to the patient, to
remote medical diagnostic centers, to other medical
service providers, such as pharmacies, hospitals and
ambulance services, and to the Center for Disease
Control or some other epidemiological database
computer facility (column 1, lines 63 et seq.).
Independent claim 1 distinguishes over Sloane by
defining methods for the delivery of a teratogenic drug
to patients in need of the drug while avoiding the
delivery of the drug to a foetus. Independent claim 11
distinguishes over Sloane by defining methods for
delivering a potentially hazardous drug to patients in
need of the drug while avoiding the delivery of the
drug to persons for whom the drug is contraindicated.
It is submitted respectfully that there is no disclosure
or suggestion whatsoever in Sloane of the methods
defined in Applicants’ claims. Instead, Sloane is
merely directed to the general use of electronic data
communications to improve the process by which
patient disease is diagnosed and/or treated. Sloane is
utterly silent regarding the use of computer readable
storage media to deliver to patients potentially
dangerous drugs, for example, teratogenic drugs,

244a
while at the same time avoiding their delivery to
persons to whom the drugs are contraindicated, for
example, foetuses. Clearly, Sloane fails completely to
disclose or suggest the elements recited in Applicants’
defined
methods
including,
for
example,
(a) registering in a computer readable medium drug
prescribers, pharmacies and patients (including
information regarding the likelihood of patients
having a condition (e.g., female patients who are
capable of becoming pregnant) which contraindicates
exposure to a drug (e.g., a teratogenic drug);
(b) retrieving from the medium information to identify
a subpopulation of the patients that have a condition
making them contraindicated to the drug (for example,
in the case of teratogenic drugs, female patients
capable of becoming pregnant and/or male patients
capable of impregnating females); (c) providing to the
subpopulation counseling information regarding the
risks associated with exposure to the drug;
(d) determining whether patients in the subpopulation
have
the
contraindicated
condition;
and
(e) authorizing the registered pharmacies to fill
prescriptions from the registered prescribers for the
non-contraindicated, registered patients.
These
claimed method steps are utterly lacking in the Sloane
patent.
In making the rejection, the following statement
appears in the Office Action.
In regard to claims 1 and 11, Sloane discloses a
method for delivering drugs to patients while
avoiding the delivery of said drug to a foetus
comprising registering a qualified prescriber (12)
in a computer readable storage medium (10),
registering patients and patient data (11)

245a
registering pharmacies to fill prescriptions (13),
registering patients and patient data (11),
providing counseling information to a patient
(column 3-5, lines 38-8), determining whether the
patient is pregnant (65), and authorization of
prescriptions to be filled (column 6, lines 47-51).
See Office Action, page 2. Applicants respectfully
disagree with the Examiner’s statement, and submit
respectfully that the Examiner has mischaracterized
the teachings in the Sloane patent.
In this connection, Applicants acknowledge that
Sloan’s “e-doc” may contain patient data, for example,
name, address, billing insurance information and
previous illnesses and surgeries (column 3, lines 56 to
60). Sloane also teaches that systems, such as
epidemiological systems, may be invoked to gather
information regarding foods the patient may have
eaten, whether the patient has traveled recently, and
the like (column 4, lines 34 to 40). In addition, the
Sloane’s “e-doc” may electronically order diagnostic
tests, such as blood tests, sputum analysis or throat
cultures (column 2, lines 3 to 4). However, what
Sloane does not show are procedures for identifying an
at-risk subpopulation, and prescribing a drug to
patients while avoiding delivery of that drug to the atrisk subpopulation as described and claimed in the
present application. Nor does Sloane teach how the
disclosed methods would provide any checks and
balances to insure that only registered prescribers or
pharmacies would be allowed access to the drug in
question.
Sloane fails also to teach methods in which the
information regarding the parties involved in the

246a
disclosed methods, for example, physician, pharmacy
and patient, are registered in a central computer
readable storage medium. In this regard, the abovequoted text from the Office Action refers to item (10)
as a computer readable storage medium. However,
Applicants submit that item (10) in Sloane refers
solely to the internet (see column 2, line 65), i.e., a
communications network.
Applicant submits
respectfully that this is not a computer readable
storage medium, as defined in Applicants’ claims.
It is submitted respectfully that Sloane merely
describes a method of facilitating traditional medical
practices by taking advantage of the communication
efficiency of the internet. Applicants’ claims, on the
other hand, define methods for centralizing certain
information in a computer readable medium,
requiring that qualified prescribers, pharmacies, and
patients be registered in that medium, and requiring
that the medium be accessed and certain procedures
complied with before the medication in question can
be delivered to the patient.
Thus, Applicants’
invention clearly goes far beyond merely using
computers to facilitate communication between a
patient and medical service providers as described in
the Sloane patent. It is submitted respectfully that
there is simply no reason to conclude that it would
have been obvious for one skilled in the art to arrive at
the methods of the present invention based on the
Sloane patent.
The methods defined in the present claims differ
from the methods disclosed in Sloane based not only in
the recited process steps, but also in the benefits and
attributes which flow from the recited steps. In this
connection, Applicants teach in the present

247a
application that the present methods provide
advantageous and effective means for monitoring,
controlling and authorizing the distribution of drugs
to patients, particularly teratogenic drugs (page 4,
lines 12 to 14). The claimed methods include a variety
of checks and controls which serve to limit
unauthorized and possibly inappropriate distribution
of the drug (page 4, lines 14 to 16). Thus, drugs,
including potentially hazardous drugs, may be
distributed in accordance with embodiments of the
present invention and such drugs may be distributed
in such a fashion that persons for whom such drugs
are contraindicated will not receive them (page 4, lines
21 to 24). In the case of teratogenic drugs, the checks
and balances may be particularly advantageous for
preventing distribution of the drug to patients whose
use of the drug may pose an unacceptable risk of foetal
exposure (page 4, lines 16 to 18). Accordingly, the
present methods may be advantageously used to avoid
exposure of foetuses to teratogenic drugs, thereby
avoiding the terrible birth defects which may result
from such exposure (page 4, lines 18 to 20). These
benefits and attributes are completely lacking in the
teachings of the Sloane patent.
Applicants note also that the methods of the present
invention have been approved by the U.S. Food and
Drug Administration (“FDA”) for use in delivering the
teratogen thalidomide to patients while avoiding
foetal delivery. It is submitted respectfully that the
FDA’s approval of Applicants’ methods confirms that
the methods defined in the present claims are a
remarkable advance in the art of safe and effective
drug delivery.

248a
MISCELLANEOUS
Applicants acknowledge the Examiner’s favorable
indication that claims 2 and 3 would be allowable if
rewritten in independent form to include all of the
recitations of the base claim and any intervening
claims from which they depend. Applicants appreciate
the Examiner’s willingness to allow these dependent
claims. However, in view of the above remarks, it is
submitted respectfully that it is unnecessary to place
claims 2 and 3 in independent form, at this time.
CONCLUSION
Applicants believe that the foregoing constitutes a
complete and full response to the Office Action of
record.
Accordingly, an early and favorable
reconsideration of the rejections and an allowance of
all of pending claims 1 to 11 is respectfully requested.
Respectfully Submitted,
s/David A Cherry________
David A. Cherry
Registration No. 35,099

Date: November 10, 1999
WOODCOCK WASHBURN KURTZ
MACKIEWICZ & NORRIS LLP
One Liberty Place - 46th Floor
Philadelphia, PA 19103
(215) 568-3100

249a

APPENDIX K

DOCKET NO: CELG-0188

PATENT

IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE
In re application of:
Bruce Williams, et al.
Serial No: 09/694,217

Group Art Unit: 3734

Filed:
October 23, 2000

Examiner: Veniaminov, N.

For: METHODS FOR DELIVERING A DRUG
TO A PATIENT WHILE AVOIDING THE
OCCURRENCE OF AN ADVERSE SIDE EFFECT
KNOWN OR SUSPECTED OF BEING CAUSED
BY THE DRUG.
I, S. Maurice Valla, Registration No. 43,966,
certify that this correspondence is being
deposited with the U.S. Postal Service as First
Class mail in an envelope addressed to the
Assistant Commissioner for Patents,
Washington, D.C. 20231.
On March 23, 2001
s/S. Maurice Valla
S. Maurice Valla, Registration No. 43,966

250a
Assistant Commissioner for Patents
Washington, D.C. 20231
Dear Sir:
AMENDMENT
This is a response to an Office Action mailed on
January 18, 2001. Please amend the application,
without prejudice, as follows.
In the Claims:
Amend claims 1, 10 and 15, without prejudice, as
follows:
1. (Amended) In a method for delivering a drug to
a patient in need of the drug, while avoiding the
occurrence of an adverse side effect known or
suspected of being caused by said drug, wherein said
method is of the type in which prescriptions for said
drug are filled only after a computer readable storage
medium has been consulted to assure that the
prescriber is registered in said medium and qualified
to prescribe said drug, that the pharmacy is registered
in said medium and qualified to fill the prescription for
said drug, and the patient is registered in said medium
and approved to receive said drug, the improvement
comprising:
a.

defining a plurality of patient risk groups based
upon a predefined set of risk parameters for
said drug;

b.

defining a set of information to be obtained from
said patient, which information is probative of
the risk that said adverse side effect is likely to
occur if said drug is taken by said patient;

251a
c.

in response to said information set, assigning
said patient to at least one of said risk groups
and entering said risk group assignment in said
medium ;

d.

based upon said information and said risk
group assignment, determining whether the
risk that said adverse side effect is likely to
occur is acceptable; and

e.

upon a determination that said risk is
acceptable, generating a prescription approval
code to be retrieved by said pharmacy before
said prescription is filled.

10. (Amended) The method of claim 7 wherein said
diagnostic testing comprises genetic testing.
15. (Amended) The method of claim 1 further
comprising:
f.

defining for each said risk group a second set of
information to be collected from said patient on
a periodic basis;

g.

obtaining said second set of information from
said patient; and

h. entering said second set of information in said
medium before said patient is approved to
receive said drug.
REMARKS
Reconsideration of the present application in view
of the above amendments and following remarks is
requested respectfully. Claims 1 to 32 are pending in
the application. Claims 1, 10 and 15 have been
amended. No claims have been added or canceled.
The amendment to Claim l is fully supported in the
application as filed and no new matter has been

252a
introduced by this amendment.
The step of
determining that the risk is acceptable is disclosed, for
example, at page 17, lines 22 to 26. Generation of a
prescription approval code to be retrieved by the
pharmacy before the prescription is filled is disclosed,
for example, at page 20, line 17 to page 21, line 5. The
amendments to Claims 10 and 15 are editorial in
nature.
In the Office Action dated January 18, 2001, it is
indicated that Claims 28 to 32 would be allowable if
rewritten in independent form. Applicants thank the
Examiner for indicating that these claims define
allowable subject matter. As will be discussed more
fully below, Applicants believe amended Claim 1 also
defines allowable subject matter.
Accordingly,
Applicants have elected not to re-cast Claim 28 in
independent form at this time.
Claims 1 to 27 stand rejected under 35 U.S.C.
§ 103(a) over Elsayed, et al, U.S. Patent No. 6,045,50l
(“Elsayed”) in view of Schauss, et al., U.S. Patent No.
6,063,026 (“Schauss”).
Although Applicants
respectfully disagree with the Examiner in this
regard, in order to facilitate prosecution of the instant
application, Applicants have amended Claim 1 to
further define over the cited references.
Claim 1 defines an improved method for delivering
a drug to a patient in need of the drug while avoiding
the occurrence of an adverse side effect known or
suspected of being caused by the drug. In this method,
the drug is to be delivered to the patient only after a
computer readable storage medium has been
consulted to assure that the prescriber, the patient
and the pharmacy have been registered in the

253a
medium.
This method further involves the
assignment of the patient to a risk group, based upon
information gathered from the patient that is
probative of the risk that the adverse side effect will
occur if the drug is taken by the patient, and the entry
of this risk group assignment in the computer readable
storage medium. As amended herein, Claim 1 further
involves a determination, based upon the risk group
assignment and the information collected from the
patient, whether the risk of the side effect occurring is
acceptable, and upon a determination that the risk is
acceptable, generation of a prescription approval code,
which is to be retrieved by the pharmacy before the
prescription may be filled.
Elsayed, although teaching a method which
contains many of the steps of the present invention,
contains no disclosure of the generation of a
prescription approval code as recited in amended
Claim 1. Nor is there any explicit description in
Elsayed of the benefits and attributes which flow from
the inclusion of this step. As discussed in the
specification, for example at page 20, line 27 to page
21, line 5, the inventors have found that improved
compliance with the drug delivery methods of the
present invention may be achieved when the patient’s
risk group assignment and all required information is
entered in the computer readable storage medium,
and it is determined that the risk is acceptable, prior
to generation of a prescription approval code. Thus, in
accordance with the methods defined in the present
claims, when the patient presents a prescription to the
pharmacy, all the registered pharmacy need do is
consult the computer readable storage medium, and
the pharmacy is permitted to dispense the drug upon

254a
successfully retrieving a prescription approval code
therefrom. Elsayed simply does not teach or suggest
the improved methods defined by Applicants’ claims.
Applicants
respectfully
submit
that
the
aforementioned teachings are also lacking from
Schauss. Although Schauss may describe a medical
diagnostic analysis system that evaluates patient data
obtained from questioning a patient or medical
testing, Schauss contains no disclosure remotely
related to the generation of a prescription approval
code, this being the subject of Applicants’ claims.
For these reasons, Applicants respectfully submit
that the invention defined by Claim 1 and all claims
dependent therefrom is patentable over the combined
disclosure of Elsayed and Schauss, and request that
the rejection under Section 103 be withdrawn.
Applicants believe that the foregoing constitutes a
complete and full response to the Office Action of
record.
Accordingly, an early and favorable
reconsideration of the rejections and an allowance of
all of pending Claims 1 to 32 are respectfully
requested.
Attached hereto is a marked-up version of the
changes made to the specification and claims by the
current amendment. The attached page is captioned
“Version with markings to show changes made.”
Respectfully submitted,
s/S. Maurice Valla
S. Maurice Valla
Registration No. 43,966

255a
Date: March 23, 2001
WOODCOCK WASHBURN KURTZ
MACKIEWICZ & NORRIS LLP
One Liberty Place - 46th Floor
Philadelphia, PA 19103
(215) 568-3100

VERSION WITH MARKINGS TO SHOW
CHANGES MADE
1. (Amended) In a method for delivering a drug to
a patient in need of the drug, while avoiding the
occurrence of an adverse side effect known or
suspected of being caused by said drug, wherein said
method is of the type in which prescriptions for said
drug are filled only after a computer readable storage
medium has been consulted to assure that the
prescriber is registered in said medium and qualified
to prescribe said drug, that the pharmacy is registered
in said medium and qualified to fill the prescription for
said drug, and the patient is registered in said medium
and approved to receive said drug, the improvement
comprising:
a.

defining a plurality of patient risk groups based
upon a predefined set of risk parameters for
said drug;

b.

defining a set of information to be obtained from
said patient, which information is probative of
the risk that said adverse side effect is likely to
occur if said drug is taken by said patient;

c.

in response to said information set, assigning
said patient to at least one of said risk groups

256a
and entering said risk group assignment in said
medium ; [and]
d.

[entering said risk group assignment in said
medium before said patient is approved to
receive said drug] based upon said information
and said risk group assignment, determining
whether the risk that said adverse side effect is
likely to occur is acceptable; and

e.

upon a determination that said risk is
acceptable, generating a prescription approval
code to be retrieved by said pharmacy before
said prescription is filled.

10. (Amended) The method of claim 7 wherein said
diagnostic testing comprises genetic testing.
15. (Amended) The method of claim 1 further
comprising:
[e]f. defining for each said risk group a second set of
information to be collected from said patient on
a periodic basis;
[f]g. obtaining said second set of information from
said patient; and
[g]h. entering said second set of information in said
medium before said patient is approved to
receive said drug.

